<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2016 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 114-214, Part 4]
[From the U.S. Government Publishing Office]


                                                S. Hrg. 114-214, Pt. 4
 

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               BEFORE THE
                               
                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1376

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2016 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 4

                                AIRLAND

                               ----------                              

                      MARCH 19 AND APRIL 14, 2015
                      
                      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                      


         Printed for the use of the Committee on Armed Services         
         Available via the World Wide Web: http://www.fdsys.gov/
         
         
         
                         U.S. GOVERNMENT PUBLISHING OFFICE
99-656 PDF                      WASHINGTON : 2016                         

_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88eff8e7c8ebfdfbfce0ede4f8a6ebe7e5a6">[email&#160;protected]</a>  



        

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                 ______

                        Subcommittee on Airland

                    TOM COTTON, Arkansas , Chairman

JAMES M. INHOFE, Oklahoma            JOE MANCHIN III, West Virginia
JEFF SESSIONS, Alabama               CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi         KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska                 MAZIE K. HIRONO, Hawaii
MIKE LEE, Utah                       MARTIN HEINRICH, New Mexico

                                  (ii)


                            C O N T E N T S

                              ----------                              

                             march 19, 2015

                                                                   Page

Air Force Structure and Modernization............................     1

LaPlante, Dr. William A., Assistant Secretary of the Air Force 
  For Acquisition................................................     4
Holmes, Lt. Gen. James M., USAF, Deputy Chief of Staff of the Air 
  Force for Strategic Plans and Requirements.....................    18
 Wolters, Lt. Gen. Tod D., USAF, Deputy Chief of Staff of the Air 
  Force for Operations...........................................    21

Questions for the Record.........................................    43

                             april 14, 2015

Army Modernization...............................................    51

Williamson, LTG Michael E., USA, Military Deputy and Director, 
  Army Acquisition Corps, Office of the Assistant Secretary of 
  the Army, Acquisition, Logistics, and Technology...............    55
McMaster, LTG Herbert R., Jr., USA, Director, Army Capabilities 
  Integration Center/Deputy Commanding General, Futures, U.S. 
  Army Training and Doctrine Command.............................    65
Ierardi, LTG Anthony R., USA, Deputy Chief of Staff of the Army, 
  G-8............................................................    67
Cheek, MG Gary H., USA, Assistant Deputy Chief of Staff of the 
  Army, G-3/5/7..................................................    67

Questions for the Record.........................................    91

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, MARCH 19, 2015

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

              AIR FORCE FORCE STRUCTURE AND MODERNIZATION

    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-222, Russell Senate Office Building, Senator Tom Cotton 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Cotton, Rounds, Ernst, 
Sullivan, Lee, Manchin, and Donnelly.

       OPENING STATEMENT OF SENATOR TOM COTTON, CHAIRMAN

    Senator Cotton. The hearing will come to order.
    I want to thank everyone for their attendance.
    The Airland Subcommittee convenes today to hear testimony 
regarding Air Force structure and modernization in review of 
the defense authorization request for fiscal year 2016 and the 
Future Years Defense Program (FYDP). I welcome the witnesses 
from the Air Force and thank them for their service to our 
country.
    As repeatedly stated by many expert and well-respected 
witnesses before the full committee in numerous recent 
hearings, our country is facing the most diverse, complex, and 
potentially dangerous threats to our national security in 
recent history. However, instead of strengthening our military 
and ensuring our men and women in uniform have the 
comprehensive training and world-class equipment they need, 
sustained defense budget cuts, in combination with mindless 
sequestration, are damaging our military's force structure, 
modernization, and readiness.
    In their testimony before the full committee, Secretary of 
the Air Force Deborah Lee James and Chief of Staff of the Air 
Force General Mark A. Welsh III described how the Air Force is 
both the smallest and oldest it has ever been, even while the 
demand for airpower continues to increase. They also stated 
that the qualities of capability and capacity are inextricably 
linked, that the Air Force cannot get any smaller and still 
provide the airpower capabilities the country needs and expects 
from the Air Force. I could not agree more.
    This conundrum comes at the same time as our hard-earned 
gains in the Middle East are challenged by the extremists of 
the Islamic State, President of Russia Vladimir Putin's 
aggressive activities to test the resolve of the North Atlantic 
Treaty Organization (NATO) alliance in Eastern Europe, and 
China continues a massive arms buildup to threaten the 
stability of the Asian-Pacific region and beyond. As Senator 
John McCain and Representative Mac Thornberry, chairmen of the 
Senate and House Armed Services Committees, stated in a recent 
op-ed, these increasingly aggressive activities by our 
adversaries is no coincidence as they observe our fiscal 
struggles, and therefore Congress must act to repeal the 
damaging effects of the Budget Control Act (BCA) of 2011 
funding caps and sequestration.
    Turning to Air Force operations, plans, and programs, I am 
deeply concerned with the Air Force's ability to execute the 
administration's stated defense strategy with its current 
inventory of combat squadrons. The Air Force today has 54 
fighter squadrons. The fiscal year 2016 budget proposes to 
reduce that number even further to 49 by retiring the venerable 
A-10 fleet and before the F-35A reaches full operational 
capability. When compared to the Air Force of Operation Desert 
Storm, today it has less than one-third of the combat power 
mustered for that air campaign. By your Chief of Staff's own 
statement, less than half of today's already insufficient 
number of fighter squadrons are fully combat ready and will not 
return to full readiness until 2023 due to the damaging effects 
of sequestration suffered in 2013 and will only be able to 
achieve those readiness levels barring another destructive 
round of sequestration in fiscal year 2016.
    With regard to the proposed A-10 fleet retirement, I hope 
our Air Force witnesses can explain to the subcommittee their 
plan for how to mitigate the loss of such a critical capability 
and reducing capacity even further and whose brave men and 
women are prosecuting the air war against the Islamic State as 
we speak. The retirement of 164 A-10s in fiscal year 2016 takes 
another five combat-coded squadrons out of the rotation, 
putting even more stress on the remaining force by increasing 
the frequency of their deployments, decreasing their dwell time 
at home station, and in turn reducing overall full spectrum 
readiness of combat forces even further. It is a capacity and 
readiness death spiral the Air Force can help avoid by 
deferring the retirement of these critical warplanes until the 
F-35 is fully operational and crews sufficiently trained and 
certified to replace the critical missions these aircraft 
perform.
    With regard to modernization, the Air Force is facing many 
large procurement programs over the next decade: the F-35A; the 
KC-46A; the long-range strike bomber (LRSB); the T-X T-38 
trainer replacement; the presidential aircraft replacement; the 
Joint Surveillance and Target Attack Radar System (JSTARS) 
replacement; next generation air dominance. The list is long 
and represents hundreds of billions of dollars required to 
recapitalize and modernize the force.
    While Congress only looks at one budget year at a time and 
the Department of Defense (DOD) and the Services formulate a 
Future Years Defense Plan covering 5 years of projected 
funding, I will be interested to hear how the Air Force will 
take a longer view on how to fit all of these required 
capabilities into its future budgets and how the fiscal year 
2016 budget proposal supports your plan.
    Additionally, the subcommittee is looking forward to 
hearing what actions the Air Force is taking to ensure this 
multitude of expensive programs keep cost growth under control, 
deliver on schedule, and make sure they deliver the 
capabilities our combatant commanders need to carry out their 
responsibilities.
    Finally, the committee received the Air Force's responses 
to the National Commission on the Structure of the Air Force 
report with its 42 recommendations for optimizing the use of 
the Reserve component. I understand your initial response is 
the first in a series of four annual Air Force reports on 
implementation of the commission's recommendations required by 
law. I understand that you agree with all but one of the 
recommendations and are in the process of either implementing 
or reviewing the other recommendations for potential 
implementation.
    However, I am concerned that while several of the 
commission's recommendations addressed the optimization of the 
force mix balance between the active and Reserve components, in 
your responses you refer to results of high velocity analyses 
that you have not yet shared with the subcommittee. I urge you 
to bring the results of your analytical reviews to us soon, 
prior to us beginning deliberations on the National Defense 
Authorization Act (NDAA) for fiscal year 2016.
    Again, I thank the witnesses for appearing before the 
subcommittee. I look forward to hearing your testimony.
    Senator Manchin?

                STATEMENT OF SENATOR JOE MANCHIN

    Senator Manchin. Thank you, Mr. Chairman. Since this is 
your first hearing in the chair, I want to congratulate you on 
being named chairman of the subcommittee. I know that you and I 
both are looking forward with our entire subcommittee this 
coming year.
    I too want to extend a welcome and thank each of our 
witnesses for appearing here before the subcommittee today. I 
also want to thank each of you, representing the men and women 
of our armed forces, for the wonderful jobs they are performing 
in Afghanistan and elsewhere around the world. We keep all of 
those who are serving right now in our thoughts and prayers and 
also remember that both they and their families are serving and 
sacrificing for each one of us every day.
    Our witnesses this afternoon face huge challenges as they 
strive balance the need to support ongoing operations and 
sustain readiness with the need to modernize and keep the 
technological edge so critical to military success. These 
challenges have been made particularly difficult by the 
spending caps imposed in the Budget Control Act (BCA) of 2011, 
caps that were modestly relieved for fiscal year 2015 in the 
Bipartisan Budget Act that we enacted earlier this year. 
However, these caps are scheduled to resume full blast in 
fiscal year 2016 and beyond. These caps already seriously 
challenge our ability to meet our national security needs and 
have already forced the military departments to make painful 
tradeoffs. Unless modified for fiscal year 2016 and later 
fiscal years, these caps will threaten our long-term national 
security interests.
    Every year we are challenged to make decisions balancing a 
number of competing demands for resources, including resources 
for current operations and investment in future modernization. 
In this case, we will be assessing plans and programs regarding 
the current status and future prospects for tactical aviation 
programs.
    We meet today to talk about a range of Air Force programs, 
including the F-35 Joint Strike Fighter program and aviation 
programs. Previous Air Force witnesses at our aviation hearings 
have also projected a potential shortfall of Air Force tactical 
fighters in excess of 800 aircraft around 2025. Several years 
ago, the Air Force, as part of the new defense strategy reduced 
Combat Air Forces (CAF) fighter force structure under the so-
called CAF Redux. Again this year, the Air Force is proposing 
further reductions, including eliminating the entire A-10 
aircraft fleet to generate savings of more than $3 billion.
    There are several other force structure adjustments that 
are of concern. The Air Force plans to eliminate seven Compass 
Call EC-30H aircraft in fiscal year 2016. There are other 
reductions, including the Airborne Warning and Control System 
(AWACS) and JSTARS, that are planned for later in the FYDP. 
While there is a plan to recapitalize the JSTARS with a new 
aircraft and radar program, I am concerned that the Air Force 
plans to retire aircraft like AWACS and Compass Call with no 
planned replacement in sight.
    There is also the continuing disagreement between Congress 
and the Air Force over modernization of the existing C-130H 
aircraft, including the C-130 avionics modernization program, 
or C-130 the Avionics Modernization Program (AMP). I believe 
that there are two issues within this discussion. The first is 
what should be done on the overall avionics modernization for 
the C-130H aircraft. The second issue relates to whether C-130H 
aircraft will be modified in time to comply with the Federal 
Aviation Administration (FAA) rules governing access to 
controlled airspace that take effect in 2020. The Air Force has 
established a program called the Viability and Airspace Access 
Program to deal with meeting the FAA deadline. This program 
would install automatic dependent surveillance-broadcast out, 
or ADS-B Out, avionics on C-130H aircraft. Whatever we do, I 
believe that we should ensure the Air Force can continue to 
operate the fleet of C-130H aircraft in the FAA-controlled 
airspace after 2020.
    There are a number of other issues that we may discuss, but 
in the interest of time, I am going to stop here. Again, I want 
to thank our witnesses for being here. I look forward to 
hearing your testimony.
    Thank you again, Mr. Chairman.
    Senator Cotton. Dr. LaPlante?

 STATEMENT OF DR. WILLIAM A. LaPLANTE, ASSISTANT SECRETARY OF 
                 THE AIR FORCE FOR ACQUISITION

    Dr. LaPlante. Thank you. Good afternoon, Mr. Chairman, 
Ranking Member Manchin. Thank you, distinguished members of 
this panel. Thank you for holding the hearing.
    It is always an honor to be here and I thank you for the 
opportunity to testify on the subject of force structure and 
modernization. These are two things, obviously, that are 
critical to the force of our Air Force.
    It is also an honor to be here with two incredible general 
officers, General Mike Mobile Holmes next to me on my left, 
your right, who is our Air Force planning and strategy. On my 
right is General Tod Wolters who is our A-3 operations, and so 
it is just a privilege to serve with great airmen like these 
two leaders.
    With your permission, I would like to submit my written 
statement for the record----
    Senator Cotton. Without objection.
    Dr. LaPlante. Thank you, and then just make some opening 
remarks.
    As you said, Mr. Chairman, in your opening statement better 
than I can say, the global security environment is incredibly 
complex, dynamic, changing. We have the fight today, the 
situation today which you described, but then we also have the 
issue that we have to deal with, which is not lose sight of 
modernization. For the pure adversary--and it is not even so 
much the pure adversary of the future, it is really even the 
pure adversary of today. That is kind of what our world is.
    I am privileged to say that we are the greatest air force 
in the world and remain so. But, to be honest--and I think this 
is true not just for the Air Force but this is true at the 
technology and systems level in the Department--many of us are 
growing concern that we are losing our margin. The enemies and 
potential adversaries of the United States have been watching 
us fight certainly for 15 years, but really, if you think about 
it, since the first Gulf War they have been watching what we 
have done, watching very carefully. They have watched and they 
understand where our seams are. They understand how to apply 
asymmetries against us, other large quantity against our 
quality, whether exploiting cyber, whether it is looking at EW 
[electronic warfare] as its own domain, and also, frankly, the 
effects of space. This has all been happening right in front of 
our eyes over the last few years, and we are all watching this. 
We are all concerned.
    It has often been said that one of the best things and most 
important ways our American military power is used is in the 
ability to shape and deter, what people call phase zero, phase 
one ops typically. The concern that some of us have is that is 
going both ways. In other words, there is shaping and deterring 
going on and it is not all one way. So this is a situation we 
are all very concerned about.
    But let me be clear. Again, we are the world's greatest air 
force. So what are we doing about some of these issues?
    First of all, we must protect our science and technology 
(S&T). We must protect our S&T. That is our future. We must 
learn and be able to innovate and we must rapidly bring in 
ideas and concepts and new players and work on this issue that 
is developing. You have heard the Deputy Secretary talk about a 
third offset strategy. That is the kind of thing we are all 
beginning to talk about and focus on, all in this environment, 
actually very difficult fiscal environment.
    So last year, last summer, Secretary James and Chief Welsh 
put out a strategy about the Air Force called A Call for the 
Future. The strategy was centered around a concept called 
Strategic Agility. Basically in my words, strategic agility is 
how do you build adaptability not just into your people, which 
you need, and your leaders but into your systems that you 
apply, how you fight, how you learn. It basically is about 
speed. We have to be faster than the adversary and we have to 
be faster than the technology that is breaking up. That is the 
fundamental metric of agility.
    So we are building this into how we are thinking, but we 
also have to innovate. We also have to assume that we are going 
to be operating and fighting our wars and fighting in ways we 
cannot predict, ways where the operator is going to be as 
inventive as always and learning new ways to operate the 
system. We have to assume we are going to discover things. We 
cannot build things assuming exquisite knowledge of the threat 
that then we have to change. We have to figure out how to 
change it.
    So what does that mean in our world? Well, in our world 
what it means is we, first of all, have to protect our high 
priority programs to make sure they are built that way. That is 
the whole strategy behind the LRSB, and I can talk about that 
later. But also for our new capitalizations. Mr. Chairman, you 
mentioned JSTARS recapitalization. We are building that right 
from the start assuming we are going to discover new 
technology. It is going to be an open architecture and new 
processing can go into it. We are not just assuming it is going 
to be a prime that is going to just have subs and it is going 
to be a closed system that is going to be the same for 30 
years. We are going to build it in at the very beginning. We 
are also going to build in sustainment considerations. 70 
percent of costs in the lifecycle of the program is not in the 
development, not in the procurement, but in the sustainment. So 
you have to build that in at the very beginning. So we are 
putting that into our programs. We are also doing with the new 
trainer.
    I also want to talk a little bit about the Air Force's 2016 
budget. The Air Force's number one mission priority--indeed, 
the Department's number one mission priority--is our nuclear 
deterrent. We use our nuclear deterrent every day and have had 
so for 50 years. It is the number one priority. We have to 
strengthen that. We have to invest in it. We also have to keep 
these high priority programs on track. We talked about the 
LRSB, but there is also, of course, F-35 and the tanker, and we 
have to protect them even in a sequester environment. I can 
answer questions about the protection of those programs and 
which ones we do not think we can protect in the sequester.
    We also have to put investment into space. We have to put 
investment into space. So this Call to the Future eloquently 
speaks for our need to stand--for our service to innovate and 
get at what stands between us and this future and to rapidly 
adapt. The gentlemen here at this table, along with our 
counterparts at the Defense Advanced Research Projects Agency 
(DARPA) and the Office of the Secretary of Defense (OSD), are 
embarking on that kind of an effort related to the third offset 
called ``developmental planning.'' We are getting back to our 
roots in the Air Force. We are going to work--the first subject 
we picked was air dominance, air superiority, say, in the 2030 
timeframe. What are the technologies, what are the concept of 
operations (CONOPS), tactics, techniques, and procedures (TTP), 
how do we experiment, and how do we make sure that we are the 
superior Air Force in 2030? I remind everybody this is not 
about the next platform only. Air dominance has everything to 
do with--yes, it has stealth but it has weapons. It has 
electromagnetic warfare. It involves space, cyber all together. 
So we have to think about this and the whole kill chain. So we 
are all getting on with that and we are also going to do the 
same thing on the future of the nuclear ground-based deterrent.
    So let me just finally say a few comments about the 
taxpayer and then turn it back over to the chairman and my 
other colleagues here.
    Obviously, we have to be a good steward of the taxpayer 
resources. Every dollar must count. We are implementing better 
buying power. We are having actually huge successes in better 
buying power. We are on 3.0 right now, huge savings and 
something called `should cost.' But we have to do more. We also 
have to do more in collaborations with industry. We have many 
projects under a ``bending the cost curve'' initiative over the 
last year with industry that are actually quite exciting. So we 
have to do that as well.
    So I look forward to answering your questions, Mr. 
Chairman, and with your committee's help, I think working 
together we can do this. We can do this and we will remain the 
best, greatest Air Force in the future. So, again, thank you 
very much.
    [The prepared joint statement of Dr. LaPlante, General 
Holmes, and General Wolters follows:]
  Joint Prepared Statement by Dr. William LaPlante, Lt. Gen. James M. 
        ``Mike'' Holmes, USAF, and Lt. Gen. Tod D. Wolters, USAF
                            i. introduction
    Chairman Cotton, Ranking Member Manchin, and distinguished members 
of the Airland Subcommittee, thank you for the opportunity to provide 
an update on the United States Air Force's Force Structure and 
Modernization. Effectively balancing our scarce budget resources across 
readiness, modernization, and force structure accounts is arguably now 
more important than ever before. We need your help; without bold 
leadership today--difficult decisions and a commitment to air, space, 
and cyberspace investment--America's airpower advantage is increasingly 
at risk.
    The U.S. Air Force is the most globally engaged air force on the 
planet. Whether dropping bombs, commanding satellites in space, 
delivering humanitarian relief, or protecting the homeland with an 
array of air, space, and cyberspace capabilities, American Airmen are 
in constant defense of our national interests. Alongside its Sister 
Services, the Air Force delivers the power, influence, agility, and 
global reach no other country currently possesses. But 24 years of 
continual combat operations, coupled with constrained and unstable 
budgets, has taken its toll. America needs a force ready for a spectrum 
of operations more global and complex than ever before. Instead, a 
relentless operations tempo, with fewer resources to fund, coordinate, 
and execute training and exercises, has left a force proficient in only 
those portions of the mission necessary for current operations. While 
the fiscal year 2016 President's Budget takes a critical step toward 
recovery, we remain stressed to deliver what the Nation asks of our Air 
Force. We must reverse this trend.
   ii. strategic approach to meeting 21st century defense challenges
    After more than 2 decades of nonstop combat operations, dominant 
trends point to a complex future that will challenge the Air Force in 
new and demanding ways. Adversaries are emerging in all shapes and 
sizes, and the pace of technological and societal change is 
increasing--with a corresponding increase in the demand for airpower. 
Furthermore, we cannot buy our way out of this one; we realize that it 
is time for the Air Force to think differently. Accordingly, senior Air 
Force leaders have developed a single, integrated strategy to guide the 
way our service organizes, trains, and equips the force to conduct 
future operations. Our strategy points the way forward and does not 
limit us to an intractable view of the future. It is actionable, with 
clear goals and vectors for implementation, assessment, and revision. A 
strategy-driven, resource-informed plan that emphasizes strategic 
agility will enable the Air Force to meet 21st century defense 
challenges.
    The Air Force's new strategic framework will guide us as we move 
forward. Last summer, we released the Air Force's strategic vision in 
America's Air Force: A Call to the Future. We are about to release the 
Air Force Strategic Master Plan (SMP), which translates the conceptual 
strategy in A Call to the Future into comprehensive guidance, goals, 
and objectives. Together these documents will drive the Strategy, 
Planning, and Programming Process that will arm and empower the Air 
Force, in collaboration with our partners, to defeat adversaries and 
defend the Nation and our allies in a complex future. An upcoming Air 
Force Future Operating Concept will further illuminate this strategy by 
broadly depicting how an agile, inclusive, and innovative Air Force 
should employ capabilities in the future.
    Understanding that we cannot ``see'' into the future, four emerging 
trends provide a strategic context for the strategy. The Air Force will 
need to win in complex battlespaces characterized by: rapidly changing 
technological breakthroughs, geopolitical instability, a wide range of 
operating environments, and an increasingly important and vulnerable 
global commons. These trends will shape the operational environment, 
and highlight the broader strategic issues for national defense.
    The Air Force will be proactive in meeting these challenges. As A 
Call to the Future states, ``We must commit to changing those things 
that stand between us and our ability to rapidly adapt.'' Faster 
adaptation and response--what we call strategic agility--will sustain 
the Air Force's unique contributions that are critical to the Nation. 
Agility is the counterweight to the uncertainty of the future and its 
associated rate of change. We will take significant, measurable steps 
to enhance our ability to wield innovative concepts and advanced 
capabilities in unfamiliar, dynamic situations.
    By embracing strategic agility, the Air Force will be able to move 
past the twentieth century's industrial-era processes and paradigms and 
be ready for the globally connected, information-based world of the 
coming decades. This approach requires an inclusive Air Force culture 
that fosters diversity of thought and inculcates a multi-domain mindset 
to solve challenges that span across traditional Air Force mission 
sets. We will become more agile in the ways we cultivate and educate 
airmen and in how we develop and acquire capabilities. Our operational 
training, employment, organizational structures, and personnel 
interactions will also become more agile to suit the dynamic security 
environment.
    The soon-to-be released Strategic Master Plan (SMP) describes what 
we will do to implement strategic agility. It translates strategic 
vision into action by providing authoritative direction for service-
wide planning and prioritization. The SMP includes four annexes--
``Human Capital,'' ``Strategic Posture,'' ``Capabilities,'' and 
``Science and Technology''--that provide more specific guidance and 
direction, further aligning the SMP's goals and objectives to future 
resource decisions. An ambitious and far-reaching undertaking, the base 
SMP will be updated every 2 years, with the annexes reviewed annually, 
to ensure a consistent and relevant connection between today's 
realities and tomorrow's potential. Certain sections will remain 
classified to ensure critical elements of the future force stay linked 
to the overall strategy.
    The Air Force strategy and the SMP provide authoritative guidance 
to planners across the Air Staff and major commands. These planners 
will align their supporting plans with the goals and objectives of the 
SMP as they apply their expertise to inform planning and resourcing. 
The guidance and direction in the SMP are designed to enable better 
enterprise-wide solutions to challenges and close the gaps that can 
form in execution. In this more robust strategy-driven environment, 
commanders and staffs will have proper direction and the necessary 
authority to reach goals by working discrete but connected actions--
epitomizing the balance of centralized control with decentralized 
execution.
    This summer, the Air Force will release a new Air Force Future 
Operating Concept that will further inform strategic planning by 
describing how we will use future Air Force forces to accomplish our 
five core missions across the range of military operations. A natural 
companion to the SMP, this document will provide an innovative 
portrayal of how an agile, multi-domain Air Force will operate in 20 
years' time. It will describe future integrated operations in terms of 
broad capabilities and the key competencies we desire in future airmen, 
and explain how these capabilities and competencies will address 
anticipated challenges in the future environment. The concept will 
depict a desired future Air Force that is the product of two decades of 
successful evolution in strategy-informed planning and resourcing; 
furthermore, it will serve as a baseline for continued concept 
development, experimentation, and refinement.
    Because strategy is not prescient, it must be adaptive as it seeks 
to balance the present with the future. There are no easy choices, and 
there is no time to lose--but the Air Force must make the right 
prioritization decisions now in order to be prepared to respond in the 
face of uncertainty. Our strategy-driven, resource-informed approach 
will enable us to achieve the strategic agility we need to meet twenty-
first century defense challenges in a complex world.
                         iii. operations update
    The Air Force flies and fights in air, space, and cyberspace--
globally and reliably--as a valued member of our Joint and Coalition 
teams. Approximately 205,000 Total Force Airmen are ``committed in 
place'' supporting daily Combatant Command (COCOM) operations to defend 
the homeland, provide command and control of our nuclear forces, 
operate remotely piloted aircraft, provide rapid global mobility, and 
many other requirements. Approximately 23,000 airmen are deployed 
across the globe, including more than 16,000 in the U.S. Central 
Command area of responsibility. The Air Force is an active partner in 
Department of Defense planning that will shift our emphasis from 
today's wars to a broader range of challenges and opportunities. The 
Department of Defense is currently reassessing the strategic guidance 
issued last year, but we anticipate continued emphasis on and planning 
for a rebalance to the Asia Pacific region. Our challenge is to provide 
those who deploy in support of our global commitments an Air Force that 
is capable, agile, flexible, ready, and technologically advanced.
    During 2014, Air Force aircraft flew over 87,000 sorties in support 
of Overseas Contingency Operations (OCO). On the home front, Air Force 
fighter, air refueling, and early warning aircraft have flown over 
67,000 total sorties supporting Operation Noble Eagle since September 
11, 2001. As a testament to the capability of our Total Force, the Air 
National Guard and Air Force Reserve have flown more than 65 percent of 
these sorties.
    Today, the Air Force is actively engaged in two major efforts; 
providing training and operational support to strengthen the Afghan 
Security Forces and Afghan Air Force in Afghanistan as part of 
Operation Freedom Sentinel (OFS) and the United Nations' International 
Security Assistance Force (ISAF) Resolute Support mission, and 
conducting operations against the Islamic State (ISIL) in Iraq and 
Syria as part of Operation Inherent Resolve (OIR).
    Our objectives as part of OFS are a counterterrorism (CT) mission 
against the remnants of al Qaeda and the NATO Resolute Support Train, 
Advise, and Assist (TAA) mission in support of Afghan security forces. 
The CT and TAA efforts are concurrent and complementary. While the U.S. 
and Afghan forces continue to attack the remnants of al Qaeda, we are 
also building the Afghan National Defense and Security Forces (ANDSF) 
so that they can secure the Afghan people and contribute to stability 
throughout the region. Both of these efforts will contribute to a more 
secure and productive Afghanistan and prevent the re-emergence of 
terrorist safe havens.
    The U.S. Air Force has helped develop the Afghan Special Mission 
Wing (SMW), which provides the Afghan Special Security Forces (ASSF) 
with the operational reach and manned Intelligence, Surveillance, 
Reconnaissance (ISR) capability to support counter terrorism and 
counter narcotics missions. The SMW is now executing long-range, full-
mission profiles in low illumination. Working together with the ASSF, 
the commando units and SMW are consistently running unilateral direct 
action missions against insurgent leaders and facilitators.
    The ISAF Resolute Support mission provides training, advice and 
assistance in eight key areas: multi-year budgeting; transparency, 
accountability and oversight; civilian oversight of the Afghan Security 
Institutions; force generation; force sustainment; strategy and policy 
planning, resourcing and execution; intelligence; and strategic 
communications. U.S. Air Force advisors work to develop the Afghan Air 
Force across their entire air enterprise--from fixed and rotary wing 
operations and maintenance, to engineering and logistics, to force 
development and helping them build a budget. The Afghan Air Force 
operates the Mi-17 transport helicopter, Mi-35 attack helicopter, 
Cessna 208B basic trainer and light lift aircraft, MD-530 light attack 
helicopter and the C-130 medium lift Hercules. Additional efforts are 
underway to include the A-29 Super Tucano light air support fighter, 
with future Afghan pilots currently in training in the United States. 
In the last year, the Afghan Air Force has taken over much of the 
mission, providing casualty evacuation and aerial attack in support of 
Afghan ground forces and are providing the majority of helicopter and 
much of the fixed wing maintenance.
    Our objectives as part of OIR are to support Iraqi and Kurdish 
forces on the ground as they take the fight to ISIL and to disrupt 
ISIL's use of Syria as a safe haven and degrade its ability to sustain 
itself via resupply, finance, and command and control. U.S. Airpower 
has already achieved positive effects in Iraq and Syria. By virtue of 
the pressure we're putting on ISIL from the air, we've changed their 
tactics and the way they communicate: they've dispersed, they're hiding 
among the population more, they aren't as free to operate as they once 
were. In Iraq and Kobani, Syria, airstrikes and resupply efforts have 
helped Iraqi and Kurdish forces to retake and hold key territory, 
although the situation on the ground remains dynamic. In Syria, 
airstrikes have attacked ISIL command and control (ex: headquarters 
buildings), logistics (training camps and vehicle staging areas), and 
revenue sources (modular oil refineries), making it harder for ISIL to 
sustain itself as a fighting force.
    The U.S. Air Force takes great care in everything from our 
intelligence collection and analysis to our choice of weapons used for 
targeting to minimize the chance of harming civilians. No other 
military in the world takes the responsibility to protect civilians 
more seriously than we do. In addition, the U.S. Air Force has 
alleviated civilian suffering in Iraq through delivery of 131,000 
meals, 58,000 gallons of water, and other vital supplies via airdrops 
in the vicinity of Mount Sinjar and Amirli--and, more importantly, by 
providing advice and training that have enabled the Iraqi air force to 
continue independent humanitarian relief and operational resupply 
efforts.
    Despite differences, the United States and our International 
Coalition partners are united over the long term against the common 
threat posed by ISIL. More than a dozen nations are supporting air 
operations against ISIL, where they are responsible for more than 20 
percent of all sorties and more than 15 percent of all strikes. More 
than 40 nations have expressed willingness to participate in the effort 
against ISIL, and more than 30 nations have indicated their readiness 
to offer military support. All 22 nations of the Arab League have 
adopted a resolution calling for comprehensive measures to combat ISIL.
    Despite these successes, we recognize there are limits to what U.S. 
Airpower can accomplish. Airstrikes alone will not achieve our full 
military objectives. The forces that matter most are indigenous ground 
forces. We have an Iraq-first strategy: air operations in Syria help 
shape conditions in Iraq. This is going to be a long, difficult 
struggle that requires strategic patience.
                 iv. force structure and modernization
Fighters
    Air Force fighter force structure is dependent on both fighter 
aircraft and rated manning. Four years ago, the Air Force determined 
through extensive analysis that a force structure of 1,200 primary 
mission aircraft and 2,000 total aircraft was required to execute the 
NMS with increased operational risk. Three years ago, based on the 2012 
Defense Strategic Guidance (DSG) and fiscal constraints, the Air Force 
rebalanced our force structure across core functions. Analysis showed 
the Air Force could decrease fighter force structure by approximately 
100 aircraft with higher risk, resulting in the current fighter 
requirement of 1,100 primary mission aircraft and 1,900 total aircraft. 
The 2014 Quadrennial Defense Review (QDR) report also advances an 
updated national defense strategy that embodies and builds on the DSG 
priorities. The Chairman's assessment of the QDR strategy states we 
will continue to need capabilities that can operate effectively in 
contested environments. During the build of the fiscal year 2015 
Presidents budget, fiscal constraints led to a plan for force structure 
divestments of 334 fighters, leaving a fighter force structure 
significantly below the 1900 total aircraft requirement. Fiscal 
pressures continue to drive these tough choices--balancing today's 
needs against tomorrows--and accepting near-term risk today to be ready 
and viable tomorrow.
    The Air Force's fighter fleet is approaching an average age of 30 
years--the oldest in the history of the Air Force. At 55 combat coded 
squadrons, moving to 49, it is also our smallest force ever--by 
comparison, there were 134 combat coded fighter squadrons in Operation 
Desert Storm. Beyond this capacity shortfall, this primarily fourth-
generation fleet also lacks the combat capability to prevail in future 
contested environments. Accordingly, across the fiscal year 2016 PB, we 
pursue efforts to recapitalize with new fifth-generation aircraft, and 
modernize and extend the service life of select aircraft in the 
existing fleet. This includes recapitalization through procurement of 
the F-35 Lightning II, and modernization programs like F-22 Increments 
3.2A and 3.2B and F-16 and F-15 avionics upgrades.
    Unfortunately, even with funding assigned to these critical 
investments, the President's budget funding levels do not provide the 
resources to retain aircraft force structure capacity needed to execute 
all COCOM requirements without risk to our ability to execute the 
defense strategy.'' Furthermore, beyond this ``risk to mission,'' or 
operational risk, our aircraft capacity shortfalls also present ``risk 
to force'' challenges, risks to the management of our rated force. 
Currently well short of our total fighter aircraft manning requirement, 
projections under current funding levels indicate this deficit will 
continue to grow, deficits that degrade vital air-operations, test and 
training expertise.
    The Active component Air Force is currently 520 fighter pilots 
short of the total fighter pilot manning requirement and our 
projections indicate this will worsen in the future. This shortfall is 
predicated on multiple factors, to include issues such as force 
structure changes and airline hiring. The Air National Guard and Air 
Force Reserve also have fighter pilot shortages which are helped by 
airline hiring. However, both Reserve components have an aged fighter 
pilot inventory and the new pilots affiliating now are replacing this 
older inventory. The impact of airline hiring is still being analyzed 
and these estimates will be refined. The shortfall evolved from force 
structure reductions that cut active duty fighter squadrons and fighter 
training squadrons to a number that cannot sustain billet requirements. 
As a result, the Air Force is currently unable to produce and 
experience the required number of fighter pilots across the total 
force. The Air Force is prioritizing overall available rated manpower 
to fill our operational cockpits, at significant risk to institutional 
requirements. Projected impacts include reductions in air-operations 
expertise during the development of war plans and a gradual erosion of 
fighter pilot experience in test and training. Without these fighter 
pilots, the Air Force will be very challenged to continue to provide 
the air supremacy upon which all our other forces depend.
A-10
    The A-10 provides our Joint Force Commanders with responsive, 
lethal, precise and persistent firepower for close air support and 
combat search and rescue. It has been a steady, stellar performer in 
all recent conflicts. Nevertheless, the A-10 is simply unaffordable in 
today's fiscal environment. Consistent with fiscal year 2015 Department 
of Defense Fiscal Guidance favoring multi-role aircraft to satisfy the 
DSG, the fiscal year 2016 PB again reflects the difficult decision to 
divest the A-10. Divesting the entire A-10 fleet frees up $4.7 billion 
across the Future Years Defense Program (FYDP), funding higher priority 
capacity, capability and readiness needs.
    Additionally, the A-10 cannot survive or operate effectively in a 
highly contested environment where there are more advanced aircraft or 
air defenses. Other weapon systems, from multi-role fighters to B-1 
bombers to remotely piloted aircraft, demonstrated in Iraq and 
Afghanistan that they can provide effective Close Air Support (CAS). 
These decisions, however, do come with certain risks and potential 
impacts to the mission. One of the impacts to using other platforms for 
CAS is that use of these platforms for CAS must be balanced with their 
other missions, putting stress on the force in certain scenarios. 
Divesting the entire fleet enables us to harvest savings we could then 
apply to efforts that allow us to be ready and viable tomorrow.
    The fiscal year 2016 budget does not fund future modernization 
efforts for A-10 aircraft; however, we will continue to sustain the 
aircraft and keep it operationally viable until 2019.
F-16
    The F-16, the Air Force's primary multi-role fighter aircraft, 
comprises 50 percent of our fighter fleet. The fiscal year 2016 PB 
invests $1.0 billion across the FYDP for F-16 modernization and service 
life extension, meeting critical warfighter needs beyond 2025. This 
investment funds key investments like avionics software enhancements 
for the integration of new weapons, avionics and improved targeting 
pods. Unfortunately, there are important capabilities we were not able 
to fund. These include major upgrades like the F-16 Combat Avionics 
Programmed Extension Suite (CAPES) program originally planned to 
upgrade 300 aircraft, and a Service Life Extension Program (SLEP) to 
extend by approximately 25 percent, from 8,000 hours to over 10,000 
hours, the airframe structural service life for 300 F-16s, adding 8 to 
10 years of service life to the Block 40-52 fleet. To partially 
mitigate the impact of terminating CAPES, the Air Force will upgrade 
the F-16's electronic attack pod, bringing self-protection capability 
in line with current and emerging threats. While the fiscal year 2016 
PB resumes many of the highest priority F-16 modernization efforts, the 
absence of the aforementioned modernization programs will adversely 
impact the F-16's effectiveness in future contested environments.
F-15 C/D
    Presently, we project the F-15C/D fleet will remain viable until at 
least 2040, with the potential for an airframe service life extension 
following full-scale fatigue testing concluding in 2015. The fiscal 
year 2016 PB invests approximately $1.7 billion across the FYDP for F-
15C/D fleet modernization and sustainment. This investment continues 
modernization of the F-15C/D with Active Electronically Scanned Array 
(AESA) radars, a more capable aircraft mission computer, a new 
electronic warfare self-protection suite, and the Eagle Passive/Active 
Warning Survivability System (EPAWSS). While the EPAWSS is crucial to 
ensuring F-15C/D operations in future contested environments, fiscal 
constraints forced a 2-year delay in fiscal year 2016 PB. Nevertheless, 
we believe currently funded modernization and sustainment programs will 
facilitate safe and effective operations for all 196 F-15C/D aircraft 
through at least 2040, pending results of the full-scale fatigue test.
F-15E
    The Air Force expects the F-15E to be an integral part of the 
Nation's force through at least 2040. Similar to the F-15C program, a 
full-scale fatigue test, due for completion in 2016, will provide 
insight into the need for, and feasibility of, a service life extension 
program. The fiscal year 2016 PB invests approximately $2.2 billion 
across the FYDP for F-15E modernization and sustainment. This includes 
integration of the latest precision weapons, a helmet mounted cueing 
system for all front seat cockpits, a state-of-the-art AESA radar 
system to advance target identification, a more capable aircraft 
mission computer, and a self-protection electronic warfare system 
(EPAWSS). As with the F-15C/D, the EPAWSS is crucial to ensuring F-15E 
operations in future contested environments.
Fifth Generation Fighters
    The F-22 and F-35 aircraft are absolutely essential to America's 
global superiority, ensuring air, sea, and ground force's freedom of 
action. Each aircraft possesses exclusive, complimentary and 
indispensable capabilities that provide synergistic effects across the 
spectrum of conflict. As future adversaries modernize, the F-22 and F-
35 will become even more critical as legacy fourth generation aircraft 
will have increasingly limited capability to operate in contested 
environments.
    Our Air Force must rapidly re-capitalize our tactical fighter fleet 
with sufficient capacity in fifth generation capability in order to 
maintain our ability to execute our National Defense Strategy in the 
near- to mid-term, and begin looking even further into the future at 
further modernization efforts that ensure continued dominance of 
American Airpower.
F-22
    The F-22 attributes of stealth, super cruise, integrated avionics 
and sensors combine to deliver the Raptor's unique operational 
capability, and F-22 modernization will counter advancing threats that 
specifically target the F-22. The F-22 is operating safely across the 
globe, averaging about 26,000 flying hours per year since its return to 
flight in September 2011. It has been over 36 months since the last 
unknown-cause hypoxia-like event occurred. Notably, the retrofit of the 
Automatic Back-up Oxygen System to the entire fleet is on track for 
completion by mid-April 2015.
    Focused on maintaining operational superiority against the evolving 
threat, the fiscal year 2016 PB includes $403.2 million in Research, 
Development, Testing, and Evaluation (RDT&E) and $202.4 million in 
procurement for F-22 modernization. Increment 3.1 is fielding now and 
is scheduled for completion in fiscal year 2017; it is designed to 
deliver advanced air-ground capabilities including Synthetic Aperture 
Radar (SAR) ground mapping, threat geolocation, and a Small Diameter 
Bomb (SDB) carriage. Increments 3.2A and 3.2B remain on track for 
fielding in 2015 and 2018, respectively. These increments will deliver 
advanced electronic protection and combat identification, AIM-120D and 
AIM-9X missile capability, and significantly-improved ground threat 
geolocation.
F-35
    During fiscal year 2016, the Air Force will continue to manage risk 
across the global precision attack portfolio by prioritizing investment 
in fifth-generation aircraft while sustaining legacy platforms as a 
bridge to the F-35 Joint Strike Fighter.
    The multi-role F-35A is the centerpiece of future fighter precision 
attack capability. In addition to complementing the F-22's world class 
air superiority capability, the F-35A is designed to penetrate air 
defenses and deliver a wide range of precision munitions. This modern, 
fifth-generation aircraft also brings the added benefit of increased 
allied interoperability and cost-sharing across the Services and eight 
partner nations. The fiscal year 2016 PB includes $4.9 billion for 
continued development and procurement of 44 F-35A, conventional take-
off and landing (CTOL) aircraft. The program continues to make steady 
progress in overcoming software development delays and technical issues 
and is on track to meet its Initial Operational Capability (IOC) in 
2016.
    The F-35 program reached several training milestones in 2014. May 
28, 2014 marked delivery of the 26th and final F-35A CTOL to Eglin Air 
Force Base, making the 58th Fighter Squadron the first complete Air 
Force F-35 unit. Earlier in the year, the Pilot Training Center at Luke 
Air Force Base received its first F-35A, and through the end of 2014, 
Luke's inventory included 17 U.S. F-35A aircraft. On July 24, 2014, AU-
1, Australia's first F-35A rolled off Lockheed Martin's Fort Worth 
assembly line. AU-2 was delivered in late 2014, joining AU-1 in the 
inventory at Luke. On August 7, 2014, the inaugural F-35A Crew Chief 
Mission Ready Airman class graduated nine airmen, paving the way for 
thousands of future F-35 maintainers.
    Like every developmental program over the past 50 years, the F-35 
program has made discoveries during test and development that have been 
and continue to be addressed and corrected. This is to be expected, and 
the Air Force remains confident in the program, as it continues to make 
solid and steady progress toward fielding the required capabilities to 
meet the Air Force's IOC criteria in 2016. In May 2014, the test team 
completed an AIM-120 weapons delivery accuracy test that was the first 
live fire Advanced Medium Range Air to Air Missile (AMRAAM) mission for 
the F-35B STOVL and the first dual AIM-120 launch for any variant. Also 
in May, the program completed its first test missions with Block 3i 
software, a critical step for Air Force IOC. In late Summer 2014, the 
first F-35A night CAS tests occurred at the National Training Center at 
Fort Irwin. A Joint Terminal Attack Controller (JTAC) used a laser 
designator to interact with the F-35 electro-optical targeting system, 
and the JTAC communicated with the F-35 pilots via electronic and voice 
messaging systems, successfully identifying ground targets. This 
successful demonstration of CAS capability was a major step toward IOC. 
To close out 2014, the test team successfully conducted multiple Joint 
Direct Attack Munition (JDAM) and AMRAAM weapons delivery accuracy 
tests and accomplished multiple SDB I weapons releases during a single 
delivery pass, a first for the program.
    While the program achieved substantial development and test 
progress in 2014, the test program experienced delays due to an engine 
anomaly at Eglin Air Force Base in June. Throughout the summer and into 
the fall, the Joint Program Office, Service System Commands and 
industry worked diligently to analyze the problem, prioritize test 
assets and return to flying status in a safe, methodical fashion. The 
program was subsequently able to determine root cause and developed an 
interim solution: a ``pre-trenched'' rub material that will be 
implemented in the field later this year. Pratt and Whitney has agreed 
to cover the costs for the repairs to engines in the field and the cut-
in of the solution to the production line, while the program office 
will pay for the design activity as per the development contract. The 
program continues its work on a long-term fix to the engine and expects 
to review and select from the design solutions this spring, followed by 
design and qualification testing, and finally, incorporation of the 
solution into the production line. This work is expected to be 
completed in 2015.
    Today, the program is on the road to IOC for the Air Force, and we 
expect the warfighter to be able to declare IOC as planned in 2016. 
Flight test for Block 2B is nearing completion and is underway for 
Block 3i, formal training operations at Luke Air Force Base are set to 
begin in May, and first aircraft arrival is projected for Hill Air 
Force Base in August. The first two F-35A aircraft are in place at 
Nellis Air Force Base to support tactics development for the 
warfighter, and we project over 25 more F-35A aircraft to deliver 
through the end of 2015, including the first deliveries for our 
Norwegian and Italian partners. Going forward, we will continue to 
closely monitor progress toward IOC, including completion of 
development and flight test for Block 2B/3i, final resolution to the 
engine issue, and continued maturation of Autonomic Logistics 
Information System (ALIS), a system that is critical to F-35 operations 
at home and abroad. The Air Force will also continue to watch progress 
for Block 3F (full warfighting capability), currently projected to 
complete 4-6 months later than planned. In fiscal year 2016, the Air 
Force plans to procure 44 F-35A CTOL aircraft. Sequestration did not 
affect Air Force procurement quantities in 2015. Affordability remains 
a major priority, and the F-35 program continues to make great strides 
on this front. The price of F-35s continues to decline steadily Lot 
after Lot. For example, the price of a Lot 7 F-35A was 4.3 percent less 
than a Lot 6 F-35A aircraft and a Lot 8 F-35A aircraft was 3.6 percent 
less than a Lot 7 F-35A, including the engine and profit for both 
contractors. Reductions are expected to continue into the future, 
leveraging the program's on-going affordability initiatives. By 2019, 
the expected price of an F-35A, with an engine and including profit, is 
expected to be between $80 and $85 million, in 2019 dollars.
Air-to-Surface Weapons
    All three air-to-surface weapon mission areas--Stand-Off, Direct 
Attack, and Penetrator--are short of inventory objectives. Joint Air-
to-Surface Standoff Missile (JASSM) and SDB weapons, employed by Low 
Observable platforms, provide unsurpassed force multiplier capability 
in a highly contested environment. In the event of a conflict, 
insufficient inventory of these weapons could result in the inability 
to target adversary critical capabilities, increasing aircraft 
attrition and driving a higher level of effort to attack critical 
targets.
    Combat operations and support for our coalition partners in Iraq 
and Syria are reducing the direct attack munitions (JDAM) inventories 
faster than we are procuring them. These combat operations are expected 
to continue long term (3+ years). Combat expenditures have been being 
replaced under OCO funding, however it takes over 3 years before the 
assets make it back to the Air Force inventory. Direct attack munition 
shortages drive the use of non-preferred munitions with decreased 
effectiveness and resulting in increased time and Air Force attrition 
to accomplish combatant commander objectives.
JASSM and JASSM-ER
    JASSM and JASSM-ER (Extended Range) are currently the Nation's only 
stealthy, conventional, precision, launch-and-leave, standoff missiles 
capable of fighter and bomber aircraft employment. Both are capable of 
penetrating next generation enemy air defenses to strike high value, 
hardened, fixed, or mobile targets. The JASSM (baseline) has a range 
greater than 200nm while the JASSM-ER has a range greater than 500nm.
    The JASSM (baseline) weapon is in full rate production; the 13th 
production contract for 100 baseline missiles is expected to be awarded 
in March 2015. fiscal year 2016 represents the last JASSM (baseline) 
buy, a total procurement of 2,034 missiles. JASSM-ER will start Full 
Rate Production in fiscal year 2015 with a March 2015 contract award 
for 115 JASSM-ER. The combined JASSM production line transitions to 
JASSM-ER only at the maximum and most efficient rate of 360 missiles 
per year. The last JASSM-ER procurement is planned for fiscal year 
2023, culminating a total JASSM ER buy of 2,866 missiles.
SDB I and II
    SDB I is a legacy weapon planned to help achieve mandated cluster 
munition reduction by 2019. In fiscal year 2016, the Air Force plans to 
procure an additional 1,960 SDB I weapons utilizing OCO funding; fiscal 
year 2015 OCO replenishes 268 weapons expended in combat. The follow-on 
SDB II weapon will be capable of attacking mobile targets at standoff 
ranges in any environment. SDB II will increase the number of targets 
an individual platform can attack per sortie while inherently limiting 
collateral damage. SDB II will provide a four-fold payload increase and 
allow a more limited number of combat forces to achieve operational 
objectives early in future conflicts. SDB II is an Acquisition Category 
(ACAT) ID program, with the Air Force as the lead service, in 
partnership with the Navy. Initial aircraft integration of the SDB II 
is planned for the F-15E, F-35B & C, F/A-18E/F and AC-130W.
    Currently, SDB II is in Engineering, Manufacturing and Development 
with an LRIP decision planned by the end of this fiscal year. In fiscal 
year 2015, SDB II will continue developmental testing, complete live 
fire testing, and conduct government confidence test shots. fiscal year 
2015 procurement plans are to buy 144 weapons with deliveries starting 
in fiscal year 2017, and total planned procurement for SDB II is 12,000 
weapons. Current projections call for SDB II fielding on the F-15E in 
January 2017.
Air-to-Air Weapons
    AIM-120 Advanced Medium Range Air to Air Missile (AMRAAM) and the 
AIM-9X enable the joint force to achieve Air Superiority by providing a 
first look, first kill capability. The current shortage of Air-to-Air 
missiles may increase the number of days it takes to gain and maintain 
Air Superiority in any future conflict. Meanwhile, adversary 
capabilities and capacity continue to challenge the Joint Force's 
historical advantage in the air superiority arena.
AIM-120D AMRAAM
    The AIM-120D AMRAAM is the Department of Defense's premier beyond-
visual-range missile to counter existing and emerging air vehicle 
threats, operating at high or low altitude with electronic attack 
capabilities. AMRAAM is a key enabler for gaining air superiority and 
providing F-15, F-16, F/A-18, F-22 and eventually F-35 aircraft the 
ability to achieve multiple kills per engagement. The latest evolution 
of AMRAAM is the AIM-120D, which delivers increased range, improved 
targeting, and an enhanced two-way data link for improved accuracy and 
lethality at range. AIM-120D is an ACAT 1C joint program, with the Air 
Force as lead service in partnership with the Navy. The AIM-120D 
completed operational testing in July 2014. The Navy fielded the 
missile and declared IOC for the F/A-18E/F on January 7, 2015. The Air 
Force fielding decision was released on January 26, 2015 for the F-15, 
F-16, and F-22 aircraft, with IOC expected the third quarter of fiscal 
year 2015. Total procurement for fiscal year 2015 is 200 units with 
increases in future procurement quantities for both the Air Force and 
Navy. The program will continue to update the AMRAAM technical data 
package to ensure a viable, producible design through the expected 
production life of the AMRAAM program.
Space
    We view our national security as inextricably dependent on space-
enabled capabilities. Space is no longer simply an enabler for other 
domains; it directly impacts the calculus of national security. At the 
same time, space has become contested, congested and competitive, with 
our space capabilities today facing advanced, demonstrated, and 
evolving threats, which require fundamental changes in the way we 
organize, train, and equip our forces. Congestion has increased the 
complexity of maintaining space situational awareness. There are over 
60 active space-faring nations, 9 of which have indigenous space launch 
capability. Almost any nation or state actor can access space services 
globally and globalization has made the latest technology available to 
our competitors and enemies.
    Legacy space acquisitions relied on packing as much as possible 
into few systems making them critical vulnerabilities. Budget realities 
have driven reliance on legacy systems, with few new acquisition 
programs employing the latest technologies, while warfighter demands 
have driven the need for more capable systems.
    Future acquisitions should focus on providing capabilities/services 
cheaper, faster, and more resilient. We must provide space capabilities 
that assure performance of military space functions, regardless of the 
hostile action or adverse condition. We must invest smartly in the 
highest payoff capabilities that enhance space domain mission assurance 
to include resilience, defense operations, and reconstitution of our 
space systems and architectures to ensure U.S. and Allied use of space 
through all phases of conflict. We seek to balance military and 
commercial systems and leverage international partner capabilities to 
allow the United States to share the cost of space power; provide 
additional coverage in areas the U.S. requires assistance in, and 
create a coalition structure that can promote deterrence.
    We recognize a conflict in space would hurt world economies and 
global stability; therefore, to address growing space threats, we are 
focusing on sustaining our space capabilities, deterring threatening 
activity, and if necessary, pursuing means to mitigate counterpace 
threats.
Cyber
    The Air Force is building its Cyber Mission Forces. We must 
continue to execute defense plans, adding manpower for offensive and 
defensive cyber operations, but we are doing more. We will ensure cyber 
forces are equipped with the right capabilities to ensure effective 
operations. We are building a standard cyber mission platform to 
simplify training and enable full-spectrum operations. We are investing 
in converged cyber and electronic warfare capabilities. We are working 
with others across the Department of Defense to build a persistent 
training environment, consisting of jointly-interoperable ranges, 
dedicated operating forces, and supporting structures. We are enhancing 
our capacity to test our critical weapon, intelligence, and business 
systems for survivability in the increasingly hostile cyber 
environment.
    Further we are leading the effort, in partnership with the other 
Services and Department of Defense agencies, to build Joint Regional 
Security Stacks. When fielded, this defensive boundary will provide 
global insight into activity, enabling rapid, coordinated Joint 
defensive operations. The standardized approach will enable sharing of 
Tactics, Techniques, and Procedures (TTP) across the Department of 
Defense, so that detection of an attack on one Service, and the 
resultant mitigations, can be seamlessly applied across the entire 
Department of Defense. This reduces operational response times and 
mission impact. No individual service could have afforded this level of 
capability with its own resources; it's only by pooling funding across 
the entire department can we get the level of capabilities we require 
to counter the growing cyber threats. This new defensive boundary is 
the foundational step toward a trustworthy, efficient Joint Information 
Environment.
    In short, we are on the path to put Cyber on par with Air and Space 
forces to achieve a multi-domain approach to mission accomplishment.
Airborne Electronic Attack
    The Air Force is committed to providing airborne electronic attack 
capability in support of operations across all operational warfighting 
domains. The decision to divest half of the fleet of EC-130H Compass 
Call's in fiscal year 2016 was a difficult decision driven by U.S. Air 
Force topline reductions and the need to balance current capacity 
against the need to modernize. The EC-130H Compass Call is required in 
multiple war plans; the divesture incurs and accepts the risk of 
nonsupport to all but the current operations. The Air Force will 
continue to investigate alternatives for airborne electronic attack 
capabilities in support of the Joint Airborne Electronic Attack Family 
of Systems concept.
Rapid Global Mobility and Personnel Recovery
    The Rapid Global Mobility fleet continues to pursue capability 
enhancements balanced by recapitalization and required modifications to 
operate in international airspace and avoid diminishing manufacturing 
source issues. The KC-46A Pegasus tanker acquisition program is fully 
funded and the first 18 of 179 tankers are slated for delivery in 
fiscal year 2017. Production of the C-130J continues; we plan to field 
142 total aircraft. Our C-130H is being outfitted with FAA and European 
compliance modifications to ensure the tactical airlift fleet is able 
to respond to future tasking's. The strategic airlift fleet of C-5s and 
C-17s is capable of supporting the million ton miles per day metric 
established in our most stressed response scenarios.
    To meet our Personnel Recovery mission, the Combat Rescue 
Helicopter program of record of 112 aircraft will replace our aging HH-
60G fleet. Four test aircraft are on contract with IOC targeted in 
2021, and full operational capability in 2029.
    Air Force efforts toward acquisition reform to ensure the best 
value for the American taxpayer The Air Force Acquisition community is 
committed to providing winning warfighter capabilities while being 
mindful of limited resources and being responsible stewards of American 
taxpayers. The acquisition community has been challenged to achieve 
five priorities: get programs right, increase transparency to external 
stakeholders, own the technical baseline, continue our efforts on 
Better Buying Power (BBP), and build our systems towards a future Air 
Force. All of these initiatives contribute to a stronger, cost 
conscious acquisition community.
    The Air Force Acquisition community has a commitment to getting 
programs right and exhibiting strong program management is the lynchpin 
of what we do. While our top three acquisition programs, F-35 Joint 
Strike Fighter, KC-46 Tanker, and Long Range Strike Bomber (LRS-B), 
continue to receive the most attention and scrutiny, we remain 
committed to keeping all of our programs on track. Effective execution 
of these programs, along with stable funding will keep us from having 
to make difficult tradeoffs such as delivering reduced capabilities or 
reduced quantities.
    Under our transparency initiative, we are working with OSD (AT&L) 
to delegate Milestone Decision Authority to the Air Force Service 
Acquisition Executive on ACAT ID programs where appropriate, increasing 
our efficiency and streamlining requirements. The Air Force is also 
engaged in a new initiative, Bending the Cost Curve (BTCC), which 
facilitates strategic agility in our acquisition efforts. Its hallmark 
is a collaboration with our industry partners to identify, evaluate, 
and implement transformational cost saving reforms.
    Owning the technical baseline requires the government to understand 
and exert leadership in the technical aspects of its programs, 
therefore enabling it to be a more effective weapons system acquirer. 
This is not to be confused with or limited to government-owned data 
rights as we know our industry partners need to own their intellectual 
property to remain profitable. But by working together to strengthen 
our technical capabilities within our program offices, we are helping 
ourselves become better stewards of taxpayers' dollars.
    BBP is the Office of the Secretary of Defense (Acquisition, 
Technology, and Logistics)'s (OSD(AT&L) compilation of tools and best 
practices designed to strengthen the Department of Defense's buying 
power, productivity, and affordability, while improving capabilities 
for the warfighter. One of our many success stories from BBP, which is 
currently in its third iteration, is our adoption of Should Cost 
Management. Should Cost is a management tool designed to proactively 
target cost reduction and drive productivity improvement into programs. 
The Air Force's fiscal year 2014 Realized Savings were $1.4 billion. 
While that is a tremendous start, we will continue to challenge all 
PEOs and Program Managers to seek out additional Should Cost 
opportunities.
    The fifth priority is to continue building our systems for the 
future Air Force. The Air Force Acquisition 20 year Flight Plan is 
fully aligned with ``America's Air Force: A Call to the Future'', 
General Welsh's 30 year strategy. In our Flight Plan, we are guiding, 
facilitating, and resourcing workforce initiatives across the 
acquisition enterprise. At the core of our mission is our workforce--
our world-class workforce is paramount to achieving and maintaining 
acquisition excellence. To accomplish these ends, we heavily rely on 
the Defense Acquisition Workforce Development Fund established by 
Congress.
    A number of legislative initiatives are underway to achieve these 
priorities. In concert with Congress and OSD(AT&L), we are reviewing 
statutory requirements imposed on acquisition programs with a focus on 
streamlining them while trying to maintain their original intent. By 
reducing unnecessary bureaucracy and red tape, we hope to eliminate 
redundant requirements for information, and enable tailored reviews and 
documentation while emphasizing sound planning and risk reduction. We 
are also working to ensure the delegation of acquisition authority to 
the lowest appropriate level, modifying requirements for specific 
contract types for major development programs, and requiring 
acquisition strategies for each Major Defense Acquisition Program. 
Together, we believe these efforts will ensure the acquisition 
community remains committed to providing essential capabilities to the 
warfighter while respecting the taxpayer.
Industrial Base
    When considered in its entirety, the Nation's aerospace industrial 
base is a bright spot in the economy with a favorable trade balance in 
2014 of $61.2 billion. However, this success is primarily due to the 
commercial aircraft sector. The concerns and challenges we expressed in 
our testimony last year over the future of the aerospace industrial 
base supporting the Air Force remain. If anything, the Nation is 1 year 
closer to abdicating its historic role as the global technical leader 
in military aerospace. As a nation, we can no longer take for granted 
the widespread availability of engineering and design teams, production 
workers, facilities, and equipment required to meet emergent national 
security requirements. The observations made by Secretary James and 
General Welsh in the Air Force Posture Statement concerning the 
capability and capacity of our Air Force apply as well to the aerospace 
industrial base supporting the Air Force.
    The result of the difficult decisions driven by budget reductions 
and fiscal uncertainties is that as a nation, we have been giving up 
industrial capacity to design, develop, produce, and sustain the next 
generation of military aerospace systems while attempting to maintain 
some level of capability in those areas. In a few areas, we have 
accepted risk and have allowed a gap between former and future 
capability. One highly visible example is the Nation's use of the 
Russian-made liquid rocket engine on one of the vehicles that launches 
defense satellites, but this will not come without significant 
technological challenges. Simply replacing the Russian-made RD-180 with 
a new engine is not the answer. We know from our prior experience in 
developing rockets throughout the past several decades that a rocket 
engine and its associated launch vehicle must be designed concurrently. 
In essence, we build the rocket around the engine. Further complicating 
this effort, we will also attempt to maximize competition in an 
environment where the inventory of our current provider's most cost 
competitive launch vehicle is limited. One of the Air Force's top 
priorities has been to reinvigorate competition in the launch arena by 
reaching our ultimate goal of two domestic commercially viable launch 
service providers able to support the entire National Security Space 
manifest. We are refining a four-step approach to meet this goal, and 
the $220 million addition in the National Defense Authorization Act for 
Fiscal Year 2015 for a new rocket propulsion system will help to 
transition off of the RD-180. In other areas, for example advanced 
turbine engines, Air Force investments to maintain capacity and develop 
future capability have continued. In the case of advanced turbine 
engines, our investments are cost shared with industry, prudently 
leveraging our limited resources.
    Our strategy-based fiscal year 2016 budget submission supports 
investments in key programs (KC-46, F-35, and Long-Range Strike 
Bomber), in the critical requirements of the combatant commanders and 
in capabilities for Intelligence, Surveillance and Reconnaissance, 
nuclear, space and command and control. These focused investments, 
while propping up elements of the aerospace industrial base, do not 
fully address the national commitment required to sustain our global 
aerospace leadership.
                             v. conclusion
    The Air Force continues to be the world's finest across the 
spectrum of conflict, but the gap is closing. A return to 
sequestration-level funding would result in a less ready, less capable, 
less viable Air Force that is unable to fully execute the defense 
strategy. At fiscal year 2015 Balanced Budget Act level funding, the 
Air Force has some ability to manage risk in supporting the strategy, 
but significant challenges will remain. In order to defeat advancing 
threats, the Air Force must continue investments in top 
recapitalization and key modernization programs, and gain and maintain 
full-spectrum readiness.
    Our sister services and allies expect the Air Force to provide 
critical warfighting and enabling capabilities. We remain focused on 
delivering Global Vigilance, Reach and Power, through our core missions 
of Air Superiority, Space Superiority, Global Strike, Rapid Global 
Mobility, Intelligence, Surveillance and Reconnaissance and Command and 
Control. We look forward to working closely together as we address the 
challenges of near-term uncertainty and risk to provide the ability to 
deliver combat air power for America when and where we are needed.

    Senator Cotton. General Holmes?

 STATEMENT OF LT. GEN. JAMES M. HOLMES, USAF, DEPUTY CHIEF OF 
  STAFF OF THE AIR FORCE FOR STRATEGIC PLANS AND REQUIREMENTS

    General Holmes. Thank you, Chairman Cotton, Ranking Member 
Manchin, ladies and gentlemen of the committee. Thank you for 
your continued support to the U.S. Air Force, our airmen, and 
their families. It is an honor to be here in front of you, and 
it is an honor to be here.
    I want to speak for just a second about Dr. Bill LaPlante 
and Lieutenant General Ellen Pawlikowski, his military deputy. 
In my time in the Air Force, the Air Force is very fortunate 
now to have the best team I think we have had in that 
acquisition office. They have made great strides in changing 
the way we acquire, develop, and build new technologies, and I 
think it is going to pay off for us in the future.
    I am also proud to be here with Lieutenant General Wolters, 
my old friend and one of my heroes, and it is a pleasure to 
work with him in the building every day.
    Our Air Force remains the most globally engaged air force 
on the planet, and we continue to do our best to deliver global 
vigilance, global reach, and global power for America every 
day.
    However, after more than 24 years of sustained combat 
operations and years of constrained budgets, it has become more 
and more difficult to achieve our mission. As the Air Force's 
budget planner, we talk about sequestration and we talk about 
the effects of the 1-year budget that we are working, but part 
of the factors that influence the position we are in is because 
of the 3 years of reduced budgets from the baseline we had 
planned in 2012 to the baseline of where we are now, we have 
lost $25 billion to $30 billion worth of buying power. It is 
the difference when you add up those years. That $25 billion to 
$30 billion leaves a hole in our ability to modernize the 
forces we have and our ability to maintain our readiness and 
our ability to plan for the future. So as we look at another 
year of constrained budget, it is not just this year's 
constraint. It is adding up the cumulative effect of those 3 
years in the past.
    The fiscal year 2016 President's budget provides additional 
funding above budget caps. It allows us to reinforce our 
investments in nuclear deterrence and space control operations, 
to emphasize our global long-range and non-permissive 
capabilities, to maximize the contributions of the total 
force--and, Mr. Chairman, I look forward to discussing the 
report and our response to it with you--and to preserve the Air 
Force's top three procurement programs, the F-35, the KC-46, 
and the long-range strike bomber.
    It also gives us the ability to halt reductions in total 
force end strength and relieve the pressure on our most 
important weapon, our airmen, and to continue efforts to regain 
full spectrum readiness, and to lay the groundwork for future 
innovation efforts with seed investments, as Dr. LaPlante 
talked about.
    After subtracting pass-through, the Air Force's share of 
the 2016 defense budget is roughly 22 percent. Within this 
share of defense resources, the Air Force submission attempts 
to balance risk driven by shortfalls in three areas, capacity, 
readiness, and modernization, again to continue to provide 
global vigilance, reach, and power in support of the strategy 
today and in the future.
    The shortfalls in capacity mean we must accept some risk in 
our ability to everything that we are expected to do if we had 
to do it all at the same time. The first of many difficult 
capacity decisions we faced was the decision to divest the A-
10. There is no question that the A-10 has been a steady and 
stellar performer in recent conflicts. The A-10 provides our 
joint force commanders with responsive and lethal fire power 
for close air support, particularly in the permissive 
environments we operate in today.
    Nevertheless, our current force structure was simply 
unaffordable in today's fiscal environment. Within the limits 
that are placed on us on where we can take force structure 
risk, some provided by Congress to safeguard capabilities, we 
have a limit in strategic airlift and a limit in C-130s and a 
limit in some other capacities, and the guidance provided to us 
by DOD--our fighter force structure was the area that we 
focused on to make reductions. Consistent with that DOD fiscal 
guidance to accept risk in current force structure and to favor 
multi-role aircraft to satisfy Defense Strategic Guidance, the 
fiscal year 2016 President's budget again reflects the hard 
choice to divest the A-10. Divesting the entire A-10 fleet 
would free up $4.7 billion across the FYDP, providing funding 
for other priority capacity, capability, and readiness 
shortfalls.
    Next, budget realities have forced the Air Force to make 
the decision to reduce the EC-130 Compass Call fleet by nearly 
half after fiscal year 2015, providing an additional $470 
million in savings across the FYDP that we have applied toward 
enterprise capability upgrades. While the Air Force will 
maintain essential capabilities to support current combat 
operations, this decision is not without risk, and once the 
fleet size drops to eight aircraft in fiscal year 2016, we will 
only be able to support the current operational obligations for 
the C-130 Compass Calls engaged every day.
    We face another significant capability challenge in 
preferred munitions where 3 years of constrained budgets have 
left the Air Force thousands of weapons short in both air-to-
surface and air-to-air weapon inventories. The joint air-to-
surface standoff missile (JASSM) and small diameter bomb (SDB) 
employed by low observable platforms provide unsurpassed force 
multiplier capability in a highly contested environment. In the 
event of a conflict, insufficient inventory of these weapons 
could limit our ability to target critical adversary 
capabilities. The AIM-120 advanced medium-range air-to-air 
missiles and AIM-9X infrared air-to-air missiles enable the 
joint force to achieve air superiority by providing the first 
look, first kill advantage against improving threats. The 
current air-to-air missile inventory shortage may increase the 
number of days it would take to gain and maintain air 
superiority in any future conflict. To begin to address these 
munitions capacity shortfalls, the fiscal year 2016 PB provides 
$1.8 billion in fiscal year 2016 and $7.3 billion over the FYDP 
to increase procurement rates, so above what we planned to buy 
in 2015.
    The shortfalls in readiness that General Wolters will 
highlight in his statement continue to exacerbate the effect of 
capacity shortfalls. Your forces are also less ready. In 
addition to shortfalls in capacity in readiness, the Air Force 
faces shortfalls in critical capabilities, as Dr. LaPlante 
described. This means that potential adversaries are closing 
the capability gaps that separate the U.S. military from 
potential foes, and this narrow gap adds future risk to both 
mission and to the forces that would fight.
    The Air Force's fighter fleet is approaching an average age 
of 30 years, the oldest in the history of the Air Force. The 
fourth generation F-15s and F-16s that comprise the majority of 
our fighter fleet require upgrades to both extend their 
lifespan and provide the improved combat capability required to 
prevail in today's increasingly contested environments. The 
advanced capabilities of fifth generation fighters, the F-22 
and the F-35, are critical to ensuring our ability to fight and 
win in contested environments.
    The savings generated by divesting the A-10 help us invest 
$1 billion and $3.9 billion across the FYDP for F-16 and F-15 
modernization and service life extensions and $600 million 
across the FYDP to ensure we maintain the superiority of the F-
22 against rapidly improving threats.
    The multi-role F-35 is the centerpiece of our future 
fighter precision attack capability. It is designed to 
penetrate air defenses and deliver precision-guided munitions 
in a contested high-end threat environment. The fiscal year 
2016 budget includes $4.9 billion for procurement and 
development of 44 F-35As.
    24 years of continual operations, coupled with constrained 
and unstable budgets, have taken their toll on our Air Force 
and our airmen. In anticipation of even greater challenges over 
the next 2 decades, we have developed a strategy-driven, 
resource-informed plan to guide the way our Service organizes, 
trains, and equips to prepare for future operations. Mr. 
Chairman, we built a 20-year plan at a resource-constrained 
level based on zero real growth from the 2013 budget, kind of a 
worst case scenario, to make sure that we could fit the 
programs that you talked about into that long-range plan. At 
your convenience, I would be happy to come down sometime and 
walk you through that and have a discussion with you about your 
views on that.
    In order to achieve the strategic agility necessary to meet 
the ever-evolving changes of the century, we must be able to 
adapt to changing conditions faster than our potential 
adversaries. When we think about a third offset strategy, I 
believe that is what it is. It is building a military and a 
force and a DOD that regains its ability to do things faster, 
to rapidly change our abilities, to rapidly change our 
capabilities. That will mean we will have to think faster. We 
will have to acquire weapons faster, and we will have to be 
able to build decision points into our programs so we can 
decide to change them or, if they do not work out, to abandon 
them.
    Our fiscal year 2016 budget takes steps to balance the many 
challenges we face in capacity, capability, and readiness, but 
any return to sequestration level funding will directly impact 
all three areas, leaving a smaller, less ready, and with less 
of an advantage over potential adversaries.
    Although our Nation has reduced its presence in 
Afghanistan, we continue to face evolving threats to our 
security in a world that seems to become less and less stable. 
Given our current challenges, we must still remain ready to 
respond quickly and effectively across the spectrum of 
conflict. Our airmen are proud to serve alongside soldiers, 
sailors, and marines and will continue to respond quickly and 
effectively within the constraints imposed at any budget level.
    Thank you, Mr. Chairman, Ranking Member Manchin, and ladies 
and gentlemen of the committee, for your continued support of 
the Air Force and the chance to discuss with you as we work 
together to face these challenges. I look forward to your 
questions.
    Senator Cotton. General Wolters?

  STATEMENT OF LT. GEN. TOD D. WOLTERS, USAF, DEPUTY CHIEF OF 
             STAFF OF THE AIR FORCE FOR OPERATIONS

    General Wolters. Chairman Cotton, Ranking Member Manchin, 
and distinguished members of this subcommittee, it is truly an 
honor to have the opportunity to testify before you today and 
also an honor to appear alongside my colleagues, our Chief of 
Acquisition, Dr. LaPlante, and my dear friend over the last 3 
decades, Lieutenant General Holmes.
    The U.S. Air Force is unquestionably the best and the most 
globally engaged air force on the planet, and the demand for 
what we do is at an all-time high. But 24 years of continual 
combat operations and recent budget constraints have taken 
their toll on our readiness. We have the smallest and oldest 
Air Force since our inception in 1947. Less than half of our 
combat-coded squadrons are sufficiently ready for the high-end 
fight. There is no excess. There is no bench. Everything is 
committed.
    The Air Force cannot respond in one corner of the Earth 
without diluting its presence elsewhere. America needs a force 
ready for a full spectrum of operations. Approximately 205,000 
total force airmen are committed in place, supporting daily 
operations to defend the homeland, control our nuclear forces, 
operate remotely piloted aircraft, provide rapid global 
mobility, and many other requirements. Approximately 23,000 
airmen are deployed across the globe, including over 16,000 in 
U.S. Central Command (CENTCOM).
    On the eve of 2014, we expected to draw down combat forces 
in Afghanistan and reset the force. Instead, we faced a 
resurgent Russia in the Ukraine, an Ebola epidemic in Africa, 
and aggressive expansion of the Islamic State in Iraq and Syria 
(ISIS), demonstrating just how unpredictable world conditions 
can be.
    In spite of drawing down forces, the Air Force is still 
engaged in Afghanistan, conducting counterterrorism operations 
and providing training and operational support to strengthen 
the Afghan national defense and security forces as part of 
Operation Freedom Sentinel and NATO's Resolute Support mission. 
These efforts will contribute to a more stable and secure 
Afghanistan and deny terrorists safe havens in the region. Air 
Force advisors are working to develop the Afghan air force 
across their entire air enterprise, from fixed wing and rotor 
wing operations and maintenance, engineering, and logistics to 
force and budget development. In the last year, the Afghan air 
force has taken over much of the mission, providing casualty 
evacuation, aerial attack, and aircraft maintenance.
    Since August of 2014, the Air Force has been conducting 
operations against the Islamic State in Iraq and Syria as part 
of Operation Inherent Resolve. U.S. airpower has already 
achieved positive effects. We have forced them to change their 
tactics and the way they communicate. They have dispersed. They 
are hiding among the population and they are not as free to 
operate as they were before. Air strikes and resupply efforts 
have helped Iraqi and Kurdish forces to retake and hold key 
terrain. In Syria air strikes have attacked their command and 
control, logistics, and revenue sources, making it harder for 
them to sustain themselves and weakening their resolve.
    In addition, the Air Force has alleviated civilian 
suffering in Iraq through delivery of 131,000 meals, 58,000 
gallons of water, and other vital supplies via airdrops and by 
providing advice and training that enabled the Iraqi air force 
to continue independent humanitarian relief and operational 
resupply efforts.
    The Nation deserves a ready Air Force that can not only 
outmatch its most dangerous enemies but also maintain an 
uncontested sky over our ground forces. While the fiscal year 
2016 President's budget takes a small step towards recovery, it 
only preserves the minimum requirement to meet current strategy 
and reach our goal of an 80 percent ready Air Force by 2023. 
American airpower requires sustained commitment, stability, and 
the resolve to invest where it can best deliver the most combat 
power. We need your help to be ready for today's fight and 
still win in 2025.
    Again, Chairman Cotton, congratulations, and I thank each 
and every one of you for your persistent support of our U.S. 
Air Force.
    Senator Cotton. Thank you all for your testimony, and thank 
you again for your service, as well as the thousands of airmen 
you represent all around the world. I had a chance to serve 
with many myself on provincial reconstruction team Laghman in 
2008 and 2009 where I had the privilege of meeting General 
Holmes in his earlier incarnation as the wing commander out of 
Bagram.
    As an infantryman, as you might imagine, I would like to 
talk about the A-10. I fortunately never had to call in A-10 
fire in Iraq or Afghanistan, but it was something on which we 
were prepared from the earliest days at Fort Benning.
    General Wolters, General Holmes, the NDAA for Fiscal Year 
2015 allowed the Air Force to place up to 36 A-10 aircraft into 
backup inventory status to free up maintenance personnel to 
start the transition to the F-35. I understand that you opted 
to do this with 18 aircraft from three different bases, also 
that the aircraft in backup status must still fly to avoid the 
so-called 21-day hangar queen status which requires periodic 
maintenance and other repairs as required. Furthermore, the Air 
Force currently has an A-10 squadron from the Indiana Air 
National Guard deployed to the Middle East in support of the 
fight against the Islamic State, and an A-10 squadron in 
Arizona is currently deployed to Europe to reassure our allies 
and partners in light of recent Russian aggression.
    If the A-10 fleet were not available, what aircraft would 
the Air Force then have to deploy?
    General Wolters. Mr. Chairman, thanks for the opportunity 
to comment on the A-10. As you well know, sir, it wound up 
being the less ugly of ugly choices in order to divest as a 
result of the fiscal year challenges.
    At this time, our arsenal consists of F-15Es and F-16s and 
B-1s that possess the capability to supplement and complement 
the A-10 aircraft in its close air support role.
    Senator Cotton. General Holmes, do you have anything to 
add?
    General Holmes. General Wolters flew the A-10, Mr. 
Chairman. I commanded the A-10 twice in two different wing 
commands. It is not a question of is it a great airplane with 
great capability. It is. It is a question of how can we fit all 
the capabilities that are requested into the budget that we 
have.
    When we looked at the alternatives where we could reduce 
force structure, we dialogued with the combatant commands 
(COCOM) and we asked what is most valuable to you of the things 
the Air Force presents. One hundred percent of the COCOMs 
valued our intelligence, surveillance, and reconnaissance (ISR) 
resources and asked us to expand those resources and to buy 
back any places that we had taken cuts there, and they would 
rather have that than the A-10.
    We like the airplane. We would like to keep it, but we 
could not find a way to work it into our budget level.
    Senator Cotton. General Wolters, from a pure combat 
capability perspective, do you view the fighters and the B-1 as 
an adequate substitute for the A-10 to ground forces in need of 
close air support?
    General Wolters. Mr. Chairman, I do. As you well know, 
there are certain situations with a show of force and show of 
presence opportunities over soldiers where the A-10 is one of 
those insertion resources in combat that produces positive 
effects on the battle space. That is one area where the A-10 
probably outmatches some of our others. But the F-15E, the F-16 
and the B-1 can adequately perform the close air support 
mission and satisfy the requirements of our combatant 
commanders.
    Senator Cotton. The long-term plan is to replace all those 
with the F-35's capabilities. Right?
    General Wolters. Mr. Chairman, that is correct. As you well 
know, the F-35 will possess a level of close air support 
capability and initial operation capability, and by its fully 
operational capability in 2021, we suspect it will contain all 
of the capabilities that currently reside in the close air 
support (CAS) force requirements today for the combatant 
commander.
    Senator Cotton. So I have to say then that if today is 
2015, 2021--you said that those other fighters and the bomber 
are adequate to replace, but adequate in my opinion is not 
necessarily enough when it comes to supporting the troops on 
the ground that are in need of close air support.
    General Holmes. Mr. Chairman, as a wing commander at Bagram 
during our year there, I flew the F-15E. I flew the F-15E 
completely in a CAS role. I flew 83 combat missions. I employed 
20 weapons. We took modifications to that airplane starting 
about 7 or 8 years ago. We added an advance targeting pod so 
that you can see things from altitude and distance that you 
could see with your eyes if you were closer. We added the 
radios to the airplane that the A-10 has so that I could talk 
directly to a ground commander. I could talk to the battalion 
commander and his Tactical Air Control Party Specialist (TACP) 
on one radio to the Joint Terminal Attack Controller (JTAC) on 
the ground on another radio and to the command and control 
authority on a third radio. I had the range of weapons that 
allowed me to do almost everything.
    There were certainly situations where if I was without a 
JTAC on the ground and I was caught with troops up very close 
to me, that if I was the guy on the ground, I would prefer to 
have the A-10. But there were certainly situations where if I 
got into trouble and the closest airplane to help me was 300 
miles away, then I would like to have that F-15E come in to get 
to me.
    We will provide a CAS capability and we will continue to do 
so in the future. We are accepting risk in capacity between now 
and when we start to build up in F-35 squadrons and we are 
doing that to pay bills.
    Senator Cotton. While we are talking about solutions that 
are good enough or better than nothing, let us shift for a 
moment to the macro budget picture. You can read the headlines 
just like we can. Both Budget Committees of the Senate and the 
House have proposed legislation that would keep the base budget 
at $498 billion, which is the sequestration number, but include 
so-called OCO funding, overseas contingency operations, of as 
much as $90 billion. Without commenting on any particular 
budget, could you give us quickly your thoughts on that 
approach?
    General Holmes. So, Mr. Chairman, as again the guy with the 
team that plans what goes into the Air Force program, our 
preference would be to have a reliable, predictable budget 
stream out there so that we can plan in multi-years as you 
outlined in your introductory comments there. But our second 
best choice would we would be able to get the resources we need 
to continue to do the things that people expect us to do from 
year to year. So we need more money. We would prefer to have it 
in the base budget so that we can count on it and predict it 
across the FYDP, but we want to work with Congress to see what 
we can do to get the money we need to do what we are asked to 
do.
    Dr. LaPlante. Just to add on from an acquisition 
perspective, any additional money is good and is useful for the 
system. Where it affects us, particularly with, let us say, if 
you have the base budget being fixed and then OCO, it still is 
harmful for us because we need some level of predictability on 
a long-term program--I mean by long-term just in the next 3 
years--or it would be irresponsible for us to start the 
program. So we cannot in good conscience--we are not in good 
conscience going to start a JSTARS recapitalization, for 
example, even assuming OCO somehow would cover it. That would 
be actually irresponsible.
    So what I see happening by this uncertainty in acquisition 
is a lot of times you are forced to do things that are short-
term, in other words, not do a bigger buy, not do a multiyear. 
If we are going to retire this thing, we do not know if we are 
going to retire it. Okay. We will fund it enough this year and 
then do it again next year. Actually it would be much better 
for us to know we are definitely retiring it, we are definitely 
not because then you would actually put the right plan in 
place.
    We are now having to tell our folks, even if the thing that 
you are working on is supposed to be retired, put in place a 
budget and a plan as if it was not because we need to know how 
we would long term sustain it. So it is our way of having to 
deal with the uncertainty. It is actually costing us more 
money.
    We had a program last year called Space Fence, which was a 
new program, a very important program for space situational 
awareness. We had gone through the source selection, ready to 
award it. This was in September 2013. It was right--if you guys 
remember the 2013, September-October was a very uncertain time. 
Rightfully so, we do not award the contract because we had no 
idea what the budget was going to be. We do not want to start a 
program that we are going to have to turn around a year later 
and cancel and waste that money. Right? So we rightfully--and 
the leadership of the Department--held it off. We had to stop 
the competition, stop the award, wait until after the dust 
settled. Ryan-Murray (Bipartisan Budget Act) came in. So in 
February, we had to start over again with the request for 
proposal (RFP). We did the source selection in June, and we 
awarded the contract and the program is underway.
    But here is the thing. We calculated it. It cost us $70 
million more because of all the gyrations. The warfighter will 
get the Space Fence a year later than they were originally 
going to get it because when you have to stop something, then 
restart it and reask for proposals, the industry teams are 
spending.
    So I can go through lots of stories where--we do not do 
performance-based logistics contracts. Usually they are about 
10 years to get the cost savings. It is harder to do them on a 
1 year-to-1 year basis. So we really crave stability in our 
world.
    Senator Cotton. So my time has elapsed. But if I could make 
an attempt to synthesize what I have heard, this approach, 
keeping sequestration in effect for fiscal year 2016, plusing 
up OCO spending, not good, better than nothing. It depends on 
the details and in any regard, modernization and 
recapitalization will continue to suffer.
    General Holmes. Yes, sir.
    Senator Cotton. Thank you.
    Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman, and thank you all 
again.
    It gets quite confusing from the standpoint--and I said 
this before. We have to go home and explain to our constituents 
how we spend their tax dollars, how we commit their tax dollars 
short-range, long-range, and also how we defend them. When you 
look at the cost factor, what we are dealing with, basically I 
think that when you look at the gross domestic product (GDP) of 
the United States of America, we are $17 trillion and growing, 
which is good. We are the largest by far. We spend about 3.8 
percent on military. When you look at Russia, Russia is a 
little over $2 trillion Gross Domestic Product (GDP), and they 
spend I think about 4.2 percent. Then you look at China, about 
$9 trillion, and they spend I think in the 2.6-2.8.
    In a nutshell, they say, well, why are they getting a 
bigger bang for their buck than we are. Why are we so costly as 
a military? What are we not doing efficiently? What can we do? 
How much redundancy do we do? I have had people ask me a simple 
question. We have the National Guard and we have the Reserve. 
They both do the same thing. Is there a way to work this out 
more efficiently? Why does every branch of the military have an 
air force? Procurement, getting something to market.
    The F-35 strike fighter is going to be the one and done. 
Right? It is going to do it all. Do you all truly believe that 
it will replace all of the platforms you are taking off? 
General, we will start with you.
    General Holmes. Thank you, Senator Manchin. I think on the 
issue with the other countries and their investment, what makes 
us unique is that we have global responsibilities or we believe 
that we must be able to act globally that Russia and China do 
not necessarily take on. It is difficult to know exactly how 
much they spend, where we know pretty much exactly how much we 
spend--
    Senator Manchin. These figures come from the World Bank. So 
they are watching it pretty close.
    General Holmes. Yes, sir. But the difference I think is 
that our military, your military--we are expected to be able to 
operate all around the globe and be able to get there and back 
on short notice.
    As far as the--
    Senator Manchin. I am sorry to interrupt. Those two 
countries we are most concerned about. Cybersecurity, cyber 
warfare, basically platform capabilities and what they are 
investing into. They are investing in this direction here. We 
are pretty much flat or going this way. Those are concerns, 10, 
20, 30 years out where they are going to be and where we are 
going to be. I think that is what we are asking. Where is our 
cost? Where can we as Congress help you in a more efficient, 
streamlined, lack of redundancies, if you will? I know we put 
all of our eggs in one basket. Here is an infantry combat 
person who says I kind of like that A-10. But we bought into 
the Joint Strike Fighter.
    Dr. LaPlante. So clearly there is a lot to think about 
under that question and it is a great question.
    To start with, I think in the Air Force--and I am not the 
expert on this. So you can ask me two or three questions. Then 
I will have to defer you to someone else.
    But my understanding is we have about 30 percent excess 
capacity in terms of our infrastructure that we carry.
    Senator Manchin. Excess capacity?
    Dr. LaPlante. Yes. There is no way a private business would 
carry 30 percent extra capacity in their infrastructure. Maybe 
5 percent, you might do it. 30 percent? I know Base Realignment 
and Closure (BRAC) is a four-letter word, but we have to 
start--and I am not a BRAC expert. We have to take that stuff 
head on.
    We also have to do things like recognize the fact--it is 
the analogy maybe perhaps to the third world. Did you ever hear 
the story of somebody who is in a part of the third world, 
Africa or something, and you have better cell phone coverage 
than you do in Washington, DC? Part of the reason that some of 
the infrastructure in new countries is because it is new. We 
are still living with our old. But we have that issue with the 
Air Force, for example. Many of our airplanes are older than 
the pilots flying them.
    I was in a meeting yesterday down at the Reagan building 
where the head of the Defense Logistics Agency (DLA), civilian 
head of DLA, who was sitting next to me said, boy, we got a 
request for 707 parts. I did not even know we still had 707s. I 
turned to him and I said, yes, AWACS. I mean, we are keeping 
airplanes around that--unbelievable.
    Senator Manchin. Speaking of AWACS, you are going to retire 
seven AWACS and seven Compass Call EC-130Hs.
    Dr. LaPlante. Yes. I can speak quickly to the AWACS and 
then turn it to my colleagues.
    To the credit of General Welsh, the Chief, his philosophy--
and I will give you the logic of it--is to say, okay, let us 
take AWACS, for example. All right. We need to recapitalize 
AWACS, 707. We talked about that. Okay. Where am I going to get 
the money? Where am I going to get the money? Well, maybe what 
I do is I take down the fleet now at some level with--it is 
going to be all the risk you are taking to the warfighter, the 
unhappiness of the warfighter to take that money and pump it 
back into building a new thing. It is the equivalent of 
living--while your house is getting the addition put on, you 
live somewhere cheaply and you try to cut your costs and hope 
you can get through the few years. I mean, generally, that is 
what General Welsh has thought of doing here. Now, of course, 
there are pros and cons of that approach, but that is what he 
is coming up with with these ideas.
    In the case of JSTARS recap, remember JSTARS had its 
introduction in the first Gulf War. Those were used airplanes 
then. Some of those airplanes had been flying cattle around. We 
still are flying JSTARS today in the fight, and the price to 
keep those going every year is going up. So we can sit and let 
this happen, or we can take risk today to try to recapitalize. 
But that is why you are driven in those directions.
    Anyway, I will stop and turn it over to my colleagues here.
    Senator Manchin. General Wolters?
    General Wolters. Ranking Member Manchin, I think that is a 
fantastic question, and we do not refute the challenges that 
you posed with respect to procurement. We are in the business, 
as are you, sir, to squeeze every penny out of every dollar. 
Some of the decent initiatives that are currently taking place 
that I think you would agree with with respect to the be all/
end all F-35, it is an aircraft that is multi-role. It 
possesses the capability and capacity to work in the close air 
support environment, to work in the interdiction environment, 
to also work in the strike environment. Those attributes are 
ones that are not present in other aircraft.
    With respect to getting the most bang for the buck, with 
respect to the dollars, I have to go back to the chairman's 
comment. When you take a look at warfighting, as you well know, 
sir, wars do not occur on 1-year intervals. What we would like 
to do is impose a strategy with the appropriate planning and 
prosecute fights, but they do not occur on 1-year intervals. As 
we work with the budget and we are in a position to where we do 
not possess the capability to have the stability to plan for 
next year's funding level and the following year's funding 
level, it becomes challenging with respect to the munitions 
that you use, the platforms that you require, and the attempt 
to impose a strategy upon the enemy. So all those factors 
together put us in a position to where it is a challenge, sir.
    One of the good things the U.S. DOD has done with your 
assistance since 1986 is pushed very, very hard for joint 
integration and coalition integration. Today, as we attempt to 
prosecute the fight in Operation Inherent Resolve, we are 
reaping significant benefits as a result of our joining at the 
hip with our coalition partners to prosecute that campaign.
    Senator Cotton. Senator Manchin, thank you very much for 
the important points, as well as the relatively closing gap 
between Russia and the United States. I would point out that 
Russia, because of the falling price of oil, has implemented 
its own version of sequestration. Their finance minister 
recently announced across-the-board, government-wide cuts with 
the exception of their military.
    Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, I have appreciated the candor with which you 
have responded. With regard to the current proposals for 
funding, I do not think there is anybody on this committee that 
does not want to see the appropriate funding levels offered and 
maintained.
    Part of the discussion that we have had, as you are well 
aware, is the use of OCO funding, and part of your concern is 
the fact that it does not provide you anything in a base. But 
would it not be appropriate with appropriate direction with the 
OCO funds that you would be able to perhaps reconsider the way 
that you would view the use of those funds? But you are asking 
for a specific direction within the legislation. Fair 
statement?
    Dr. LaPlante. I do not know that I would say we are asking. 
I would say this and I will turn it over----
    Senator Rounds. Perhaps suggesting?
    Dr. LaPlante. Yes. Where an example might be--and I will 
turn it over to General Holmes here in a second. For example, 
what is the criteria that you could use OCO for? Is it for 
procurement, is it--I mean the traditional thing in the last 
few years is if you lose an aircraft like an F-16 crashes or 
something, that tends to be something that OCO rules would 
apply for a loss replacement. Well, are the rules willing to be 
widened and changed from that, for example?
    Senator Rounds. Precisely, but what you are saying is under 
the existing OCO rules, as you have had them presented to you 
in the past, it presents a problem.
    Dr. LaPlante. I will defer to General Holmes. He is the 
expert.
    General Holmes. Yes, sir, it does. I mean, there has been 
some creative use of funds. We funded some Army end strength 
for several years to control their drawdown through OCO. So 
there are ways to use it and to use it effectively. Our concern 
is more the 1-year nature of OCO and not being able to plan 
ahead into the future.
    Senator Rounds. I understand. Thank you.
    Now, let me turn very quickly to the long-range strike 
bomber. Dr. LaPlante, the Air Force leaders have consistently 
stated that the aircraft per-unit cost of the LRSB would be at 
or below $550 million. The House Armed Services Subcommittee on 
Seapower and Projection Forces hearing on March 4th, you seemed 
to intimate the cost today when accounting for inflation would 
be somewhat higher. Extrapolating annual inflation out to 2025 
would indicate that the then-year cost would be well over $640 
million per aircraft. Do you believe sticking by the $550 
million unit cost without always qualifying it with the 2010 
base year dollars is somewhat misleading to the American 
public? Where do we go?
    Dr. LaPlante. I am really glad I got the question. I just 
wish I had a chance to be in my classroom because I love this. 
This is great. With 3 minutes on the clock, I am going to have 
to figure this out.
    So nothing has changed in LRSB. We have completely designed 
the program around affordability. Nothing has changed. It is do 
everything exactly the way all of us who have researched it--we 
have looked at what has gone wrong in acquisition. We are 
addressing every one. The requirements are completely 
unchanged. We actually baked in as a key performance parameter 
the cost per airplane. At 100 airplanes, the cost is $550 
million. Ironically because we are so paranoid about changing 
the requirement--the document was signed in 2010--we are like 
can we adjust it for inflation. So we should remind everybody. 
We know and the budgeteers know that inflation happens just 
like you know with your constituents and people with their 
salaries. You could do an Internet calculator and see that $55 
in 2010 is $57 today. We know that. It is all taken into 
account.
    Do I think we probably need to change it so people are not 
confused? Sure. I am sure it is not going to stop the 
questions.
    We did the same thing in the F-35 about 2 years ago. I 
guess in 2013, we were still quoting 12 numbers, and we found 
then that some people were using then-year dollars. Finally, we 
said stop, stop. Here are the rules. The F-35 is always going 
to be talked about in price per plane in then-year dollars with 
the engine. So now everybody is saying the same thing. Lockheed 
says the same thing.
    It is now 2015, so yes, we probably should do it. But there 
should not be a lot of intellectual energy I spent on that 
other than we just need to be clear.
    Let me make one other point. Again, I am really sensitive 
of our time. This is really important.
    There are three pots of money and ways you fund phases of 
an acquisition program. The first is when you develop the 
program. It is typically research and development (R&D), and 
that is what you do. We do not have the privilege of letting 
industry develop on their own nickel most of the time. We have 
to develop it ourselves. So that is called development. Then 
you switch, hopefully pretty reasonably, into production. That 
is when you produce the airplanes, and then you sustain them. 
As I said earlier, most of the money, when you look at the 
lifecycle of a program, is in that sustainment phase. In fact, 
that is the biggest risk, by the way, of the F-35 of getting 
the costs. It is sustainment.
    So let us talk about what is the right contracting strategy 
in each one. We have been trying to really show people--and 
Frank Kendall has been doing this very well--of getting people 
to think and understand the literature. There is not a 
checklist. You do not use a checklist. You actually have to 
think. It turns out in the data 70 percent of development 
programs--and this is actually intuitive to me. It makes 
perfect sense--are cost-type programs. They are reimbursable 
costs, and that is typical in R&D because what happens is you 
have a goal of what you want to get done in the development, 
but you oftentimes do not have enough precision on exactly how 
much it is going to cost. So you just do cost reimbursable.
    Now, if you just left it alone at cost reimbursable and did 
nothing, that might be a problem. But then what you do is you 
put incentives in, and this is what we are teaching people. An 
example of an incentive. You would put in and say, okay, the 
target you are going to spend in that development is this much. 
This is your target. It is cost reimbursable. You go above that 
target, we are going to start whacking your profit. You go even 
this higher, you are going to get zero profit. So that is what 
we are teaching people.
    Now, still sometimes you want to do fixed price in 
development. We are doing the tanker fixed price in development 
for certain reasons. We are doing the combat rescue helicopter 
fixed price.
    Senator Rounds. Let me just--I am out of time, but let me 
just ask this. What you are saying is that we are on target.
    Dr. LaPlante. Yes.
    Senator Rounds. You are on top of it.
    Dr. LaPlante. Yes.
    Senator Rounds. This very, very valuable long-range piece 
of machinery that we are looking at is moving ahead without any 
surprises so far.
    Dr. LaPlante. No. This is really important. If I could, Mr. 
Chairman, give 20 seconds.
    Okay. Here is LRSB, procurement, procurement, fixed price, 
fixed price. By the way, 100 airplanes. Even the first one that 
comes off the line is going to be fixed price. That is 
unprecedented in this kind of a program. So you better believe 
we have this thing controlled. I do not know if people are 
confused or they are bringing up inflation, but it is actually 
pretty straightforward and nothing has changed.
    Senator Rounds. Thank you, sir.
    Senator Cotton. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman. Thanks to all of 
you who are here with us today.
    I wanted to ask about some specific programs, the weather 
satellites. We were counting on the European Union (EU), and 
the EU's decision not to launch a replacement for the Meteosat-
7 is causing concern in our ability to collect certain weather 
data over CENTCOM's region. How are we adjusting our plans to 
compensate for that?
    General Holmes. So we have the--and I may get my acronyms 
wrong, but we have a weather satellite that we have not 
launched. There have been different views on whether we should 
launch it or not from different places in the Government, and 
as a result, we have not. We know there is congressional 
language that tells us to launch it by the end of 2016 or 
retire it. We want to launch it, but it takes longer than that 
to get it on contract and launch it. So our plan is to work 
with Congress to see if we can get language that would allow us 
to do it and then launch that satellite to provide that 
capability.
    Dr. LaPlante. Yes. Just let me add to that from an 
acquisition perspective. The general rule--there are 
differences from when you get the satellite on contract, it 
takes nominally 2 years of integration work. This is 
engineering work to integrate it with the launch vehicle. So we 
have a general rule of thumb that we have to award 2 years 
prior to a launch. So if you are saying in the language that we 
have now that it has to be launched by December 2016, that kind 
of does not work. So we could do it if directed. It just will 
not be before December.
    Senator Donnelly. Well, here is another operational 
question. We are moving F-35s into Hill Air Force Base. What 
are we going to do with the F-16s?
    General Holmes. Well, we cannot ask the same people to 
maintain both of them. So the plan that we had built would take 
those F-16s and make them available as A-10 replacements for 
Air Force Reserve and Air National Guard units at Fort Wayne, 
IN, and at Whiteman in Missouri. If we are not able to come to 
an agreement with Congress on what we are going to do with the 
A-10, then we will have to look at what we do with those 
airplanes, as we have to bring them down to make maintenance 
people available.
    What we would like to do is to move them on and to replace 
those A-10s at those units with block 40s that have a lot of 
service life left and have a lot of length left.
    Senator Donnelly. Terrific.
    I just want to ask one more operational question, and then 
I want to ask about drones.
    The KC-46--and this is more of an installations question. 
When can we expect an announcement on the candidate bases for 
the Reserve-led operating parts?
    General Holmes. Sir, we expect to make that announcement in 
September 2016 I believe is the last information I got. So for 
OPS-3, which should be a Reserve base, we expect that in 
September 2016.
    Senator Donnelly. Now, in regards to drones, how much more 
would you need if you had the optimal plan for yourself on 
drones, the number of drones, the number of operators? In order 
to meet what you think is the threats you need to meet, the 
things you face, would you be at the present number or would 
you be much higher?
    General Holmes. Sir, I am going to defer that question to 
General Wolters.
    General Wolters. Senator, that is a great question.
    As you well know, we as services provide resources to the 
combatant commanders on their request. Typically the number one 
request item from our combatant commanders is ISR followed by 
ISR followed by more ISR, and that typically equates to medium-
altitude remotely piloted aircraft that we possess in the U.S. 
Air Force. Right now, our U.S. Air Force will be postured in 
fiscal year 2016 to support 60 CAPs, and the CAPs stands for 
combat air patrol. It can best be described as aerospace 
vehicles overhead to targeted medium altitude that possess the 
capacity to surveil from 18 to 24 hours.
    We believe, given the other elements of the enterprise in 
DOD and of our coalition partners that 60 is the correct number 
for the near term. It is that way because in the U.S. Air 
Force, we need to freeze the stick, establish a force that can 
innovate with 60 CAPs, let that settle for several years to 
where we have the appropriate number of pilots per CAP per 
vehicle so that the enterprise will be in a position to where 
we can keep the force for the long term and then in the out-
years we will be in a position, as we work with our partners, 
to feed the fight.
    Senator Donnelly. Let me ask you this. You mentioned that 
the requests are for ISRs and then the next highest is ISRs and 
then the next highest is ISRs. In terms of the actual vehicles, 
how many more do you think you need to meet all the requests 
that are out there?
    General Wolters. Senator, that is a great question.
    We know that what we currently possess is not enough to 
meet the demands of the combatant commander in the Air Force, 
in the other services, and in the enterprise that services 
intelligence, surveillance, and reconnaissance.
    Dr. LaPlante. I am not a warfighter, but as somebody who 
has been around the analysis community for a long time, I am at 
the point where I hear people say we need to do analysis on how 
much ISR we need. I just say I will tell you the answer. More. 
Every time they do the analysis of warfighters coming back, it 
is just insatiable just watching this.
    Senator Donnelly. Would that also reflect on the number of 
pilots that you need as well?
    General Wolters. Senator, it does. This goes back to the 
challenge that we face in the U.S. Air Force with the number of 
airmen that we possess and the capacity and capabilities that 
we need to deliver for the joint fight.
    The second largest area that our combatant commanders asked 
for support is in command and control and air superiority. So 
we are threading the needle between the size of our ISR force 
and the size of the force to serve those requirements that are 
given to us by the combatant commanders.
    Senator Donnelly. Dr. LaPlante, I am out of time now, but 
one of the most striking things to me, since I have been on 
this committee, is the need for drones and drone vehicles and 
the constant statements of every single vehicle we have--there 
are three or four people who want to get their hands on it for 
the next trip it takes. So as you said, as you look at this 
acquisition system and you look at what we really need the 
most, it is like the old saying of the simplest explanation is 
often the best. What you need the most is probably the thing 
they are asking for the most.
    Dr. LaPlante. Yes. Here is the problem with us in 
acquisition particularly the last 10 years. Most of the ISR 
demands come in through these things called Joint Urgent 
Operational Needs. So what it is, is basically take things like 
Predator or Reaper and put this sensor or that sensor on it. It 
is a rapid acquisition thing with the CENTCOM.
    So what was happening was a lot of our ISR that was getting 
this big demand was being run basically in this urgent need 
area, and none of the regularity, which is good and bad, of 
acquisition was being done. So we are trying to figure out what 
is normal in ISR. For a while there, I kept saying, well, the 
demand in all this crazy, urgent operational need stuff will 
end as soon as we get out of Iraq. It did not happen.
    Senator Donnelly. It will not happen.
    Dr. LaPlante. I think you are right, and so here is what we 
are doing on Predator and on Reaper. We are saying, guys, 
accept that this is always going to be this way. Build a 
baseline and then build a rapid part of the acquisition that 
will assume this stuff will keep dropping in. Just to get 
exactly at your point, because this is not normal. It is not a 
classic thing. The demand signal just keeps going up. So you 
are right.
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Cotton. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chairman, and 
congratulations.
    Thank you, gentlemen for being here today. I appreciate 
your testimony and your candor.
    The good Senator Cotton took a lot of my A-10 line of 
questioning, but I would like to just go back a little bit 
because maybe this has been provided to previous committees. I 
am not certain. But when we are comparing the cost of A-10 
sorties versus the F-35 as a replacement, I have not seen any 
numbers on that. In my simple Army National Guard mind, I know 
that the A-10 flies a lot slower. I know it is preferred by 
ground troops. The F-35 might be a lot faster. I do not know. 
The F-15 is a lot faster. But time spent in the air--how long 
do the replacement aircraft stay in the air before they have to 
see the tanker? What kind of payload can they carry as far as 
munitions? All of that matters to those troops on the ground. 
That is very important. Most of the ground pounders that I have 
talked to, the men and women that I served with, when you ask 
them, they say they would rather see an A-10 in the air.
    I know that is, again, unqualified by numbers. I would like 
to see those numbers so that if we are proposing we make this 
change, that I can defend it because right now I cannot, and in 
my mind I am not prepared to defend it. I do not want to defend 
it at this point. I would love to see the A-10s remain. So if 
you would just comment briefly to that.
    General Holmes. Yes, ma'am. Senator, thank you.
    I think we like the A-10 too. It is not just that the guys 
on the ground do. We do too. We like the airplane. It was built 
to shoot tanks in the Fulda Gap to stop a Russian invasion of 
Europe is what it was built to do. Over time, it has been 
modified and updated, and it is a very good platform for the 
environment that it is operating in now where there is almost 
no ground threat, there is no air threat, and so it can use its 
advantages of long loiter time and being able to fly close and 
carry a large weapon load and be effective. It is not the only 
airplane that can be effective, as we talked about.
    It certainly costs less to operate than an F-35 will, and 
there is no set of math that would tell you anything different. 
The A-10 is always going to be cheaper to operate than an F-35 
will be, and I would stipulate that.
    The question is that in the environments of the future, can 
it get there. So what we are trying to do is make sure that we 
have a way to support soldiers in the future as well that may 
be operating in a place where there are sophisticated surface-
to-air defenses.
    We estimated that the loss rate of the A-10 in the Fulda 
Gap scenarios back in the 1970s was really, really high. They 
were not going to last through the conflict and they were going 
to take a really high attrition rate. If you looked at the 
places that they employed in the first Iraq War, if they got up 
into a sophisticated ground threat, they took a pretty good 
beating. It is a tough airplane and they were able to fly a lot 
of those home with the damage they took, but they could not fly 
them again. So they could not support ground troops the next 
day because of the damage that they took.
    So what we are trying to do is balance our ability to 
support our brothers and sisters on the ground today, make sure 
we have the capability to do it 20 years from now if they are 
operating in place where they may be on the defensive, for once 
where the enemy is bringing their fire power with them like the 
Russians were going to do and they have sophisticated defenses 
with them. We think it is worth paying a little bit more, cost 
per flying hour, to be able to get there instead of having a 
cheaper airplane that you cannot use. I think that is the 
simple part of it.
    We would love to keep the A-10 until the wings fall off of 
them if we could afford to do it. It is just how do we fit that 
capability in and plan to support the ground troops of the 
future within the same limited budget.
    Senator Ernst. Thank you.
    Yes, General Wolters.
    General Wolters. Senator, if I could. I served as the Air 
Chief in Afghanistan for a year and had the good fortune to 
command A-10s, F-15Es, F-16s, and B-1s in harm's way. All were 
referred to as fantastic CAS platforms depending upon which 
soldier you talked to who happened to be in the middle of a 
troops in contact scenario.
    One of the challenges that we faced with the A-10 was the 
fact if we had multiple engagements separated by distances 
greater than 100 nautical miles, you are potentially in a 
position to where some of the other aircraft that possessed the 
capability to dash quicker between targets would be able to 
serve multiple targets. That is a classic illustration to where 
the A-10 was slightly challenged due to its inability to 
achieve a high-end speed.
    But I could not agree more with what General Holmes said 
and with what your candid observations are about the A-10. It 
is a wonderful close air support aircraft. I have flown it. I 
have flown its predecessor, the OV-10, in the early 1980s. But 
there are some things that become challenging certainly in a 
non-permissive environment, and there are still things that 
occur in today's combat permissive environment where other 
aircraft possess a little bit better ability to dash to other 
targets.
    Senator Ernst. Thank you. I do appreciate that, gentlemen.
    I know we had spent some money modernizing the A-10s, and 
now I see in part of the discussion with the C-130 fleet, 
another aircraft that is well beloved by many members of our 
armed services. My husband took off in a lot of C-130s, did not 
land in a whole lot of C-130s. So just a little bit of 
discussion, if you would please. Talk through the modernization 
plan with the avionics. If we spend this money, then are we 
going to turn around and in another 5 years say the C-130 is 
not good enough, we need a different aircraft?
    General Holmes. Thank you again, Senator, for that question 
as well.
    We had some very productive meetings with staffers this 
week on both your staff and with your House counterparts, and 
we think we understand the intent of Congress in the 2015 NDAA 
language and we are going to move that and execute that intent. 
So our intent is to spend the AMP money in the budget on AMP, 
as we were directed to do. There is prior year money there that 
we can spend to begin buying radios required for the Avionics 
Modernization Program (AMP) and to finish the research, 
development, testing, and evaluation (RDT&E) for AMP that would 
do a tech refresh on the avionics modernization program, the 
program that we are having a hard time finding the money to pay 
for because in the years since, we have let that pause, there 
are newer components and there are manufacturers that are not 
making them anymore. It will take a little R&D money, and we 
will expend that money to do that.
    We believe the NDAA also gave us the authority with the 
certification by the Secretary of Defense to take the money we 
had in there for airspace compliance, the communications, 
navigation, surveillance, and air traffic management money that 
Ranking Member Manchin talked about, and start to apply that to 
make sure that the airplanes are compliant and able to fly in 
the airspace. We have to do both.
    We had brought a plan for a couple years that would do a 
modernization plan that was compatible with a very quick effort 
to go make those airplanes compliant. The time has delayed now 
to where we are going to go ahead and move ahead with the 
avionics modernization program as our modernization program, 
and then we hope to work with a lesser program to make them 
compliant in the airspace, and then at some point those 
programs will meet.
    What we found is when we took another look, after the time 
that we had been stuck deciding on the way forward--we took 
another look at it and as we reduce the C-130 fleet down, we 
are down to about 328. If we are able to get down to 300 next 
year, which we think still exceeds the requirement, then the 
costs start to come together between the aviation modernization 
program and the program that we had proposed to the point that 
the costs were close to the same. So we are going to move 
forward and follow the direction of the 2015 NDAA.
    Now, it will still be hard to come up with that money. We 
will need help to do that. It is multiple billion dollars over 
a couple of FYDPs, and that means there is something else that 
will not get done in the defense budget. But we are going to 
budget the money for the compliance part. We are going to move 
out with the prior year money in AMP and then we want to work 
with Congress to figure out how we are going to pay for that 
modernization program.
    Senator Ernst. Thank you very much, gentlemen. I understand 
we have a need to protect our taxpayers, but we have a need to 
protect not only our men and women in uniform but also all of 
our Americans here in our homeland.
    So thank you, Mr. Chairman.
    Senator Cotton. Senator Lee?
    Senator Lee. Thank you, Mr. Chairman.
    Thanks to each of you for joining us. Thanks for all you do 
to keep our armed services running well. I am a big fan of the 
Air Force and appreciate what you do.
    Late last year, the Air Force began a study into the future 
needs of test ranges and their infrastructure on those ranges, 
a key to maintaining readiness and innovation within the Air 
Force. What would you say--and this is open to all of you and 
any of you who want to answer it. What do you believe are the 
most critical needs for Air Force test ranges in order to make 
sure that those ranges are able to adequately test fifth 
generation aircraft and weaponry against the threats that they 
are likely to be facing in the next few decades.
    General Holmes. Yes, sir. So we dealt this year--as we 
start to build our 2017 budget, we took a brief that you may 
have seen from our test and evaluation people that outlined the 
state of our test and evaluation enterprise. As we know that we 
are contemplating, as the chairman said, spending hundreds of 
billions of dollars on the Air Force here over the next 20 
years in the modernization effort, that we need to make sure 
that we have the test and evaluation enterprise that will 
support testing those things and making sure that they work.
    So we spent a multiyear project kind of bringing together 
exactly what needs to be done to accomplish that. The kinds of 
things we are talking about are simulated threat emitters so 
that you can go out and fly against a particular surface-to-air 
missile (SAM) system and see if it works or not, the test 
stands where you can put aircraft on a test stand and look at 
different wavelengths of energy against them so to see whether 
they are detectable or not by different radars and to test 
those capabilities that we are bringing forward. Then there are 
also some S&T issues of things like wind tunnels and test 
facilities and those areas.
    We have put a plan together. We think we have a plan to 
start going toward to pay for it. As we start talking about our 
test and evaluation enterprise, because of those programs that 
we are going to test and evaluate, it gets difficult to talk 
about in an open session. But we can come back and provide you 
some more information.
    [The information referred to follows:]

    General Holmes. Fifth generation aircraft and weapons need to be 
tested on updated open air ranges and in ground test facilities that 
present the system under test with an environment that represents 
existing and emerging threat systems world-wide, including Pacific 
theater threat systems. Further, our ranges need to be upgraded to 
address the increased distances for air-to-air and air-to-ground 
weapons employment inherent in our 5th generation systems. There are 
also enhancements required to our sensor, datalink, and propulsion 
facilities to fully accommodate development for 5th generation systems 
and beyond. Finally, we will need to make investments in our test and 
evaluation infrastructure to support continued relevance in testing. 
This would include technology updates for data collection and 
instrumentation systems in addition to basic facility sustainment, 
repair, and modernization.

    Dr. LaPlante. I would say many of us are keenly aware, as 
we move to this next generation, whatever you call it, Anti-
Access Area Denial (A2AD), fifth generation air superiority, we 
need the testing and then the accompanying modeling and SAM 
because of the scales we are going to be doing to make this 
realistic so those of us an feel confident we really understand 
these systems. If you really look at the scales that are now 
involved--and we have multiple platforms. One of the things 
that the F-35 brings F-22 is the fact that the forward ship and 
all that and the fusion. We would love to be able to test that 
robustly over large areas, at least somewhat to validate it 
against, as General Holmes said, realistic emitters, realistic 
threats. We do not want to be testing against 2-foot tall 
adversaries potentially. We need to test against modern stuff, 
and it is a challenge.
    Just as somebody who comes out of testing in my heritage is 
that it is increasingly harder to test things because our 
ranges get more encroached on. Our restrictions become closer. 
But we have to do it. There is no substitute for a test. As we 
say, all models are wrong. Some are useful. You have to test.
    Senator Lee. That is right. Thank you for that insight. I 
hope you know how much support there is in Utah for the great 
work that you do in the Utah Test and Training Range (UTTR). 
One of the great assets that we have is the UTTR, given the 
sheer expanse of land that we have there, uninterrupted land 
that can help with the very things you are describing.
    Dr. LaPlante, the Air Force is migrating the logistics 
function under your office in an attempt to create better 
efficiencies and cost benefits between acquisition programs and 
the sustainment and lifecycle processes. Can you give us an 
update on this process and tell us about what provisions exist 
within the structure to ensure that the logistics deputy has an 
opportunity to adequately influence the process of acquisition 
so that sustainment considerations are built into the weapons 
systems from the beginning?
    Dr. LaPlante. So this has actually been really exciting. It 
is March now. We did it on October 1st. What we did, just for 
the chairman and for the rest of the committee, we brought in 
the headquarters of the Air Force, the logistic policy experts, 
into the acquisition. Now, the risk was, for people who really 
know how good the Air Force does logistics and how wonderful 
our depots are, hey, you acquisition people, you better not 
screw up what is going really, really well. But on the other 
hand, if you could pull this thing off and you can get 
acquisition experts in at the beginning of these programs--as I 
said earlier, 70 percent is in the cost--it could be a pretty 
wonderful thing. It is a pretty wonderful thing.
    I ran into my two-star equivalent who leads that part of my 
organization just last week, Daniel A. Fri, Deputy Assistant 
Secretary of the Air Force for Logistics and Product Support, 
Office of the Assistant Secretary of the Air Force for 
Acquisition. I said, Dan, how is it going? Because remember, 
that organization was picked up down the hallway and moved into 
mine. He goes, we are so busy. We are overwhelmed. I said, was 
it more than it used to be? Yes. Why? What is going on? All the 
acquisition people are bringing us in to all their meetings at 
the beginning of the acquisition process. It is like it has 
changed the culture. So I think it is really, really exciting.
    Senator Lee. Exactly what you wanted to hear.
    Dr. LaPlante. Yes, yes. All the signs are really good. I 
have to give a shout out to General Bruce Litchfield at the Air 
Force Sustainment Center. You see it at Ogden. We see it at 
Tinker. We see it at Warner-Robbins, just remarkable stuff. So, 
hey, the fact that we can cozy up and bring some of that magic 
together with acquisition, I mean, I think it is really 
awesome. So far so good.
    Senator Lee. I am pleased to hear it. Everyone was nervous 
when it happened, but it seems to be good so far.
    Mr. Chairman, if I can ask one more short question if I 
promise to make it short.
    There was an article published on military.com last week 
indicating that the F-35 will not be able to fire the SDB 2, 
the close air support weapon, until 2022. Can you tell us about 
what other close air support capabilities the F-35 will be 
capable of prior to that 2022 time horizon?
    General Holmes. Yes, sir. So when we talk about having an 
initial CAS capability, it means that the airplane when it 
starts that initial operating capability (IOC)--it will have 
the ability to use the GBU-12 or a laser-guided weapon. It will 
have the ability to use Joint Direct Attack Munition (JDAM), 
the drop on coordinates, and it will have the radios and the 
messaging required to be able to operate with a JTAC to take 
both digital CAS messages that come through without words, that 
pass coordinates and instructions or it will have the right 
radios to talk to the guys on the ground to do that. Later on 
in the models that we get to by full operational capability 
(FOC), we will integrate a small diameter bomb (SDB) as you 
said.
    I saw the article. The article I saw said it will not fit 
in the marine bay. I am not sure if that carries over to us or 
not. We will have to get back to you.
    But it will start out with that initial capability, and 
then it will add larger JDAM, the 2,000 pound JDAM, the ability 
to carry GBU-12s outside of the wing, and the ability to carry 
SDB inside and maintain its stealthiness while it does it.
    Senator Lee. Great. Thank you.
    General Wolters. Just one addition, sir. In between IOC and 
FOC, the F-35 will gain the capacity to shoot the 25-millimeter 
gun, which will also enhance its capability in the CAS 
environment.
    Senator Lee. Great, great. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cotton. Senator Manchin?
    Senator Manchin. Very quickly, one question. This, I think, 
is for General Holmes. In the Air Force report on the 
recommendation of the National Commission on the Structure of 
the Air Force, the Air Force indicates that the Air Force is 7 
percent short of meeting demands for fighters with the current 
force structure. The report asserts that shifting more effort 
to the National Guard and Air Force Reserve, as recommended by 
the commission, would result in a shortage of 10 percent in 
fighter forces available.
    Several years ago, the Air Force, as a part of the new 
defense strategy, reduced combat air force, the CAF fighter 
force structure under the so-called CAF Redux.
    So I guess I would ask, General, why did the Air Force fail 
to inform us that by approving the CAF Redux, that we would be 
approving a force that was 7 percent short of meeting its 
requirements? I do not think we were notified at that time. I 
guess now with the A-10, would that add to the 7 percent 
shortfall?
    General Holmes. Thank you, Senator Manchin.
    So there are several different kind of requirements that we 
look at. The first one we talk about is the surge capacity, its 
ability. We are all in. We are taking Active, Guard, Reserve, 
everybody goes. Everybody gets mobilized, and it is kind of the 
worst case scenario in the defense guidance. It would be to 
defeat in one area, to deny in another area, to provide 
homeland defense and nuclear deterrent all at the same time. 
Within that area, at the force structure we are now, we are on 
the ragged edge of being able to meet that worst case scenario, 
and as we make this drawdown, that risk gets worse.
    What the report is talking about is the rotational ability 
to support what we do with COCOMs every day. So because when we 
rotate forces forward, if you rotate active forces on what we 
would call a 1 to 3 deployed to dwell, that means for every 
unit you have down range, you have to however three back home 
that are in the dwell period training, resting, getting ready 
to go back.
    The active force we would like to deploy on a 1 to 4 
deployed to dwell so that they can have enough training time to 
regain the full spectrum readiness that General Wolters talked 
about. But in reality, we are closer to a 1 to 2 deployed to 
dwell or a 1 to 3 deployed to dwell.
    For the Reserve component, to mobilize them, we looked at a 
mobilization to dwell of 1.5 or 1 to 5. So for every one period 
they are deployed or mobilized, there are five units that are 
not deployed.
    So if you move things from active over into the Reserve 
component, now you have cut down on your ability to support 
that rotational requirement within the dwell rate. That is what 
our response talked about. If you move more force from active 
into the Guard, then because of the longer time we have to give 
them because of the different place they are in their life and 
as citizen soldiers, they cannot deploy as much, then you have 
a decrease in your ability to meet that rotational requirement 
or what we do every day to support COCOMs around the world.
    Senator Manchin. Thank you, sir.
    Senator Cotton. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    General Wolters--first I want to thank all of you for your 
service and the men and women you lead.
    I would like to focus a little bit on the ISIS mission. I 
have heard talk about, hey, we do not have combat troops over 
there. I know that is obviously a mistaken assumption. The men 
and women flying those close air supports are definitely combat 
troops risking their lives on a daily basis. Who is calling in 
those strikes right now?
    General Wolters. Senator, the majority of those strikes are 
being called in by ground component commanders of different 
sectarian nature that are joined by our forward forces, some of 
our U.S. special forces on the ground. That data is 
subsequently passed back to a headquarters either as far back 
as Qatar or down to Kuwait where in a command and control 
center we examine the target----
    Senator Sullivan. Do we have JTACs on the ground there 
calling in air strikes?
    General Wolters. We have JTACs assisting individuals, but 
they are not calling in the air strikes.
    Senator Sullivan. So are they out there on the ground?
    General Wolters. There are some in forward headquarters in 
Baghdad and in Kuwait.
    Senator Sullivan. Do you think we have a robust capability 
in terms of marines or Air Force or special forces on the 
ground in the event we need to go kick in a door or two to go 
get a downed pilot?
    General Wolters. Sir, we do. In the event that we have a 
downed pilot, we possess the capability to bring in the 
appropriate size force to accomplish a successful personal 
recovery mission.
    Senator Sullivan. Good.
    I want to switch. You were talking about resources to the 
combatant commander. You probably saw in the news today the 
Russian exercise in the Arctic this past week, 38,000 soldiers, 
50 surface ships, 110 aircraft. This is in addition to the four 
new combat brigades they are putting in the Arctic, a new 
Arctic command, 13 new airfields. If you look at a map of what 
the Russians are doing in the Arctic, it is pretty significant. 
A huge icebreaker fleet that they are dramatically increasing.
    You have served in Alaska. You have served in Elmendorf. I 
know Senator Lee was talking about Utah's open airspace, but I 
think the Joint Pacific Alaska Range Complex (JPARC) is 
probably the most open airspace in terms of training maybe in 
the world.
    Yet, with regard to resources in the Arctic, there is no 
Arctic Operational Plan (OPLAN). In terms of your ability to 
resource combatant commanders, do you think we need an Arctic 
OPLAN, particularly given the threat that the Russians are 
posing and the buildup in the Arctic and, to be honest, the 
fact that some of your sister Services are talking about 
reducing forces in the Arctic?
    General Wolters. Senator, I would like to carry more of 
this conversation in a different environment so we could speak 
at a different level. But as you well know, sir, we do possess 
the capability to allocate current assigned forces between 
combatant commands to put them in a position to where we have 
the access to help support some of the challenging areas that 
you are alluding to.
    The good news about one of your references, certainly the 
UTTR is a fantastic range. The JPARC is a fantastic range. In 
and around that vicinity, it gets us good access to be in a 
position to help thwart the threat that you are alluding to.
    Senator Sullivan. But if we do not know as kind of the 
services that are sourced and the requirements, what the 
requirements are according to the combatant commanders, it 
makes it a little tougher to plan. Does it not?
    General Wolters. It does.
    Senator Sullivan. Do you have any thoughts on that, General 
Holmes?
    General Holmes. Nothing to add, sir.
    Senator Sullivan. General Welsh has talked very positively 
about barring any major issues that the first F-35As would be 
scheduled to arrive at Eielson late 2019. Do you have any idea 
when the production line will begin building F-30s for Alaska?
    General Wolters. Sir, typically we pay for airplanes 2 
years before they are delivered. So the airplanes that will be 
delivered in fiscal year 2019 would be paid for in 2017, and 
they would start the construction then after that, and they 
would roll off the line, if everything works right, in about 2 
years after the time that we appropriate the money and obligate 
the money.
    Senator Sullivan. So that is about 2017.
    General Wolters. Yes, sir.
    Dr. LaPlante. Yes, and at the right time you can go to Fort 
Worth and pick the first tail number that is going to go there. 
We did that in January. The first tail number that is going to 
Hill, General Herbert J. ``Hawk'' Carlisle, Commander of Air 
Combat Command, wants to fly it into Hill because Hill, of 
course, is where we are going to have the IOC. So, yes, you can 
go by tail number and find your airplane and sign your name----
    Senator Sullivan. If you keep us posted on that, we will be 
in Fort Worth, the earlier, the better.
    I also want to talk about, in terms of training. I know we 
have talked a lot about sequester and the effect that will 
have. I know you gentlemen believe that the most important 
thing we can do to take care of our troops is to train them 
hard, rigorously so they come home after they have real-world 
contingencies or go to combat.
    One of the things that I did not see in the testimony was 
the development of any new generation of aggressor platforms 
for particularly our fourth and fifth generation fighter 
fleets. So specifically, do you think the F-16 is too expensive 
to fly as an aggressor platform, and is the Air Force looking 
at developing a more capable, less costly aggressor platform 
that can serve in places like Alaska where we have a fourth and 
fifth generation fleet?
    General Wolters. Senator, I will start with this. We 
certainly think that the F-16 is a capable platform of 
appropriately representing the threat. As we speak, we will be 
working in the next several years to improve our operational 
training infrastructure, and part of that improvement will 
include some additional avionics packages that can be placed on 
board the F-16 to better replicate fourth and fifth generation 
threats. We will also leverage the capability on great ranges 
like JPARC where we can invoke live, virtual, and constructive 
into the environment so that we can better replicate some of 
the existing capabilities that exist in our potential 
adversaries.
    Senator Sullivan. So the cost of the F-16, in terms of an 
aggressor platform, is not something that is concerning?
    General Holmes. In the short term, it is what we have, 
Senator. In the long term--thanks for the question. We have 
looked at several options. It is really too early for any 
decision. But as we look at our T-X airplane that we are 
building as a replacement for the T-38 and is an advanced 
trainer, we are setting those requirements and being careful to 
limit them to the requirements we need for the trainers so we 
do not make a system that is too expensive to be able to fit 
into our 20-year plan, as Chairman Cotton talked about.
    But we are also going to write a requirement in for that 
airplane that it has excess growth capacity inside it. It will 
have extra room. It will have extra electrical power and extra 
cooling air so that if in some point in the future we want to 
take that much-cheaper-to-fly airplane and modify it to do some 
other roles like companion trainer for the bomber pilots or 
potentially maybe an adversary airplane--we have not made any 
decisions about that, but we are thinking about ways to do that 
mission cheaper in the future. But for right now, the F-16 is 
the most cost-effective adversary platform that we have.
    Dr. LaPlante. I just wanted to close the loop on something 
we said earlier. The strategic agility and build adaptability 
in the platform, what General Holmes just went through with the 
T-X, knowing that we may want to use this thing in other places 
we are not going to lift requirements. Let us build some margin 
in to take on what you are saying in the future. Let us not 
limit our future options.
    Senator Sullivan. Thank you. Thank you, gentlemen.
    Senator Cotton. Dr. LaPlante, one final question. Last 
month on February 4th, the Dowty propeller factory in 
Gloucester, England was destroyed by fire. The Air Force 
subsequently informed Congress that Dowty was the single 
manufacturer of the C-130J propeller. Can you tell us about the 
impact of the loss of this factory on the C-130J production and 
readiness?
    Dr. LaPlante. Yes, indeed, and it was serious. It was a 
real fire that destroyed equipment production equipment.
    We have enough propellers to keep the production line going 
through about November, and then after November, we are going 
to have to come up with a mitigation plan. They are working 
that right now to try to understand how to do it. I cannot 
promise you that there is not going to be an impact on 
production. I do not know that there is not going to be. I am 
concerned. But we have enough to continue the production 
through November, and then I think what we need to do is when 
we have a fuller understanding of the mitigation plan, we need 
to come back to you and show you what we think the impact is. 
But it was a pretty serious event for us.
    Senator Cotton. Do you have any projections on when you 
might have that mitigation plan or what the course----
    Dr. LaPlante. Yes. I think within a month I think we should 
know. I would be happy to get back with you all and get our 
staff to show you how we are planning to get around it because 
we need to keep the production line going for the 130Js, 
obviously.
    Senator Cotton. Moving beyond this specific incident, is it 
best practice to have a single manufacturer of such a critical 
component?
    Dr. LaPlante. Obviously, it should not be. But, I would say 
this.
    Senator Cotton. Not just a single manufacturer, a single-
site manufacturer.
    Dr. LaPlante. Right. Yes. I mean, there is no way to answer 
your question other than saying it should not be a best 
practice to do it. It is not a best practice.
    On the other hand, I would say that there are a lot of 
critical suppliers. Typically they are subcontractors that we 
worry a lot about exactly this kind of thing happening. The 
same kind of thing--it sounds less dramatic than a propeller, 
but it is just as impactful--some of the suppliers that make 
our very precision inertial navigation measurement systems. I 
can give you a list of suppliers that do one-of-a-kind thing 
that we always are trying to keep up a backup. But that is what 
we worry about all the time with our industrial base. 
Absolutely.
    Senator Cotton. I want to ask, mindful that this is a 
public hearing--so I will be cautious in asking and ask you to 
be cautious in answering--if there are other such single-site 
capabilities of which Congress should be aware. If you are not 
comfortable discussing them here, you can submit your answer in 
a classified setting to this committee or the Intelligence 
Committee, on which I also sit.
    Dr. LaPlante. Yes. I would very much like to do that. We 
need to follow up and let you guys know where we think it is 
really an industrial base question. It is one of the critical 
components, where they are being made, and are there single 
points of failure. You need to see where these are. We have 
some of this already.
    The other thing is--and the 130J is kind of like this I 
suppose--sometimes these are things that multiple services rely 
on. We find out that the Navy and us rely on the same 
subcontractor on an inertial navigation system. It is kind of a 
mom and pop shop. We were looking for these all the time. We 
will get back to you. Thank you.
    Senator Cotton. Yes, please do submit that list through the 
appropriate channels.
    Dr. LaPlante. Will do.
    Senator Cotton. The hearing is adjourned. Thank you, 
gentlemen.
    [Whereupon, at 4:10 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Tom Cotton
                               munitions
    1. Senator Cotton. Secretary LaPlante and General Wolters, over the 
past several years, munitions development and procurement programs have 
been used as billpayers for other priorities, and therefore negatively 
impacting munitions inventories needed for wartime operations. Does the 
Air Force have sufficient inventory and procurement plans for air-to-
air and air-to-ground munitions necessary to meet combatant commander 
objectives?
    Dr. LaPlante and General Wolters. No, after 3 years of Budget 
Control Act constraints and over a decade of sustained contingency 
operations, the Air Force is thousands of weapons short of Defense 
Strategic Guidance requirements. The Air Force simply has not been 
resourced to achieve required munitions inventory levels.

    2. Senator Cotton. Secretary LaPlante and General Wolters, if there 
are not sufficient air-to-air and air-to-ground munitions in your 
inventory needed for wartime operations, what actions are you taking to 
address shortfalls?
    Dr. LaPlante and General Wolters. To address these shortfalls, the 
fiscal year 2016 President's budget achieves maximum annual production 
capability for Joint Air-to-Surface Standoff Missile-Extended Range and 
improves Hellfire, Joint Direct Attack Munition (JDAM), SDB, AIM-9, and 
AIM-120 procurement rates. However, higher expenditure rates, coupled 
with limited industrial base capacity and diminishing manufacturing 
sources, means it will take years, or even a decade, to achieve 
required levels. Overseas Contingency Operations (OCO) funding 
procedures limit our capacity to reduce shortfalls. One-for-one 
replacement of expended munitions results in a time lag between budget 
authorization and munition delivery, driving a nearly 4-year gap 
between munition expenditure and replacement. At Budget Control Act 
levels, all weapons procurement quantities are reduced. Munitions 
(rockets, general purpose bombs, flares and fuzes) are similarly 
reduced. More importantly, OCO cannot be used to fund forecasted 
weapons requirements.

    3. Senator Cotton. Secretary LaPlante, are any of your mature 
munitions programs likely candidates for multi-year procurement 
contracts to help reduce unit costs?
    Dr. LaPlante. There are currently no Air Force weapons programs on 
multi-year procurement contracts, but a number of cost-reducing 
initiatives are in place (pricing bands, bundling and competition) that 
are paying dividends. Multi-year contracts have traditionally not been 
viewed as a realistic option as weapons procurements have historically 
faced a number of challenges to include test issues/delays during 
development, buy-in on joint procurement profiles, and commitment from 
FMS partners. However, MALD-J is one program that could easily benefit 
from a multi-year contract as the Air Force is currently the only 
customer. We could certainly look at other candidates such as Advanced 
Medium-Range Air-to-Air Missile, Hellfire, JDAM, and Joint Air-to-
Surface Standoff Missile as long as we have support from Congress, our 
joint partners and the rest of the Department for multi-year contracts.

                         rated aircrew capacity
    4. Senator Cotton. General Wolters, the Air Force has experienced a 
chronic shortage of fighter pilots, currently forecasted as increasing 
to nearly 500 pilots by fiscal year 2020, as well as experiencing 
difficulty providing sufficient manning for MQ-1 and MQ-9 Remotely 
Piloted Aircraft (RPA) units, yet your rated manning forecasts show 
over 1,400 excess mobility pilots in fiscal year 2016, and carries more 
than 1,000 excess mobility pilots throughout the Future Years Defense 
Program (FYDP). Additionally, your forecasts show over 500 excess 
Command & Control/Intelligence, Surveillance, and Reconnaissance 
(C\2\ISR) and electronic warfare pilots through the FYDP. While it is 
understood it takes time to train pilots in complex weapons systems, 
how do you reconcile shortages in some areas with significant excesses 
in other systems that are carried throughout your 5 year planning 
period?
    General Wolters. In weapon systems with a pilot shortfall (fighters 
and RPA), we cut back on staff positions, test community, outside 
career field career-broadening opportunities, and finally the 
schoolhouse manning in order to ensure our combat lines are manned to 
100 percent. In weapon systems that we have overages (such as mobility 
and C\2\ISR, we cover the shortages of the other weapon systems in 
staff, test, schoolhouse (undergraduate pilot training (UPT) bases for 
example), and other outside primary weapon systems rated bills (like 
teaching at the Air Force Academy). The major airline pilot hiring 
situation is going to affect the entire Department of Defense pilot 
pool. We are taking measures at this time to ensure we can meet future 
requirements such as preparing to ramp up UPT production, and to seek 
authority to increase the pilot bonus from $25,000 a year to $35,000 in 
the event airline hiring outpaces our ability to grow new pilots. 
Additionally, most airframes are much easier to produce and absorb 
(gain experience) than fighters. The single seat nature requires a 
higher number of aircraft to grow the pilot force. Cuts in maintenance 
and flying hours have impacted the fighter enterprise more than other 
categories. Add to this an unsustainable deploy to dwell ratio and 
inability to train to full spectrum readiness, and the result is a 
fighter force too small to accomplish assigned missions and adequately 
train the next generation. With these challenges, the Air Force is 
intentionally overproducing in other aircraft to offset the fighter 
pilot shortage. To be clear, there are no excess pilots in any 
projections.
    Our current operations overseas also mean that the professional 
development of our airmen as leaders and as tactical experts is lost as 
opportunity cost. We are developing a cadre of leaders who have not had 
the time to be seasoned, and aircrews that have not had the time to 
train to full spectrum readiness.

    5. Senator Cotton. General Wolters, are there funding or 
legislative language issues at play that Congress can assist you with 
in correcting your imbalances in the rated force?
    General Wolters. Yes, you can support the Air Force's submitted 
legislative proposal (#2) to allow the Air Reserve component (ARC) 
full-time support to train the Active component as a primary duty. 
Particularly in the fighter enterprise, we need the ARC experience. We 
are exploring more ARC involvement due to a shortage of Active 
component fighter pilot experience. In general, increased ARC use 
drives ops tempo up beyond traditional rates, which is detrimental to 
ARC retention. There are already pressures to increase ARC use in the 
fighter enterprise just to fulfill combat capacity. Increasing 
operations tempo for training purposes would add another layer of 
stress. More use of full-time ARC fighter pilots allows the total force 
to leverage the experience available in the ARC without undue stress to 
the Traditional Reservist and Drill Status Guardsmen ranks.
    In addition, you can support the Air Force's legislative proposal 
(#11) to modify title 37, subsection 334, of the U.S. Code to improve 
the Department of Defense's ability to incentivize aviators to remain 
in the Service. This proposal is supported by all four services and 
will allow the Department the latitude to modestly increase current 
incentives to posture against an improving economy and the increasing 
demand for pilots by the major airlines.

                         kc-46a tanker bed down
    6. Senator Cotton. General Holmes, the Air Force is planning to 
soon ramp up the delivery of a total of 176 KC-46A tanker aircraft as 
replacements for your aging KC-135 fleet, and will require a 
replacement plan for your current tanker fleet. Are you planning on a 
one-for-one swap with KC-135 aircraft within current units, or will you 
transition by taking down and standing up entire squadrons?
    General Holmes. The planned purchase of 179 KC-46A aircraft will 
allow the replacement of roughly one third of the Air Force air 
refueling fleet. The retirement of legacy tanker aircraft is planned to 
take place on a one for one basis while working towards and maintaining 
a total tanker inventory of 479 aircraft. Operational transition will 
be accomplished by converting entire squadrons from their legacy 
platform to the KC-46A, with a planned aircraft delivery schedule of 15 
aircraft per year.

    7. Senator Cotton. General Holmes, will the Air Force experience 
the same maintenance manning shortfall challenges as you are 
experiencing with the F-35 bed down?
    General Holmes. The Air Force does not expect to experience the 
same maintenance manning shortfalls on the KC-46A as we are with the F-
35. As currently planned, KC-135 units will convert to KC-46A units 
with no additive requirements and their maintenance personnel will be 
retrained to perform maintenance actions on the KC-46A. However, if the 
legacy KC-135 aircraft are not permitted to retire as planned, we may 
see manning challenges similar to those we are experiencing with the F-
35.

    8. Senator Cotton. General Holmes, when will Congress see your 
detailed plan for retirement of KC-135 aircraft as you start 
transitioning to the KC-46A?
    General Holmes. The timeline for retirement of KC-135 aircraft will 
depend on a variety of factors. These include combatant commander 
requirements and current and future fiscal conditions, especially if 
sequestration compels the Air Force to divest the KC-10 fleet. As the 
Air Force prepares to transition the KC-135 out of the fleet, a 
comprehensive divestiture plan and timeline will be submitted to 
Congress via the President's budget.
                                 ______
                                 
               Questions Submitted by Senator Mike Rounds
                        long range strike-bomber
    9. Senator Rounds. Secretary LaPlante, you stated that the Long 
Range Strike-Bomber (LRS-B) program is on track and on schedule with no 
major problems, and you also mentioned that because of the cost overrun 
and schedule delay issues with the F-35 program, the Department of the 
Air Force began to use then-year dollar cost estimates for clarity when 
discussing that program. However, you did not directly respond to my 
question of whether sticking by the $550 million unit cost for the LRS-
B without always qualifying it with the 2010 base year dollars is 
somewhat misleading to the American public. Can you provide a direct 
response to the question?
    Dr. LaPlante. The LRS-B's average procurement unit cost (APUC) 
target of $550 million in base year 2010 dollars for 100 aircraft was 
established in 2010 when the Department of Defense decided to go 
forward with the program. This target allowed us to make meaningful 
trades during the system's design to ensure we can build LRS-B in 
sufficient numbers.
    Our use of 2010 dollars allows consistency in the affordability 
requirement and allows meaningful comparisons to other programs by 
adjusting programs to a common base year. We fully recognize the impact 
of inflation and have carefully budgeted and planned to ensure we can 
afford LRS-B in then-year dollars when it comes to procure the 
aircraft. The Air Force has never intended to mislead the American 
public. Rather it is attempting to acquire LRS-B in a very responsible 
manner.

    10. Senator Rounds. Secretary LaPlante, what is the estimated APUC 
for the first LRS-B production aircraft in then-year dollars in the 
year of procurement?
    Dr. LaPlante. During our classified sessions with Committee staff 
and the Chairman of the Airland Subcommittee, we shared our development 
and production cost estimates presented at the Development RFP Release 
Defense Acquisition Board. We have also shared that these estimates 
will continue to mature until the program sets its Acquisition Program 
Baseline (APB) at Milestone B. The APB will be influenced by the 
outcome of the ongoing source selection. Following the source selection 
and Milestone B decisions the program intends to provide a classified 
briefing to the appropriate defense committee staff with further 
details regarding the APB.

    11. Senator Rounds. Secretary LaPlante, what is the estimated 
program acquisition unit cost for your planned buy of 100 aircraft?
    Dr. LaPlante. During our classified sessions with committee staff 
and the chairman of the Airland Subcommittee, we shared our development 
and production cost estimates presented at the Development RFP Release 
Defense Acquisition Board. We have also shared that these estimates 
will continue to mature until the program sets its Acquisition Program 
Baseline (APB) at Milestone B. The APB will be influenced by the 
outcome of the ongoing source selection. Following the source selection 
and Milestone B decisions the program intends to provide a classified 
briefing to the appropriate defense committee staff with further 
details regarding the APB.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III
                     retirement without replacement
    12. Senator Manchin. Secretary LaPlante and General Holmes, as I 
mentioned in my opening statement, the Air Force is planning to retire 
some aircraft, including seven Airborne Warning and Control System 
(AWACS) aircraft and seven Compass Call EC-130H aircraft, without 
replacement. My understanding is that these aircraft have been in heavy 
demand by the combatant commanders and that retiring them without 
replacing that capability would mean either failing to meet combatant 
commander demands, or placing additional strain on the aircraft and 
crews by keeping them deployed for longer periods of time. Why would 
the Air Force plan to retire aircraft in high demand without planning 
to replace them?
    Dr. LaPlante and General Holmes. Budget realities have forced the 
Air Force to make difficult decisions while attempting to cut costs and 
maintain capabilities. The decision to reduce the EC-130H Compass Call 
fleet by nearly half after fiscal year 2015 was one of those difficult 
decisions. This decision was not without risk, as the Air Force cannot 
support combatant commander requirements beyond current operational 
obligations.
    The Budget Control Act and resultant sequestration-level funding 
constraints also compelled the Air Force to assume additional risk by 
reducing the E-3 AWACS fleet in order to fund critical modernization of 
the aging Command and Control (C2) Theater Air Control System. These 
modernization initiatives include the E-3 AWACS Block 40/45 upgrade, 
the new 3-Dimensional Expeditionary Long Range Radar, the Air Force's 
Control and Reporting Center Operations Module Modernization, the Air 
and Space Operations Center 10.2 upgrade, and the Deployable Radar 
Approach Control program. This decision is key to critical C2 
modernization for highly-contested environments.

    13. Senator Manchin. Secretary LaPlante, has the Air Force produced 
any requirement for replacing these unique, high-demand Air Force 
systems?
    Dr. LaPlante. The Air Force has a comprehensive plan to replace 
both the EC-130H and E-3 AWACS capabilities that are to be divested. In 
the near-term, seven EC-130H aircraft will be divested in fiscal year 
2016, leaving eight EC-130Hs in the Air Force until the capability is 
replaced. The reduced number of EC-130H aircraft will still meet the 
requirements of the current fight and U.S. Special Operations Command. 
For the mid-term, 2020 to 2030 or as needed, we are evaluating options 
including re-hosting jamming systems on a more effective and efficient 
platform to bridge the gap to the far-term. For the long-term (2031-
plus timeframe), we envision a system of systems approach, to be 
determined based on results of an Analysis of Alternatives, due to 
report out in 2017. To address future AWACS capability requirements, 
the Air Force has begun activities towards an Airborne Battle 
Management and Surveillance Analysis of Alternatives, to be completed 
by 2018. These development planning activities will identify next-
generation AWACS options to bridge both capability and capacity gaps at 
lower costs by 2030.

              predator/reaper combat air patrol reductions
    14. Senator Manchin. General Wolters and General Holmes, the Air 
Force had wanted to reduce the number of Predator and Reaper remotely 
piloted aircraft (RPA) Combat Air Patrols (CAPs) it will support but 
has been unable to do so due to demand from the combatant commanders. 
These continued operations of Predator and Reaper CAPs have placed 
great strain on the ground crews that support these operations, so much 
so that the Commander of the Air Combat Command (General Carlisle) 
recently sounded an alarm that we are near the point of breaking the 
force. Unfortunately, we have been facing the prospect of breaking the 
RPA force for at least the past 6 years, while demand has continued to 
exceed supply. I know that the Air Force leadership announced previous 
efforts to fix this problem, but, during those 6 years, it appears that 
we have made little or no progress. How does the Air Force intend to 
fix this problem once and for all? What changes in legislation, policy, 
and personnel management are you proposing in this budget to solve this 
problem?
    General Wolters and General Holmes. The long-term solution to 
fixing the RPA manning problem is to man the RPA crew schoolhouses to 
100 percent and protect schoolhouse instructors from future surges. The 
Air Force is working very close with the Secretary of Defense to 
implement a new ``RPA Get-Well'' plan by the end of fiscal year 2016. 
The Secretary of Defense already approved a four CAP reduction that is 
in effect with an additional single CAP reduction in October 2015 to 
support Air Force efforts to fix our schoolhouse and to fix our line 
crew manning by the end of fiscal year 2016. The plan takes advantage 
of the Air National Guard and Air Force Reserve to fly more CAPs, the 
previously mentioned 5 CAP reduction (to 60 CAPs), increased use of 
contractors (to conduct takeoffs and landings and to instruct at our 
schoolhouses), and to initiate retention pay incentives for our newest 
RPA pilots. Please support funding the Air Force at President's budget 
request levels, and the Air Force effort to modify title 37, subsection 
334, of the U.S. Code to improve the Department of Defense's ability to 
incentivize aviators to remain in the Service. This proposal is 
supported by all four Services and will allow the Department the 
latitude to modestly increase current incentives to posture against an 
improving economy and the increasing demand for pilots by the major 
airlines.
                                 ______
                                 
             Questions Submitted by Senator Martin Heinrich
                              total force
    15. Senator Heinrich. General Holmes, the 58th Special Operations 
Wing has a highly successful classic association with the New Mexico 
National Guard's 150th Special Operations Wing. It is my understanding, 
however, that there is not ``legal sufficiency'' for the Guard to 
provide training to Active Duty personnel by flying CV-22s. In fact, 
there are only four or five folks with the 150th that are given waivers 
by name to provide training on the CV-22, despite the fact that the CV-
22 is understaffed, Air Force-wide. Can you describe this situation 
further?
    General Holmes. Under current law, AGRs and technicians must 
organize, administer, recruit, instruct, or train the Reserve component 
as their primary duties. Technicians may also maintain aircraft of the 
Armed Forces--regardless of component--as a primary duty. The Air Force 
seeks to expand these primary duties to make flight training more like 
maintenance; so that AGRs and technicians can instruct and train 
students of all components as a primary duty. This would not make the 
Reserve component the source of all training, but rather, would allow 
the active component and Reserve component to more efficiently partner 
together to train all airmen of all components.
    The Air Force is working to eliminate barriers to more 
comprehensive integration of our three components. We currently have 
proposed legislation (OLC-002--V4 (Expansion Of Authorized Primary 
Duties Of Air Force Reserve component full-time support personnel) that 
seeks to expand the primary duties of full-time Reserve component 
support personnel--namely Active Guard Reserve (AGR) members and 
technicians--including instructor pilots. Our proposal to eliminate 
these ``legal sufficiency'' barriers was deferred last year and is 
under review by the Office of Management and Budget for the fiscal year 
2016 Omnibus.

    16. Senator Heinrich. General Holmes, how can this committee help 
Air Force move toward a more efficient, unified, and integrated Total 
Force training model?
    General Holmes. The Air Force is studying 28 human capital related 
initiatives that may require legislation in order to fully implement, 
supporting full integration and returning the greatest efficiencies. As 
an example, we currently have an Air Force only training proposal 
submitted to the Office of Management and Budget that we hope will be 
included in the legislative omnibus. This proposal will allow the Air 
Force to use Reserve Component instructor pilots more efficiently. 
Congressional approval of this initiative is vital to enabling further 
integration at flying training units. Another example of important 
legislative change incudes an amendment allowing the services to 
provide the same benefits for Reserve components (RC) members on 
inactive duty training who die in the line of duty, as RC members on 
active duty who die in the line of duty.

                            helicopter fleet
    17. Senator Heinrich. General Wolters and General Holmes, Kirtland 
Air Force Base in New Mexico is home to the 58th Special Operations 
Wing which trains 22,000 students a year who conduct critical search 
and rescue missions, saving countless lives of men and women every 
year. These brave airmen conduct their training flying 12 HH-60G Pave 
Hawks and 10 Vietnam era Bell UH-1 Iroquois. Can you describe for the 
committee the nature of our aging helicopter fleet and the Air Force's 
current effort to recapitalize and modernize that fleet?
    General Wolters and General Holmes. The Air Force is committed to 
maintaining our HH-60G and UH-1fleets, which have an average age of 
24.4 and 47 years, respectively. The HH-60Gfleet is being recapitalized 
under a program called Operational Loss Replacement (OLR), which adds 
21 Combat Search and Rescue configured aircraft to the fleet by fiscal 
year 2019. Additionally, the Combat Rescue Helicopter program will 
replace the legacy HH-60G fleet with the HH-60W. This program is in 
development and scheduled to achieve full operational capability in 
fiscal year 2029.
    The Air Force will also replace the UH-1N fleet to resolve existing 
capability gaps. The fiscal year 2016 President's budget request funds 
to establish a UH-1N Replacement program office and develop an 
acquisition strategy.

    18. Senator Heinrich. General Wolters and General Holmes, has the 
Air Force conducted a cost-benefit analysis on recapitalization versus 
replacement?
    General Wolters and General Holmes. The Air Force has and will 
conduct a cost-benefit analysis on recapitalization versus replacement 
for the HH-60G and UH-1 fleets, respectively. The Air Force conducted a 
thorough analysis of the cost-benefit trades for various courses of 
action prior to the June 2014 Combat Rescue Helicopter contract award. 
Currently, the Air Force is conducting UH-1 replacement analyses to 
inform cost-benefit decisions and capability trades within the broader 
recap versus replacement discussion.

                                 cv-22
    19. Senator Heinrich. General Wolters and General Holmes, our 
military finds itself engaged in areas involving vast distances in 
Asia, Africa, and the Middle East. Can you please share what is being 
done to ensure the optimal configuration of our combat search and 
rescue fleet between helicopters and CV-22s?
    General Wolters and General Holmes. The Air Force is reviewing a 
combat search and rescue force mix study by the RAND Corporation as 
well as force mix options and concepts of operations developed by Air 
Force Air Combat Command for possible future consideration.

    20. Senator Heinrich. General Wolters and General Holmes, the 
ongoing demands of our special operations forces have severely strained 
the low-density but very high-demand CV-22 fleet. It is my 
understanding that Air Force Special Operations Command (AFSOC) has 
identified a preference for four additional CV-22s to serve as 
attrition Reserve for an already-limited and over-stressed fleet. What 
is being done to provide AFSOC with those highly-necessary attrition 
Reserve airframes?
    General Wolters and General Holmes. While AFSOC has discussed the 
need for attrition reserve in the CV-22 fleet with the Commander, U.S. 
Special Operations Command, there has been no formal request for the 
additional aircraft. If/when this request is made, it will go through 
the normal Air Force vetting process for consideration and fulfillment.

    21. Senator Heinrich. General Holmes, in the event of sequester 
relief, what value would additional CV-22s provide to Air Force Special 
Operations Command?
    General Holmes. Given that the approved program of record of 50 
aircraft satisfies current combat capability requirement, the Air Force 
has no plans to procure additional CV-22s after delivery of the final 
aircraft in December 2016.


 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, APRIL 14, 2015

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.

                           ARMY MODERNIZATION

    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Tom 
Cotton (chairman of the subcommittee) presiding.
    Committee members present: Senators Cotton, Inhofe, Rounds, 
Ernst, Sullivan, Manchin, Donnelly, and Hirono.

            OPENING STATEMENT OF SENATOR TOM COTTON

    Senator Cotton. The hearing will come to order.
    The Airland Subcommittee convenes today to hear testimony 
regarding Army modernization in review of the National Defense 
Authorization Request for Fiscal Year 2016 and the Future Years 
Defense Program.
    On behalf of Senator Manchin and myself, I welcome all the 
witnesses from the U.S. Army and thank each of you for your 
years of dedicated service oftentimes overseas in hostile 
environments.
    The full committee in numerous hearings to date has heard 
from many witnesses testifying to the many challenges and 
threats our country and armed services face today. The United 
States is facing the most diverse, complex, and dangerous 
threats to our national security in recent memory.
    However, instead of strengthening our forces and ensuring 
our men and women in uniform have the training, equipment, and 
logistical support they need, sustained defense budget cuts, in 
combination with senseless sequestration, are damaging our 
military's force structure, modernization, and readiness.
    In testimony before the full committee, Secretary of the 
Army John M. McHugh described that despite volatility and 
instability around the world, America's Army is faced with an 
enemy here at home: the return of modernization. Your Army 
faces a dark and dangerous future unless Congress acts now.
    General Raymond T. Odierno, Chief of Staff of the Army, 
emphasized sequestration would force another 70,000 soldiers 
over the next 5 years from the Active component and another 10 
to 12 additional combat brigades by 2020.
    Does it really makes sense to cut the Army that is 
presently operating in 144 countries around the world with over 
140,000 soldiers deployed to meet all mission requirements? Our 
soldiers, after fighting for over a decade in two separate 
theaters of war, are still very busy, indeed.
    Regardless of our Army's operational tempo and the load our 
soldiers bear, the force must also modernize. It must do so to 
keep the world's preeminent ground force relevant and ready to 
meet the challenges of the 21st century. The Army's Operating 
Concept (AOC), win in a complex world, envisions an Army that 
is expeditionary, tailorable, scalable, and prepared to meet 
the challenges of the global environment. For our soldiers to 
be successful in their missions to shape, deter, and win, they 
need the best equipment and weapons our country and its 
citizens can provide.
    One of my highest responsibilities as a Senator is to 
ensure our military has the resources it needs to protect and 
defend this country. To fulfill that responsibility, Congress 
has the authority to oversee military spending, to ensure the 
Department of Defense (DOD) invests in programs that meets the 
needs of the warfighter, and all at a cost that is affordable 
to the American taxpayer.
    In order to exercise effective oversight on military 
spending, Congress and the military must be able to exchange 
information about which programs are most important to the 
success of our men and women in uniform and which programs are 
not living up to their promises.
    That is why the prospect of continued sequester of the 
Pentagon budget is so damaging to our national security. The 
blunt mechanism of sequestration does not afford lawmakers and 
the Pentagon the ability to drive a budget from a sound 
strategy, but rather imposes strategic decisions across the 
board, many of which damage our military's readiness and long-
term investments.
    But I want to be clear that my opposition to sequester does 
not mean that there is no room for reform or efficiency in the 
military's budget. Ultimately I believe one of the best ways to 
remove the threat of sequester is to identify areas where there 
is obvious room for reform in the system and to encourage 
senior military leaders to justify continued spending in those 
areas.
    Today's hearing will only begin to touch on Army 
modernization. There are several areas that I hope we can begin 
a substantive dialogue with our Army acquisition leaders. Today 
I hope to cover in particular three important Army programs: 
the Joint Light Tactical Vehicle (JLTV), the Distributed Common 
Ground System (DCGS), and the Aviation Restructuring Initiative 
(ARI).
    The JLTV recently completed limited user testing and is now 
with the source selection committee to determine an award of 
one to three vendors: Oshkosh, Lockheed Martin, and AM General. 
This is an important procurement program for the mobility of 
our infantry in modern operational environments. I have 
concerns that the Army's tactical wheeled vehicle strategy 
lacks operational detail about the fielding of JLTV for Active 
and Reserve components.
    In addition, I want to emphasize good acquisition practices 
as the Army moves ahead with this program. because this is a 
large program that will directly impact operations across the 
force, it is important the Army gets the program right. As the 
subcommittee examines programs like JLTV, I am prepared to hold 
future hearings that look at the details of each of the Army's 
acquisition programs to evaluate the risks to success and 
ensure the Army spends taxpayer money wisely.
    Another area this hearing hopes to examine more fully is 
the battlefield intelligence system, known as the DCGS-Army, or 
DCGS-A. The U.S. Army has spent 10 years and more than $3 
billion developing DCGS-A. The purpose of DCGS-A is to collect 
and process information from a variety of military and 
intelligence sources and share that information seamlessly to 
sites around the world. Despite these investments, the failures 
of DCGS-A are well documented. They include a series of testing 
failures, program delays, cost overruns, and negative reports 
from deployed commanders and soldiers. The Army has promised 
that the next version of the software would fix the problems 
with the system, but units continue to report that it does not 
meet their needs in theater or their home stations. Instead of 
leveraging existing technologies, the Army continues with an 
approach to delivering a major software platform. They continue 
to try to build core functions of a DCGS-A system according to 
customer requirements rather than adopting commercial 
components that work today.
    In addition, today we will examine the Army's other 
important priorities for providing the best and most modern 
force: the Apache AH-64, UH-60 modernization, production and 
fielding of the Armored Multi-Purpose Vehicle (AMPV), JLTV, and 
Abrams, Bradley, and Paladin upgrades. In regard to developing 
science and technology initiatives, Army leadership has 
emphasized the importance of key investments, including the 
joint multi-role helicopter, combat vehicle prototyping, 
assured position navigation and timing, and enhanced cyber 
operations and network protection. Integrated into these 
efforts is the Army's aviation restructure initiative. The ARI 
is intended to both retain our best and most capable aircraft 
and to divest our least capable. Its aim is to field a total 
force of 10 fully equipped and modernized Active component 
combat aviation brigades and 12 National Guard Reserve brigades 
by 2019. It will divest a total of 798 aircraft, 687 from the 
regular Army and 111 from the Reserve component. It is 
targeting $12 billion in cost savings but will require a total 
Army effort to be successful.
    Ever-increasing demands of a smaller Army translates into 
increased risk for our operational plans and unforeseen 
contingencies. Army operations in an increasingly unstable 
world are vital to shaping the strategic landscape in favor of 
U.S. interests.
    General Odierno has emphasized the uncertainty of strategic 
security, characterized by an increasing velocity of global 
instability. This means risk to our soldiers, those deployed 
and those on the bench prepared to deploy on short notice. To 
mitigate these risks, our troopers need to be armed and 
equipped with the best equipment that we can provide. This will 
require sustained funding, effective management of acquisition 
programs, fully resourced unit set fielding, and strategic 
vision. Army leaders must ensure unity of effort to ensure our 
modernization programs meet cost, schedule, and performance 
objectives. They must demand these programs produce equipment 
that give our soldiers a decisive edge on tomorrow's 
battlefield, and we must provide our soldiers with improved 
situational awareness, assured communications, sustained 
mobility, better protection, and overmatching fire power. 
Getting these things right will save lives and ensure mission 
success.
    Again, I want to thank all the witnesses for appearing 
today. Thanks for your flexibility in coming back after we had 
to postpone 2 weeks ago because of the budget votes. I look 
forward to hearing your testimony and having our conversation.
    Senator Manchin?

              STATEMENT OF SENATOR JOE MANCHIN III

    Senator Manchin. Thank you, Mr. Chairman, and I also want 
to thank you all for your service and welcome you here today.
    Over the last 14 years, the Army has done everything we 
have asked of them and more. They have performed with selfless 
devotion and courage. The Nation could not be more proud or 
more grateful, and I can assure you the people in West Virginia 
feel the same.
    We owe them much, but most importantly, the Army deserves 
the resources necessary for what they are doing today and for 
what they will be asked to do again tomorrow. Regrettably, if 
caps under the Budget Control Act (BCA) or sequestration are 
allowed to stand, we may struggle to meet these obligations.
    The arbitrary drop in defense funding over the last 3 years 
has already hurt Army readiness and modernization, indeed, has 
undermined the welfare of soldiers and their families and 
eroded their trust that we will keep our promises that they 
will be well trained, well equipped, and well served.
    The fiscal year 2016 request proposes further reductions to 
the end strength of the Army. If approved, at the end of fiscal 
year 2016, active Army end strength will be down to 475,000 
soldiers and combat brigades to 30. Our National Guard will 
drop to 342,000, and Army Reserve to 198,000. We are interested 
to learn how the Army's request this year would manage 
reductions and still continue to build the strategic depth 
necessary to respond to unforeseen contingencies.
    I read with interest the speech last week by Deputy 
Secretary of Defense Robert O. Work at the Army War College in 
Pennsylvania. He spoke in concrete terms about operating 
environment and technologies needed to retain our land force's 
edge into the future. We would be interested to hear our 
witnesses' views on Secretary Work's vision relative to the 
Army's recently released Army Operating Concept: Winning in a 
Complex World. What are the Army's most important capabilities, 
capacities, and readiness issues and how does this request 
address them to meet the missions of today and tomorrow? How 
will BCA caps impact the Army's management of these changes and 
the associated strategic risk in readiness to meet urgent 
contingencies?
    Over the last several years, DOD and the Army have made 
tough choices in its major modernization programs due to the 
high cost and performance shortfalls in new technologies and 
the realities of declining resources. For the most part, the 
process of making these choices has resulted in an arguably 
more reliable, technically achievable, and affordable 
modernization program. However, this is not apparent for the 
tactical network. Chronic performance of reliability problems 
have plagued every aspect of the network's development. The 
Army has over time lowered network performance requirements, 
lowering the bar, if you will, for program of record 
technologies. Evidence from operational testing and feedback 
from field units raises legitimate questions that a truly 
mobile, ad hoc technical network is technologically achievable. 
The requirement for an air-ground tactical communications 
network is indisputable but can the current state-of-the-art 
achieve it?
    The fiscal year 2016 request includes a modest increase 
over last year for research, development, and acquisition 
emphasizing aviation and science and technology programs while 
deferring for several years any large investment for a next 
generation combat vehicle or replacement for the OH-58D Kiowa 
Warrior armed scout helicopter. Under the circumstances, this 
appears to be a prudent approach, but we need to know what 
risks we may face tomorrow if we are not investing today in the 
next generation technologies that our next generation soldiers 
will need and deserve.
    Mr. Chairman, it is apparent that a smaller Army only 
partially ready and with a dwindling technology edge cannot 
meet the current defense strategy of this country. We need an 
Army that is large enough, well trained enough, well led, 
ready, rapidly deployable, and technologically dominant to 
respond to the crises we will likely face in the foreseeable 
future.
    So I look forward to this hearing and how the Army will 
handle strategic risk in this fiscal environment and what the 
impact of threatened BCA caps could be on the Army's readiness 
and modernization and perhaps even more importantly on the 
welfare of our soldiers, civilians, and their families.
    I also am very much concerned about how do we handle this 
as far as new procurement of equipment that is going to be 
needed in the field, how we can get a fast track on that, if 
you will, how our efficiencies will work for all of our 
benefit. These are things I have been very interested in.
    But I want to thank you all again, and I look forward to 
your testimony.
    Mr. Chairman?
    Senator Cotton. Generals, we have your written testimony. 
General Williamson, do you care to add anything?

 STATEMENT OF LTG MICHAEL E. WILLIAMSON, USA, MILITARY DEPUTY 
 AND DIRECTOR, ARMY ACQUISITION CORPS, OFFICE OF THE ASSISTANT 
 SECRETARY OF THE ARMY, ACQUISITION, LOGISTICS, AND TECHNOLOGY

    General Williamson. So, sir, I think you have covered the 
challenges that we have.
    I think the only thing that I would offer is that we have 
taken a very balanced approach to our modernization strategy. 
We have looked at that in terms of really five categories.
    So the first is the preservation of the science and 
technology investment. So we view that as the seed corn, and 
without that investment, we are not going to be able to take 
advantage of the new technologies when resources become 
available.
    The second would be procuring new items where needed, and 
so as we have identified existing gaps in capabilities, we are 
going to use our limited modernization funds to address filling 
those gaps.
    The third part of that would be tied to improving our 
existing systems where we find, because of obsolescence, 
because of gaps in the capability, that if we make an 
improvement to an existing system, it extends the life or 
provides more capability than what we have today.
    There are two other aspects that people do not normally 
think about as we talk about modernization. The first is the 
reset of the existing equipment. So as equipment is coming back 
from theater, we have to bring that back up to standard in 
order to support near-term contingency missions.
    Then finally, it is the notion of divestiture. So in order 
to free up space in our modernization strategy and in order to 
address the continuing costs, we have to divest ourselves of 
legacy systems that are no longer in use by our force. It 
reduces our operational and sustainment costs.
    Sir, as was mentioned, there are a number of challenges 
that are there. What we are trying to do as an Army, in light 
of the AOC, as you have mentioned in your statement, is how do 
we now adjust our procurement in order to support the goals of 
the Army.
    Sir, I stand by, prepared to answer any of your questions.
    [The joint prepared statement of General Williamson, 
General McMaster, General Ierardi, and General Cheek follows:]
Joint Prepared Statement by LTG Michael E. Williamson, USA; LTG Herbert 
  R. McMaster, Jr., USA; LTG Anthony R. Ierardi, USA; and MG Gary H. 
                               Cheek, USA
                              introduction
    Chairman Cotton, Senator Manchin, distinguished members of the 
Subcommittee on Airland, thank you for the opportunity to discuss the 
Army's fiscal year 2016 budget request as it pertains to Army strategy, 
readiness, and equipment modernization.
    The Army must remain prepared to protect the Homeland, foster 
security globally, project power, and win wars now and in the future. 
To protect the homeland, the Army deters and defeats attacks and 
mitigates the effects of attacks and natural disasters. To foster 
security, the Army engages regionally and prepares to respond globally 
to compel enemies and adversaries. To project power and win decisively, 
the Army, as the Nation's principal land force, organizes, trains, and 
equips forces for prompt and sustained combat on land. American 
military power is joint power. The Army both depends on and supports 
air and naval forces across the land, air, maritime, space, and 
cyberspace domains. The Army depends on the other Services for 
strategic and operational mobility, fires, close air support, and other 
capabilities. The Army supports other Services, combatant commands, 
multinational forces, and interorganizational partners with 
foundational capabilities such as communications, intelligence, rotary 
wing aviation, missile defense, logistics, and engineering.
    Army forces are uniquely suited to shape security environments 
through forward presence, regionally aligned forces, and sustained 
engagement with allied and partner land forces. Army forces defeat 
enemy land forces and seize, hold, and defend land areas. Army forces 
are prepared to do more than fight and defeat enemies; they must also 
possess the capability to translate military objectives into enduring 
political outcomes. Army forces, operating as part of joint, 
interorganizational, and multinational teams, provide the President, 
Secretary of Defense, and combatant commanders with multiple options to 
prevent conflict, shape security environments, and win wars. Army 
forces must have the capability (ability to achieve a desired effect 
under specified standards and conditions) and capacity (capability with 
sufficient scale and endurance) to accomplish assigned missions while 
confronting increasingly dangerous threats in complex operational 
environments.
    The combination of expanding threats to national and international 
security, reductions in the size of the Army, decreasing investment in 
Army modernization, and fiscal uncertainty have increased risk to 
missions and committed forces. We recognize that, in our democracy, we 
get the Army that the American people are willing to pay for. It is our 
job to do the best we can with the resources provided. We will give you 
our best assessment of the risks and opportunities associated with the 
resources Congress provides that allow Army leaders to man, train, and 
equip our Army.
    On behalf of our Secretary, the Honorable John McHugh, and our 
Chief of Staff, General Ray Odierno, we look forward to discussing with 
you the Army's fiscal year 2016 budget request as it pertains to Army 
strategy, readiness, and equipment modernization.
    Threats, enemies, and adversaries are becoming increasingly capable 
and elusive. State and nonstate actors employ traditional, 
unconventional, and hybrid strategies that threaten U.S. security and 
vital interests. The emergence of the Islamic State of Iraq and the 
Levant (ISIL) is an example of how nonstate actors seize upon 
opportunities created by communal conflict and weak governance. ISIL's 
military organization; ideological base; willingness to use murder and 
other forms of brutality against innocents; and ability to mobilize 
people, money, and weapons have enabled it to seize territory and 
establish control of populations and resources. The wider problem is 
ISIL's success, combined with weaknesses of Middle Eastern governments, 
has caused violent extremism and terrorism to metastasize across much 
of the Middle East and North Africa.
    The Democratic People's Republic of Korea (DPRK) is expanding its 
nuclear arsenal and improving its ballistic missile force to complement 
an aging but still large and capable conventional force. The DPRK's 
military possesses cyber and chemical-biological warfare capabilities. 
Key government facilities, military installations, and weapons are 
located in underground shelters. Because economic, social, and 
political pressures on the DPRK leadership could lead to war or a 
collapse of the regime, the United States prepares for the deployment 
of substantial ground, air, and maritime forces to operate as part of a 
coalition alongside Republic of Korea (South Korea) forces and in 
defense of South Korea.
    Iran, as it reacts to expanding sectarian conflicts in the greater 
Middle East, poses a continued threat to U.S. interests and allies in 
the region. As it diversifies its activity in the region and seeks to 
enhance its influence while supplanting U.S. power, Iran uses 
combinations of economic and diplomatic overtures with irregular 
forces. Iran avoids direct military confrontations while developing 
advanced capabilities and pursuing comprehensive military 
modernization. Iran's modernization efforts include the use of 
automated systems on land, sea, and air; ballistic missiles; and the 
development of nuclear enrichment capability.
    Russian annexation of the Crimean Peninsula and use of conventional 
and unconventional land forces in Ukraine indicate that Russia is 
willing to use force to achieve its goals. Russia deployed and 
integrated a range of diplomatic, information, military, and economic 
means to conduct what some analysts have described as ``non-linear'' or 
hybrid operations. In addition, Russia used cyberspace capabilities and 
social media to influence perceptions at home and abroad. Due to the 
nature of the conflicts Russia has chosen, it has demonstrated the 
centrality of land forces in its effort to assert power and advance its 
interests in former Soviet states. Without a viable land force capable 
of opposing the Russian army and its irregular proxies, such 
adventurism is more challenging to deter. Russia's actions highlight 
the value of land forces to deter conflict as well as special 
operations and conventional force capability to project national power 
and exert influence in political contests.
    Chinese doctrinal writings and professional military education 
teaching materials suggest that the PRC may be considering training and 
equipping the People's Liberation Army (PLA) for a range of military 
operations. The PLA has opened six combat training centers where it 
emphasizes combined arms operations and joint training. Chinese actions 
and force modernization efforts highlight the need for Army forces to 
be positioned forward in the region to strengthen alliance and partner 
relationships, deter adversaries, and ultimately prevent conflict. 
Emerging Chinese military capabilities also highlight the need for Army 
forces to be able to project power from land into the air, maritime, 
space, and cyberspace domains.
    Our Army must balance manpower, readiness, and modernization not 
only to cope with increased capabilities of enemies and adversaries, 
but also to prevail in increasingly complex operational environments. 
That complexity is due, in part, to increased momentum of human 
interaction, threats that emanate from dense and weakly governed urban 
areas, the availability of lethal weapon systems, and the proliferation 
of Chemical, Biological, Radiological, Nuclear and High-Yield Explosive 
threats. Determined and capable enemies in complex environments will 
challenge U.S. competitive advantages not only on land, but also in the 
air, maritime, space, and cyberspace domains. Advanced technologies 
transfer readily to state and nonstate actors. Enemies possess the 
capability to threaten the U.S. homeland and project power from land 
into all other domains. Because these threats may originate in urban 
areas or remote safe havens, long-range strikes will prove insufficient 
to defeat them. The complexity of future armed conflict, therefore, 
will require Army forces capable of conducting missions in the homeland 
or in foreign lands including defense support to civil authorities, 
international disaster relief and humanitarian assistance, security 
cooperation activities, crisis response, or large-scale operations. 
Trends in threats, the operating environment, and technology highlight 
the enduring need for ready Army forces operating as part of joint, 
interorganizational, and multinational teams to prevent conflict, shape 
security environments, and win in a complex world.
    The size of the Active and Reserve component of our Army matters. 
At the time of the mass murder attacks on our Nation on September 11, 
2001, our active Army strength was 480,801, the National Guard was 
351,829, and the Army Reserve was 205,628 for a total Army strength of 
1,038,258. Due to the strain on the force associated with sustained 
operations in Afghanistan and Iraq as well as other worldwide 
commitments, Congress authorized expansion of the Army by 95,073 by 
2010 to 566,045 Active Duty soldiers, 362,015 National Guardsmen, and 
205,281 Army reservists for a total of 1,133,341. Despite that 
increase, our Army was stressed to sustain a per month commitment of 
117,000 active duty soldiers and 170,000 total Army commitment to these 
missions between 2003 and 2011. That is because the Army must also 
sustain other commitments overseas, remain prepared for unforeseen 
contingencies, and sustain an institutional Army capable of manning, 
training, and equipping the force. Currently, in an active force of 
498,400 soldiers, the Army has 40,860 soldiers committed to various 
missions in U.S. Central Command, U.S. European Command, U.S. Africa 
Command, U.S. Southern Command, and U.S. Pacific Command, and an 
additional 83,610 soldiers forward stationed and committed in areas 
vital to deterring conflict. Based on increased risks to national 
security and the significant decrease in size of our Army to the 
smallest Active Force since the post World War I period, we do all we 
can in the areas of readiness and modernization to ensure that our 
smaller Army maintains our differential advantage over current and 
future enemies. In short, a smaller Army must be a more capable Army.
    The U.S. Army Operating Concept (AOC): Win in a Complex World, 
describes how future Army forces operate to accomplish campaign 
objectives and protect U.S. national interests. It describes the Army's 
contribution to globally integrated operations in support of the 
Capstone Concept for Joint Operations. The AOC recognizes the need for 
Army forces to provide foundational capabilities required by the Joint 
Force and to project power onto land, and from land, across the air, 
maritime, space, and cyberspace domains. The AOC is grounded in a 
vision of future armed conflict that considers national defense 
strategy; missions; emerging operational environments; advances in 
technology; and anticipated enemy, threat, and adversary capabilities. 
Ultimately, the AOC guides future force development through the 
identification of first order capabilities that the Army must possess 
to accomplish missions in support of policy goals and objectives.
    A key tenet of future joint combined arms operations is innovation, 
which is the result of critical and creative thinking and the 
conversion of new ideas into valued outcomes. Innovation drives the 
development of new tools or methods that permit Army forces to 
anticipate future demands, stay ahead of determined enemies, and 
accomplish the mission. Innovation is particularly important in 
organizations that develop capabilities as well as those that train, 
equip, and sustain forces.
    We are committed to keeping Combat Training Centers (CTC) a 
priority. The CTC program is addressing life cycle technology 
refreshment of the Maneuver CTCs' (National Training Center, Joint 
Readiness Training Center, and the Joint Multi-National Readiness 
Center) Instrumentation and Training Aids, Devices, Simulators, and 
Simulations (ITADSS) in support of Unified Land Operations executed 
through Decisive Action (Wide Area Security/Combined Arms Maneuver 
against a hybrid threat). The ITADSS enables production of doctrinally-
based feedback, facilitating leader development and unit collective 
training in support of building Brigade Combat Team (BCT) readiness 
through trained and ready combat units, leaders, and soldiers prepared 
for Decisive Action Operations. The CTC program is addressing 
technology obsolescence at its Maneuver CTCs by refreshing its 
instrumentation data and Observer/Controller Communications System 
infrastructure that has not been updated since the early 2000s. The 
network infrastructure in place predominately supports Forward 
Operating Base operations and Mission Rehearsal Exercises conducted 
from 2001 to the recent transition to Decisive Action Operations 
training. The instrumentation upgrades will not only prevent network 
outages currently being experienced, but also allow for the transition 
back to combined arms maneuver and wide area security. Sequestration 
will force the Army to make difficult choices with regard to 
modernization and we should expect this to impact our CTC modernization 
as well. While the Army plans to preserve all CTC rotations, 
sequestration will result in units arriving at lower levels of 
readiness and CTC instrumentation obsolescence will degrade capturing 
unit performance during key events. Both will contribute to lower unit 
readiness levels at the completion of rotations.
    With the Army's budget at a historic low, we risk becoming a 
smaller, less-capable force. Decreases to the Army's overall budget 
over the last several years have had a significant impact on 
modernization and threaten our ability to retain overmatch (overmatch 
is the application of capabilities or use of tactics in such a way that 
renders an adversary unable to respond effectively) through the next 
decade. From fiscal year 2012 to fiscal year 2016, Research, 
Development, and Acquisition (RDA) investments declined roughly 28 
percent. In fiscal year 2012, the Army's RDA budget was $32 billion. In 
fiscal year 2016, the RDA budget request is $23 billion. The proposed 
increase of $2.6 billion for procurement, over the fiscal year 2015 
budget request, is vitally important to ensure that our soldiers retain 
overmatch over current and future enemies and our Nation retains 
critical parts of our industrial base.
    Because of reductions both in manpower and modernization, our 
soldiers are likely to engage in fights in which they lack significant, 
qualitative advantages against numerically superior enemies. Should the 
uncertainty of the Budget Control Act lead to another round of defense 
sequestration, the Army would suffer a blow to combat effectiveness 
from which it would be difficult to recover. Soldiers and units would 
be disadvantaged in the near-term through delays in equipping and 
weapons modernization. Long-term effects would include lost investments 
in cancelled programs, higher unit costs, and increased sustainment 
costs for obsolete equipment.
    To reduce that risk, our Army must prioritize those capabilities 
that permit us to maintain overmatch. The Army will: (1) protect S&T 
investments in key technologies that will enable next-generation 
capabilities when resources become available; (2) selectively invest in 
new capabilities for priority areas; (3) incrementally upgrade existing 
platforms; (4) reset equipment returning from current contingency 
operations; and (5) divest select platforms to reduce operations and 
sustainment costs. This prioritization will permit the Army to enable 
mission command, conduct joint combined arms maneuver, and, most 
importantly, optimize soldier and team performance.
    The Army emphasizes the integration of advanced technologies with 
skilled soldiers and well-trained teams. We will have to invest in non-
developmental and developmental capabilities. Non-developmental 
capabilities will integrate commercial technologies that do not require 
significant Army Science and Technology (S&T) or Research and 
Development (R&D), such as information technology, in order to save 
time and money. Our Army will prioritize developmental capabilities in 
areas where we must maintain a differential advantage such as combat 
vehicle technology; lethality; rotary aviation; watercraft; and 
Intelligence, Surveillance, and Reconnaissance (ISR). To sustain 
overmatch in these areas, we must reward our industrial base for 
reducing costs and increasing quantity during national emergencies 
while retaining the ability to affordably produce smaller quantities 
between major conflicts. The Army must take advantage of existing 
technologies, while investing in research to sustain technological 
advantages and the overmatch that comes from combinations of skilled 
soldiers and well-trained teams with that technology.
    The Army must also prioritize modernization efforts. Force 2025 and 
Beyond is the Army's comprehensive effort for changing the Army and 
improving land power capabilities for the Joint Force. Force 2025 and 
Beyond efforts produce recommendations that help Army leaders direct 
modernization and force development. Force 2025 Maneuvers are the 
physical (experimentation, evaluations, exercises, modeling, 
simulations, and wargames) and intellectual (studies, analysis, 
concept, and capabilities development) activities that help leaders 
integrate future capabilities and develop interim solutions. The Army 
Warfighting Assessment (AWA) is the cornerstone event of Force 2025 
Maneuvers. During an AWA, at Fort Bliss, TX, the Army evaluates 
doctrine, organization, training, material, leadership and education, 
personnel and facilities (DOTMPF) solutions. Driven by operational 
scenarios, the AWA provides a joint and multi-national venue to adapt, 
evolve, and innovate.
                          equipment objectives
Enhance the Soldier for Broad Joint Mission Support.
    The centerpiece of Army modernization continues to be the soldier 
and the squad. The Army's objective is to facilitate incremental 
improvements by rapidly integrating technologies and applications that 
empower, protect, and unburden the soldier and our formations. This 
provides the soldier and our formations with the mobility, protection, 
situational awareness, and lethality to accomplish assigned missions. 
The fiscal year 2016 budget supports this priority by investing in 
technologies that provide the soldier and squad with advanced 
warfighting capabilities. We are pursuing enhanced weapons effects, 
next generation optics, night vision devices, advanced body armor and 
individual protection equipment, unmanned aerial systems, ground based 
robots, and soldier power systems.
Enable Mission Command.
    Joint combined arms operations will be enabled by a network that 
meets the commander's requirements to understand, visualize, describe, 
direct, lead, and assess from homestation, enroute, and from agile and 
expeditionary command posts in deployed locations. The network achieves 
uninterrupted mission command through intuitive, secure, and standards-
based capabilities adapted to the commander's requirements and 
integrated into a common operating environment. Network capabilities 
are assured, interoperable, tailorable, collaborative, identity-based 
and accessible at the point of need in operations that include unified 
action partners. This will enable globally responsive joint combined 
arms teams to conduct expeditionary maneuver across domains and 
locations. The fiscal year 2016 budget request supports this priority 
by resourcing essential mission command, software applications for the 
Common Operating Environment, operations/intelligence network 
convergence efforts, and platform integration of network components in 
support of Operational Capability Sets in expeditionary tactical 
command posts.
Remain Prepared for Joint Combined Arms Maneuver.
    The Army's objective is to facilitate fleet capabilities to 
increase lethality and mobility while optimizing survivability by 
managing the full suite of capabilities to enable the most stressing 
joint warfights. The fiscal year 2016 budget request continues to 
support the Armored Multi-Purpose Vehicle, Paladin Integrated 
Management program, Joint Light Tactical Vehicle, and critical Aviation 
programs.
                           budget priorities
    The Army has identified critical programs that provide overmatch 
capabilities at the tactical and operational levels of combat 
operations. These critical programs are discussed below:

        <bullet> Family of Networked Tactical Radios is the Army's 
        future deployable mobile communications family of radio 
        systems. It provides advanced joint tactical end-to-end 
        networking data and voice communications to dismounted troops, 
        ground, and aircraft platforms. Fiscal year 2016 funding 
        supports the operational test assets for 240 Manpack radios, 
        and the continued ramp up of production for 300 Rifleman Radio 
        Secret and below. Fiscal year 2016 funding also supports the 
        remaining portion of Project Management Administration costs, 
        supports the purchase of generic ancillary components for 
        continued platform integration efforts, and sustainment as the 
        program readies for fielding Capability Sets 17 and 18.
        <bullet> Joint Battle Command-Platform (JBC-P) is the next 
        generation of Force XXI Battle Command Brigade and Below/Blue 
        Force Tracking and is the foundation for achieving affordable 
        information interoperability and superiority on current and 
        future battlefields. JBC-P is the principal command and 
        control/situational awareness system for the Army and Marine 
        Corps at the brigade level and below. Fiscal year 2016 funding 
        supports the procurement of 2,988 vehicle platform computer 
        systems, 300 command post systems, satellite receivers, 
        encryption devices, ancillary equipment, program management 
        support, training, fielding, publications, support equipment, 
        and post deployment software support.
        <bullet> Warfighter Information Network-Tactical (WIN-T) 
        provides broadband communications for the tactical Army. It 
        extends an Internet Protocol based satellite and line-of-sight 
        communications network throughout the tactical force supporting 
        voice, data, and video. Fiscal year 2016 funding supports 
        upgrade of 31 WIN-T Increment 1 units to enhance 
        interoperability with units fielded with WIN-T Increment 2, 
        procurement of 248 communications nodes for WIN-T Increment 2, 
        and continues fielding and support for previously procured WIN-
        T Increment 2 Low Rate Initial Production (LRIP) equipment.
        <bullet> Distributed Common Ground System-Army (DCGS-A) 
        provides integrated ISR Processing, Exploitation and 
        Dissemination of airborne and ground sensor platforms providing 
        commanders, at all levels, access to the Defense Intelligence 
        Information Enterprise and leverages the entire national, 
        joint, tactical, and coalition ISR community. Fiscal year 2016 
        funding will correct issues identified during the May 2015 
        Limited User Test and support the Increment 2 Request for 
        Proposal and milestone decisions. This includes efforts to 
        begin Increment 2 development, modernize and procure commercial 
        off-the-shelf software and hardware components for DCGS-A 
        (fixed, mobile, and data centers), integrate hardware and 
        software, and equip and train next deployers and high priority 
        units.
        <bullet> Nett Warrior is a dismounted soldier worn mission 
        command system that provides unprecedented command, control, 
        and situational awareness capabilities supporting the 
        dismounted combat leader. The design incorporates operational 
        unit mission needs and leverages operational lessons learned, 
        while maintaining power requirements in austere environments. 
        Fiscal year 2016 funding supports fielding an additional 3,016 
        units.
        <bullet> Armored Multi-Purpose Vehicle (AMPV) replaces the 
        obsolete M113 family of vehicles within the Armored Brigade 
        Combat Teams and provides required protection, mobility, and 
        networking capability for the Army's critical enablers 
        including mortars, medical evacuation, medical treatment, 
        general purpose, and mission command vehicles. Fiscal year 2016 
        funding supports entry into the Engineering and Manufacturing 
        Development (EMD) phase to integrate the Mission Equipment 
        Package and technologies in development in Army programs and 
        produce prototypes for use in testing.
        <bullet> Patriot is a high-demand/low-density program, 
        currently deployed in multiple theaters supporting operational 
        and strategic requirements. Patriot provides the capability to 
        defeat Air and Missile threats while protecting Combatant 
        Commands' critical assets, including soldiers, sailors, airmen, 
        and marines. Fiscal year 2016 funding supports procurement of 
        80 Missile Segment Enhancement missiles to increase Patriot's 
        capability against the current threat, as well as evolving 
        threats.
        <bullet> M109A7 Paladin Integrated Management (PIM) replaces 
        the current M109A6 Paladin and M992A2 Field Artillery 
        Ammunition Supply Vehicle with a more robust platform 
        incorporating Bradley common drive train and suspension 
        components in a newly designed hull. Fiscal year 2016 funding 
        supports the final EMD testing and LRIP of 30 PIM vehicle sets.
        <bullet> Joint Light Tactical Vehicles (JLTV), a Joint program 
        with the U.S. Marine Corps, is the centerpiece of the Army's 
        Tactical Wheeled Vehicle modernization strategy replacing 
        49,099 of the light wheeled vehicle fleet by 2041. This multi-
        mission vehicle will provide protected, sustained, and 
        networked mobility for personnel and payloads across the full 
        range of military operations. Fiscal year 2016 funding will 
        support a LRIP decision in July 2015. A single vendor will be 
        selected to produce vehicles that provide the most capabilities 
        at a $250,000 or less average unit manufacturing cost.
        <bullet> Maneuver Support Vessel-Light (MSV-L) represents a 
        modernization of current Army watercraft capabilities provided 
        by the aging Vietnam war era landing craft. The MSV-L adds new 
        capabilities intended to meet the Army's future tactical and 
        operational movement and maneuver requirements. The MSV-L is 
        intended to access austere entry points, degraded ports, and 
        bare beaches without dependency on support ashore, in support 
        of land maneuver support and/or maneuver sustainment 
        operations. Fiscal year 2016 funding supports extending the 
        service life of the Landing Craft Utility (LCU-2000), as well 
        as to begin early plans to extend the service life of the 
        Modular Warping Tug and Causeway Ferry until new procurement.
        <bullet> AH-64 Apache is the Army's world-class heavy attack 
        helicopter for the current and future force, assigned to Attack 
        Helicopter Battalions and Armed Reconnaissance Squadrons. The 
        AH-64E provides the capability to conduct simultaneously close 
        combat, mobile strike, armed reconnaissance, security, and 
        vertical maneuver missions across the full spectrum of warfare, 
        can operate in day, night, obscured battlefield, or adverse 
        weather conditions. Fiscal year 2016 funding supports 
        procurement of 64 remanufactured AH-64E aircraft and associated 
        modifications to the AH-64D fleet.
        <bullet> UH-60 Black Hawk is the world's premier utility 
        aircraft and the Army's largest helicopter fleet. The Black 
        Hawk is vital in supporting lift and medical evacuation 
        missions in the current and future force operational plans. It 
        is critical to the homeland defense mission and a key component 
        of the Army National Guard's forest fire, tornado, hurricane, 
        and earthquake relief missions. Fiscal year 2016 funding 
        supports procurement of 70 UH-60M and 24 HH-60M, purchases 
        mission equipment packages, and upgrades the UH-60V, which will 
        help to reduce life cycle costs while digitizing the last 
        analog aircraft in the operational fleet.
                       other aviation priorities
    The Army will continue to incrementally modernize the existing 
fleet while investing in the next generation of rotary wing 
capabilities. These aviation programs and efforts are discussed below:

        <bullet> CH-47 Chinook will provide the Army's heavy lift 
        capability through 2060, making it the Army's first 100 year 
        aircraft. Fiscal year 2016 funding supports procurement of a 
        base quantity of 27 remanufactured aircraft and 12 new build 
        aircraft, along with associated modifications to the CH-47 
        fleet. The CH-47 Block II is the first increment of a potential 
        multi-block strategy designed to insert incremental technology 
        upgrades into the Chinook fleet and to maintain the platform's 
        relevance and affordability over time while meeting warfighter 
        requirements. The CH-47 Block II upgrade seeks to buy-back 
        performance that eroded over time due to the addition of 
        mission equipment packages since system fielding in 2007.
        <bullet> Improved Turbine Engine Program (ITEP) will be a new 
        3,000 Shaft Horse Power (SHP) turbo shaft engine that will 
        replace the T700 family of engines for the UH-60 Black Hawk and 
        AH-64 Apache fleets, which comprise 75 percent of the total 
        Army helicopter fleet. As increasing demands continue to add 
        weight to the aircraft, the T700, originated in the 1970s as a 
        1600 SHP engine, no longer retains the significant power growth 
        potential necessary to meet the required capabilities. ITEP 
        provides significantly increased operational capability, fuel 
        efficiency, range, and payload to meet Army mission 
        requirements.
        <bullet> Joint Multi-Role (JMR) Technical Demonstrator (TD) is 
        intended to investigate and demonstrate selected vertical lift 
        aircraft design and performance technologies. JMR is an Army 
        S&T program to develop, expand, and demonstrate new 
        capabilities in vertical lift technology and aircraft 
        capabilities.
        <bullet> Future Vertical Lift (FVL) is an Army lead joint 
        procurement effort to set joint requirements, develop, and 
        procure the next generation of vertical lift aircraft that will 
        replace the current Department of Defense vertical lift fleet. 
        The focus of FVL is based on three major tenets: (1) improve 
        the performance; (2) improve the survivability; and (3) 
        significantly reduce the operating cost. The FVL Family of 
        Systems capability desires 90 percent common components/parts 
        to reduce overhead and logistical footprint, as well as enable 
        mission flexibility.
        <bullet> Future Utility Aircraft (FUA) will enable the Army to 
        replace worn out or retired Operational Support Airlift (OSA) 
        aircraft with a more technologically advanced aircraft better 
        suited to support the needs of commanders in current and future 
        operations. FUA will reduce the amount of resources required to 
        train pilots and sustain the aircraft. The Fixed Wing Utility 
        Aircraft will be a commercial off-the-shelf solution that will 
        be Instrument Flight Rules capable and equipped with Civil and 
        Military Communications, Navigation, Surveillance, and 
        Survivability Systems that enable the aircraft to operate in 
        civil and military environments throughout the world.
                    aviation restructure initiative
    The Army introduced the Aviation Restructure Initiative (ARI) last 
year because we simply cannot afford to maintain our aviation structure 
and sustain modernization while providing trained and ready aviation 
units across all three components. The Army will simplify sustainment 
for fewer systems, reduce pilot training course loads over time, and 
facilitate retirement of old aircraft the Army cannot afford to 
replace. ARI requires cross-leveling and divestiture of aircraft among 
all components--Active, Guard, and Reserve. Fully implemented, the 
Active and Reserve aviation force mix will generate better and more 
capable formations which are able to respond to contingencies at home 
and abroad. The Army estimates ARI will save about $12 billion in 
procurement and $1 billion per year in operations and sustainment 
costs. The initiative is not an ideal situation, but with reduced 
resources, the Army must make difficult decisions to ensure meet 
combatant commander requirements.
    The ARI divests the OH-58D Kiowa Warrior (KW) fleet and cancels the 
OH-58D upgrade and fleet replenishment programs, enabling re-purposing 
of funding to support other Army priorities. The Army terminated the 
OH-58D KW upgrade program and the OH-58D KW Wartime Replacement 
Aircraft (WRA) efforts in March 2014. In early April 2014, the Army 
issued an execution order (EXORD) directing PEO Aviation to begin 
planning for the divestment of the OH-58D KW fleet over fiscal years 
2014-2017. In accordance with the EXORD, the Army divested 81 KWs from 
units in 2014 including aircraft from the 6th Squadron, 17th Cavalry 
Regiment in Fort Wainwright, AK, the U.S. Army Aviation Center of 
Excellence, Fort Rucker, AL, prototype aircraft from Redstone Arsenal, 
AL, and aircraft returning from combat deployment. The majority of 
aircraft have entered 309th Aerospace Maintenance and Regeneration 
Group (AMARG), Davis-Monthan AFB, in Tucson, AZ (AMARG) for storage. A 
small group of aircraft deemed uneconomically repairable were inducted 
for parts-harvest into either the Regional Aviation Sustainment 
Maintenance West, Fort Hood, TX or the Corpus Christi Army Depot, TX. 
The entire divestment mission will be conducted over a 4-year period. 
The majority of remaining KW divestment is planned for fiscal year 
2015-2016, with the final unit scheduled to stand down in fiscal year 
2017. The Army has divested 27 KWs from one unit, 2nd Squadron, 6th 
Cavalry Regiment, Wheeler Army Airfield, HI, so far in 2015. The Army 
will also divest aircraft from six additional units this calendar year. 
Sixty aircraft will require divestment from units in calendar years 
2016-2017. In total, the Army will divest 340 OH-58D aircraft.
                other major programs in fiscal year 2016
    The Army has carefully prioritized our efforts to ensure we 
maximize every dollar toward putting the best equipment in the hands of 
our soldiers. The Army will continue S&T investment in combat vehicle 
technologies, ITEP, and JMR-TD to inform FVL efforts. We will also 
focus our modernization efforts on procurement of AMPV and incremental 
upgrades to the Abrams, Bradley, and Stryker families of vehicles.
    Last year, the Army was forced to make a difficult choice between 
continuing the development of the Ground Combat Vehicle (GCV) program 
or addressing near-term readiness with modest improvements to the 
current Bradley Infantry Fighting Vehicle (IFV). Faced with fiscal 
constraints and competing budget priorities, the Army concluded the GCV 
program in June 2014, at the completion of the Technology Development 
phase. Developing a new IFV remains a requirement, however, and until 
resources become available, the Army is focused on refining concepts, 
requirements, and key technologies in support of a future IFV 
modernization program. The Army is investing in S&T to refine concepts 
and mature technologies to inform future combat vehicle requirements 
and reduce technology integration risk. The effort will support future 
IFV while maximizing opportunities to transition these technologies to 
current and future combat vehicles. This effort will focus on maturing 
and demonstrating key, leap-ahead technologies related to vehicle 
survivability, enhanced mobility, and lethality. Specifically, the 
Army's Future Fighting Vehicle effort is currently conducting vehicle 
studies based on trades to GCV operational requirements to explore 
platform reductions to size, weight, and power versus performance. This 
effort ensures that potential new IFV designs take advantage of 
maturing technologies, and keeps industry design and research teams 
aligned with ongoing Army combat vehicle efforts.
    The Army also maintains a valid requirement for the development of 
an Armed Aerial Scout (AAS), but currently lacks the fiscal resources 
to pursue a new procurement program. Apaches teamed with Unmanned 
Aerial Systems (UAS) will provide the AAS capability under current Army 
plans.
    The Army is continuing the development of The Joint Air to Ground 
Missile (JAGM) which increases the lethality of the Army's attack 
aircraft by increasing the performance of our aircraft-launched 
precision munitions in degraded environments and against advanced 
threats. Investments in the Army's current air to ground missile, 
Hellfire, continue during JAGM development to ensure sufficient 
stockpiles are maintained and customers from outside the Army (other 
Services and allied nations) can continue to have access to the best 
and newest missiles currently available.
    The Army continues to invest in the MQ-1C Gray Eagle UAS with JAGM 
integration, increased survivability efforts, and achieving acceptance 
into the national airspace. In fiscal year 2016, the Army added another 
company to U.S. Army Intelligence and Security Command (INSCOM) 
formations thereby increasing globally allocable ISR capabilities. The 
program continues to field to Army Divisions, U.S. Special Operations 
Command, and INSCOM with completion scheduled for fiscal year 2018.
    Network dominance and defense is an integral part of our national 
security. The Army is focused on proactively providing increased 
capabilities to the Joint Force. The evolving Cyber environment is 
forcing the Army to adapt to cyber threats by transforming processes, 
organizations, and operating practices to mitigate vulnerabilities. In 
terms of new and emerging initiatives, the U.S. Army Cyber Command at 
Fort Gordon, GA, and the Army acquisition community are pursuing ways 
to bring ``big data'' analytic capabilities to Army operations in order 
to improve our cyber defense capability. These efforts, as well as 
cyber S&T initiatives focused on the enabling technologies for future 
capabilities, will generate resourcing requirements which will compete 
against other modernization priorities.
    The Army's Network Integration Evaluations continue to provide 
valuable soldier-driven performance evaluations and suitability 
assessments of network technologies which the Army continues to 
leverage as a means of focusing Tactical Network modernization efforts. 
The Army is committed to developing and fielding the Army Tactical 
Network as part of a modernized Army network that improves 
effectiveness, security, and efficiency while providing the same basic 
capabilities from home station to the deployed tactical unit.
    With respect to small arms procurement, the Army's paramount 
objective for our soldiers is to maintain lethal overmatch against any 
adversary. Efforts include requirements development, and Science and 
Technology (S&T) investments in new enabling technologies to support 
future capabilities. Development efforts include the XM25, which 
provides the individual soldier with the capability to engage defilade 
targets with a high degree of accuracy, while imposing minimal burden 
in terms of size and weight. The Small Arms Ammunition Configuration 
Study is evaluating commercially available small arms ammunition, 
emerging ammunition capabilities, and developmental ammunition 
technologies to address conventional and non conventional calibers used 
in carbines, rifles, and light or medium machine guns. The Modular 
Handgun System Full and Open competition will replace the more than 30-
year-old M9 with a system that is more lethal, accurate, ergonomic, 
reliable, durable, and maintainable.
    Production efforts include: M320A1 Grenade Launcher Module that is 
replacing the M203 series grenade launchers currently mounted on M4A1 
Carbine, M4 Product Improvement Program (PIP), M2A1 Quick Change Barrel 
Kits, M205 tripods, and sniper upgrades and accessories. The Army is 
pure fleeting its service rifle inventory from a mix of M16A2/A4 Rifles 
and M4 Carbines to an inventory of fully automatic 5.56mm M4A1 
Carbines. The M2A1 is a modification to the M2 machine gun with a Quick 
Change Barrel Kit, and fixed headspace and timing configuration. In 
addition, the M205 Lightweight Tripod is for use on the M2/M2A1 and MK-
19 Grenade Launcher.
                        defense industrial base
    As lower funding levels for the Army continue, we are concerned 
about the availability of needed skills and capabilities in the defense 
manufacturing and supplier base. Teaming and collaboration with our 
industrial base, early in the process, will help reduce risk. In 
crafting our equipment modernization strategy, we carefully assessed 
risks across all portfolios to ensure balanced development of new 
capabilities, incremental upgrades to existing systems, and protection 
of ongoing production and manufacturing to sustain the industrial base.
    The Army has initiated studies to independently assess the health 
and risk to key industrial base sectors. Based on the results to date, 
the Army is making investments in specific portfolios to mitigate risk. 
In the aviation portfolio, multi-year contracts for Black Hawk and 
Chinook helicopters provide stability and predictability to the 
industrial base while achieving significant cost savings for the Army. 
In the combat vehicle portfolio, new production of PIM and AMPV, as 
well as incremental upgrades to Abrams, Bradley, and Stryker help to 
ensure that a sufficient workload will sustain critical workforce 
skills and suppliers. The Army also continues to advocate for Foreign 
Military Sales (FMS), extend production in certain programs, and invest 
in key suppliers on a case-by-case basis.
    The Army is equally concerned about the health of the organic 
industrial base, including our depots, arsenals, and ammunition plants. 
We are evaluating how to preserve needed skills and capabilities by 
modernizing facilities with new technology and plant equipment, 
promoting arsenal manufacturing capabilities across the Department of 
Defense, and conducting personnel training. The Army will maintain 
critical skills sets in our depots by identifying workload to preserve 
capabilities, exploring FMS opportunities, and encouraging depots and 
arsenals to partner with commercial firms and other Army and DOD 
organizations such as the Defense Logistics Agency to meet future 
requirements.
                            closing comments
    The Army's capabilities and capacity provide combatant commanders 
with multiple options, including the ability to conduct prompt and 
sustained combat operations on land. As the Army continues to adapt and 
innovate, we will continue to provide the foundational capabilities 
that enable the Joint Force to prevent conflicts, shape the security 
environment and, when necessary, win in a complex world.
    We appreciate the generous support from Members of Congress for 
strengthening the Defense acquisition workforce, which is the critical 
component for the success of a well-equipped force. With more than 
38,000 Army military and civilian acquisition professionals worldwide, 
this dedicated component of the Defense acquisition workforce is 
comprised of engineers, scientists, logisticians, contract specialists, 
testers, program managers, cost estimators, and many other acquisition 
career field specialties who effectively manage the Army RDA enterprise 
in a challenging budget environment.
    Army equipment modernization enables the U.S. Army to remain the 
world's decisive land force. Soldiers and units operate as part of 
joint, interorganizational, and multi-national teams that are 
tailorable and scalable to the mission. As we continue to examine how 
to achieve effective balance among manpower, readiness, and 
modernization, we must have stable, predictable, long-term funding to 
modernize our force to meet evolving threats and fully execute our 
mission.
    The security challenges of tomorrow will be met with the equipment 
we develop, modernize, and procure today. Because adversaries will 
continue to invest in technology to counter or evade U.S. strengths, 
resource reductions and insufficient force modernization place at risk 
the U.S. ability to overmatch its opponents. Smaller and less capable 
adversaries could restrict U.S. military options and impose serious 
risks to mission and committed forces. Under sequestration the Army may 
be reduced to a level that puts U.S. war plans and crisis response 
abilities at significant risk. Efforts to compensate for less forces 
with stand-off capabilities, special operations forces, and use of 
allied or partner armies may prove insufficient. To mitigate risks, the 
Army must maintain high levels of readiness while also investing in 
future force modernization. The Army must retain sufficient 
institutional Army capabilities to expand the force. Improved 
interoperability with joint, interorganizational, and multinational 
partners provides additional methods to mitigate this risk by improving 
synergy across all domains and fully realizing the potential of joint 
combined arms maneuver.
    With the possible return of sequestration in fiscal year 2016, Army 
equipment modernization faces significant risks. Those risks include 
fewer mitigation options, aging fleets, eroding overmatch, higher 
sustainment costs, longer timelines to regenerate battle lost 
equipment, and higher costs, which will leave our soldiers less 
prepared for future conflicts.
    Mr. Chairman, members of the subcommittee, we thank you again for 
your steadfast and strong support of the outstanding men and women of 
the U.S. Army, Army civilians, and their families. We look forward to 
your questions.

    Senator Cotton. Thank you, General Williamson.
    Does anybody else have any opening statement they would 
like to add to your joint written statement? General McMaster?

STATEMENT OF LTG HERBERT R. McMASTER, JR., USA, DIRECTOR, ARMY 
  CAPABILITIES INTEGRATION CENTER/DEPUTY COMMANDING GENERAL, 
        FUTURES, U.S. ARMY TRAINING AND DOCTRINE COMMAND

    General McMaster. Sir, thank you. I just want to say thanks 
to you and Ranking Member Manchin and distinguished members of 
the subcommittee, really in both of your opening statements--
most of the content I have exed out in my opening statements 
because I think you covered it much more fully than I can.
    But I just want to tell you that I appreciate the 
opportunity to talk with you about the Army Operating Concept, 
its relationship to Army modernization, and the enduring 
importance of ready land forces in sufficient capacity to 
accomplish the mission.
    To prevent conflict, shape security environments, and win 
in a complex world, Army forces must have both the capability 
and the capacity to accomplish assigned missions while 
confronting, as you both pointed out, increasingly dangerous 
threats in complex operational environments. The Army Operating 
Concept will guide our modernization efforts and help us do the 
best we can with the resources that we are provided and with 
the strength of our Army. It prioritizes the integration of 
advanced technologies with skilled soldiers and well trained 
teams and adaptive leaders. That is what we believe is our 
differential advantage over enemies today and in the future.
    The AOC also establishes first principles for the 
integration of new technologies and for the design of the 
future force. Most importantly, I think it integrates our 
learning activities, how we learn and adapt through Force 2025 
maneuvers, which are both physical exercises and assessments, 
as well as intellectual exercises associated with Army war-
gaming and seminars, to develop solutions to problems 
associated with armed conflict. Force 2025 maneuvers are 
oriented on 20 fundamental or first-order questions, the 
answers to which will improve current and future force combat 
effectiveness.
    Our Army develops interim solutions to these warfighting 
challenges and identifies requirements to improve the combat 
effectiveness of the current and future force. This is how we 
intend to do our best to prioritize efforts in force 
modernization and make sure that we maintain overmatch over 
future enemies. ``Overmatch'' we define as the application of 
capabilities or the use of tactics in a way that renders an 
adversary unable to respond effectively.
    As both of you have mentioned, budgetary pressures 
associated with the BCA in particular could make it tempting to 
overlook or undervalue the capacity of ready land forces to 
accomplish current and future missions. But strong, sufficient, 
and capable land forces are vital to national security. Army 
forces are critical to deterring conflict because they are 
capable of compelling outcomes without the cooperation of the 
enemy. Importantly, ready land forces are essential to compel 
sustainable outcomes in war. The consolidation of gains is an 
integral part of armed conflict and is essential to retaining 
the initiative over determined enemies and adversaries. To 
consolidate gains, Army forces often play a supporting role by 
reinforcing and integrating the efforts of multiple partners.
    Replacing capacity with a strategy centered on technology 
alone or on the rapid regeneration of forces is risky. History 
provides evidence of the challenges inherent in rapidly 
regenerating effective land forces. As I mentioned earlier, our 
Army's differential advantage comes from combinations of 
skilled soldiers, adaptive leaders, and well trained teams with 
technology. Growing the Army while maintaining overmatch is a 
complex endeavor requiring policy decisions, dollars, soldiers, 
infrastructure, advanced weapons systems, and most importantly 
time.
    Efforts to compensate for reduced capacity alone or with 
technology alone are also likely to prove insufficient. Recent 
and ongoing conflicts reinforce the need to balance the 
technological focus of modernization with a recognition of the 
limits of technology. As we know, there are no technological 
silver bullets in war, and although advances in technology will 
continue to influence the character of warfare, the effective 
technologies on land are often not as great as in other domains 
due to geography, the interaction with adaptive enemies, the 
presence of noncombatants, and other complexities and 
uncertainties of war. Our challenge, as you have already 
mentioned, is to mitigate these risks. Our Army must maintain 
high levels of readiness and sufficient capacity while also 
investing in future force modernization.
    The Army Operating Concept is a starting point for 
developing the future force. But as historian Sir Michael 
Howard observed, no matter how hard we think, how clearly we 
think, it is impossible to anticipate precisely the character 
of future conflict. The key is to not be so far off the mark 
that it becomes impossible to adjust once that character is 
revealed. If we base our future force development efforts on 
flawed assumptions or wishful thinking, we will increase the 
risk of being far off the mark and are likely to pay a high 
price in blood and treasure.
    Thank you for the opportunity to be with you today, and I 
look forward to your questions.
    Senator Cotton. General? '

STATEMENT OF LTG ANTHONY R. IERARDI, USA, DEPUTY CHIEF OF STAFF 
                        OF THE ARMY, G-8

    General Ierardi. Chairman Cotton, Ranking Member Manchin, 
ladies and gentlemen, thank you for the opportunity to testify 
today. I have a very brief statement to open with.
    Our soldiers remain significantly engaged, leading and 
contributing to the joint force in missions in complex 
environments in multiple theaters of operation. As always, they 
are performing magnificently.
    The Army's top priorities are to care for these soldiers 
and their families and to provide them and their units with the 
training and equipment they need to accomplish their tasks.
    With significantly reduced budgets and the drawdown in the 
size of the Army, the Army is carefully balancing the 
allocation of resources among end strength, readiness, and 
modernization. The Army will preserve current force readiness 
to ensure units and our soldiers are prepared for the demands 
they will encounter as they execute their missions.
    Conversely, we are being forced to invest less in the 
modernization of the force to meet the strategic and 
operational demands of the future. In this context, we must 
carefully evaluate all programs to ensure our overall 
modernization effort properly meets the needs of the Army into 
the future to increase the lethality, protection, mobility, and 
situational awareness of our soldiers and units.
    We ask for your continued support for the required, 
sustained, and predictable funding to ensure we are able to 
deliver our soldiers the capability they need and deserve.
    I want to thank you and the committee for your steadfast 
and generous support to our Army and our soldiers, and I look 
forward to taking your questions today.
    Senator Cotton. General Cheek?

 STATEMENT OF MG GARY H. CHEEK, USA, ASSISTANT DEPUTY CHIEF OF 
                   STAFF OF THE ARMY, G-3/5/7

    General Cheek. Thank you, Senator. Major General Gary 
Cheek, Deputy G-3, and I do operations, plans, and policy for 
the Army.
    Just to add a couple of things to some of your great 
opening comments, yes, we are an Army coming out of 14 years of 
war. There is a lot of goodness in that for our Army. We have a 
wealth of combat-experienced leaders throughout our force. 
Surprisingly, the Army is really where it needs to be at 
appropriate skills and grades across the Army in our 
noncommissioned officers and officers. We are also very well 
equipped with many of the resources provided by Congress to 
give us some great equipment and, really, within the Reserve 
component, maybe never as strong as their equipping status is 
now.
    The thing that we lack, of course, are resources to 
continue to train that force and then to continue to modernize 
that force because that is where we have to take risk given the 
constraints of sequestration.
    The thing that I would offer to you is that if you were to 
go back a year and see some of the world events that have 
occurred, for example, in Russia, the U.S. Army responded, and 
we have 2,500 soldiers in Eastern Europe under the leadership 
of the 4th Infantry Division and 3rd Infantry Division training 
with our Eastern European partners in about 13 different 
countries.
    When the crisis if Ebola struck West Africa, the 101st 
Infantry Division deployed in support of the U.S. Agency for 
International Development (USAID) to assist in that effort 
there.
    Then, the Islamic State of Iraq and Syria (ISIS) emerged in 
this past year. We have the 1st Infantry Division and 3rd U.S. 
Army leading that effort in support of the Iraqis there.
    I bring that up because I think those events could easily 
leave Members of Congress and the American public with the 
impression that the Army is still ready to go, and we do very 
well at meeting our current obligations that are given to us by 
combatant commanders. But what you do not see is our 
contingency force and the readiness of that force, which is 
what General Odierno often refers to, where we have about 50 
percent of the readiness that we believe we need to respond to 
a major contingency. This is where we get very concerned about 
the effects of sequestration because it leaves us with a lack 
of training of those teams and soldiers and leaders to be able 
to respond to those really unforeseen major crises that may be 
out there.
    At any rate, we understand the commitment of Congress for 
fiscal responsibility within our Government, but we also have a 
strong commitment to our soldiers. We appreciate your 
leadership and efforts to assist the Army through this 
challenging period for the Nation. Like my fellow general 
officers, I look forward to your questions.
    Senator Cotton. Thank you, gentlemen, for your statements, 
again for your service.
    Ten years ago, I was in officer candidate school. As a 
young officer candidate, I had a training, advising, and 
counseling officer (TAC) who used to always tell us we can do 
things the smart Ranger way or the hard Ranger way. I do not 
think I need to elaborate on those two choices for anyone. I 
have to say that I probably chose the hard Ranger way more 
often than I would like to confess. But I want to make sure 
that the Army, to the greatest extent we can, does things the 
smart Ranger way since the Army can accomplish any mission 
given to it, but let us accomplish the mission in the most 
efficient and effective way.
    I want to start talking about our wheeled vehicle programs. 
This is obviously something that is very important to all of 
us. We all lived through the challenges we faced 9, 10, 11 
years ago getting vehicles to our troops down-range in Iraq 
that could sustain major roadside bomb blasts. By the time I 
was in Iraq in 2006, our Humvees could stop pretty much 
anything except the largest buried bombs and Iranian-supplied 
improvised explosive devices (IED). That is part of why we have 
the JLTV to replace the Humvee program.
    I do have some concerns, though, about the strategy and the 
operational detail it provides. General Williamson, I will 
direct these questions to you first.
    So the strategy says that the first units will receive 
JLTVs sometime in fiscal year 2018. Full fielding will occur 
sometime in fiscal year 2035. Also I understand it says the 
JLTVs will not replace all Humvees in the Army. So it is 
unclear to me what the basis of issue plan is for units. When 
will specific units at, say, the division level begin to 
receive JLTVs? What is the plan for the complete fielding, and 
how will we integrate JLTVs with legacy Humvee systems?
    General Williamson. So, sir, thank you for the question.
    I hate to be evasive. So I can talk to the programmatics, 
and I think the timeline that you described and the 
capabilities of the JLTV are absolutely on target.
    I would also offer that this is one of those programs that 
I think, as you look at the three vendors who are providing 
solutions, we probably have one of the best vehicle programs 
that I have witnessed during my acquisition career.
    In terms of how those vehicles will flow, though, I am 
going to defer to the operational side and the programmatics in 
terms of the units that they go to first and the timing to 
field those vehicles.
    General Cheek. So I think the best way to capture it is the 
priority for these vehicles will be those most susceptible to 
those threats that you mentioned. So we will probably focus 
initially on our combat arms formations, and then for our 
echelons above brigade that are less likely to be in those 
threat areas, there will still some, but that is probably where 
you will see a residual Humvee fleet.
    Senator Cotton. Could you elaborate on what you mean 
specifically by combat arms formations below the brigade level?
    General Cheek. Well, it would be our brigade units but also 
some of the supporting units that accompany them. I will use 
like a fires brigade, for example, and others. But we can get 
you more specific information on that if you would like to 
follow up.
    Senator Cotton. At what level or what echelon do you see 
units having a mix of both JLTVs and Humvees, and what level do 
you see them having pure JLTVs?
    General Cheek. Well, I do not have the exact answer. My 
belief is that our tactical battalions--infantry, armor, 
artillery--you are going to see JLTVs there. I think above the 
brigade, you are going to see some mix of those dependent on 
that.
    But again, I probably owe you to check that specifically 
and come back to you with that.
    [The information referred to follows:]

    General Cheek. The priority fielding of the Joint Light Tactical 
Vehicle (JLTV) is to the Manuever Brigade Combat Teams (BCTs) 
(Infantry, Armored, and Stryker) and the multi-functional brigades that 
directly support the BCTs: Combat Aviation Brigades, Fires Brigades, 
Military Intelligence Brigades, Maneuver Enhancement Brigades, and 
Sustainment Brigades. JLTV requirements in these eight brigade types 
were determined based on LTV mission roles, operational mode mission 
summary / mission profile, and threat. In the BCTs, the JLTV will be a 
one-for-one replacement of the High Mobility Multipurpose Wheeled 
Vehicle (HMMWV) Up-Armored HMMWV (UAH) with the exception of the ground 
ambulance. In the five multi-functional brigades, the JLTV will replace 
more than 93% of all HMMWV/UAH requirements. In addition, over 1,000 
JTLVs are slated for United States Army Special Operations Command 
(USASOC); another 1,400 are slated for the training base, and two 
Infantry Brigade Combat Team sets are designated for Army Preposition 
Stocks.
    The Army continues to analyze JLTV and HMMWV requirements in the 
Army's functional support formations such as: Air Defense, Chemical, 
Engineer, Medical, Military Police, and Signal formations. This 
analysis will be complete later this year. We anticipate a mixed fleet 
of JLTV and HMMWV in these functional support formations. We also 
anticipate a mixed fleet or a pure fleet of HMMWVs at the Division, 
Corps, and higher echelons in the near and mid-term.
    The plan is to prioritize JLTV to those Soldiers and units exposed 
to the greatest threat, and to provide them with the best protection, 
performance, and payload capabilities within the tactical wheeled 
vehicle fleet.

    Senator Cotton. Okay.
    General Ierardi?
    General Ierardi. Sir, I would just add that I believe it 
will be a total force issue plan from the outset based on the 
operational requirements that the Army has. The idea that we 
would replace Humvees as we go and as JLTVs are manufactured 
and then integrated into the force I think is right. We will 
have fewer Humvees as time goes on, and we field these JLTVs to 
increase the performance, the payload, and the protection for 
our units according to the operational demands that we have. 
But I also believe we will intend it to be a total force 
fielding across the total Army.
    Senator Cotton. General Williamson, if can come back. An 
acquisition question. I know the request for proposal (RFP) has 
laid out several criteria: survivability, mobility, and so 
forth. Three vendors are competing along that. Sometimes the 
Army, like all Services, also prioritizes protection of the 
industrial base. Is that a criteria in this program?
    General Williamson. So, sir, not in terms of the actual 
selection of the vehicle, but as you look at how we identified 
the requirements, the timing in terms of the production of 
those, the goal is to make sure that we support the industrial 
base in our capacity to build tactical light vehicles.
    So, again, I would like to point out that as I look at the 
three vendors who have done this, each has brought an 
innovative approach to protection, an innovative approach to 
energy, the transmissions. So from an industrial base 
standpoint, I think you are seeing the best of what we can do 
with current capabilities, and our ability to sustain that over 
the production lifecycle I think will be a real boon for our 
industrial base and a boon to our soldiers.
    Senator Cotton. So I hear that as not protecting an 
industrial base per se, but taking into account past 
performance of the vendors as one component of risk?
    General Williamson. Yes, sir. We are in that source 
selection right now. That is going to happen. So the criteria 
for how we are going to pick the vehicle. So past performance 
is normally one of those criteria that we use in any source 
selection.
    Senator Cotton. Okay. Gentlemen, thank you. My time has 
nearly expired.
    Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    First of all, just out of the chute, I would like to talk 
about when the sequestering first took place, I was here just 
kind of fresh out of the State. When that came under the BCA, 
we talked about flexibility. At that time, everybody was 
pushing back. I mean, to me that would have been something you 
would have embraced--the flexibility that you would have had 
with the money that we already had in the system. Not being 
able to move the money siloed, it would have made it much more 
difficult for you all to manage.
    I do not know if you all feel any different about the 
flexibility of the budgets you have to work with or the way the 
money is siloed. If we could work with you there and give you 
some freedom, would that help? Because money I think is going 
to be a concern we are all going to have. You can see it every 
day here basically. We have a lot of needs, and I think 
everyone is going to have to look at how we work more 
efficiently. So I do not know how flexibility--if any one of 
you--General Ierardi?
    General Ierardi. Sir, if I could. I would open by saying 
that the stable, predictable nature of funding is important for 
our modernization programs. The sequester law, as I understood 
it, would make across-the-board cuts if it was implemented, and 
that is something that would take away the discretion that we 
need as a Service to make the decisions that are appropriate to 
provide our soldiers and our units what ultimately they 
require.
    Senator Manchin. Are your hands still tied right now? I 
mean, basically how you all are able to use your budget funds.
    General Ierardi. Right at this moment, I do not feel that 
that is the case, sir, no.
    Senator Manchin. Any of you?
    General McMaster. Sir, I will just say I do not do the math 
job that General Ierardi does, but I think that more 
flexibility seems like it would be better.
    Senator Manchin. It makes all the sense in the world. But I 
am just saying politically you understand you did not get the 
flexibility because everybody wanted to make sure that the 
sequester would hurt so bad that we would get rid of it. Well, 
we did not. So by not getting rid of sequestering and not 
having flexibility, it was a double whammy on you.
    General Ierardi. Right. So, sir, if I could. The BCA cap--
the funding levels--we really essentially have been there with 
the legislative relief we received over the past couple years. 
That has certainly impacted us adversely. The flexibility in 
how we administer the funding, at least to this point, has been 
sufficient for us to have some decisions base in what we needed 
to do.
    Senator Manchin. This will be, I think, General McMaster. 
What does it mean when you talk about sustaining employing our 
Reserve components as an operational reserve? What are your 
views of the resource implications or your definition of 
operational reserve?
    General McMaster. Sir, operational reserve obviously 
entails a higher degree of readiness, the ability to respond 
more quickly than a strategic reserve in the context of 
mobilization. The critical factor is just time. It is time and 
your ability to maintain a high degree of readiness at the 
collective level. Of course, our Army fights as teams, and we 
conduct combined arms operations and integrate joint 
capabilities. So these are all competencies that take time and 
resources to sustain. So we are limited in terms of the amount 
of the force that can retain the level of readiness necessary 
to be a viable operational reserve.
    I think, sir, as small as our Active Force is getting, we 
have to do everything we can to maintain the National Guard at 
the highest possible level of readiness.
    Senator Manchin. How do you all factor in the Guard and the 
Reserves? The only thing I could ever put between the two--why 
do we have both--is that when I was Governor, I had control of 
the Guard and the President had control of the Reserves. Other 
than that, it is kind of the same. I do not know why we could 
not have worked out something more amicable. Governor Rounds 
would understand that also I think.
    General McMaster. Well, sir, there are different 
authorities, as you already mentioned, in terms of the ability 
to mobilize the Reserves. These are policy issues that deal 
with responsiveness as well. Our Reserves provide some critical 
capabilities that are essential very early in a conflict, and 
many of the competencies that they provide are competencies 
that are oftentimes compatible with their civilian skill sets 
and so forth. These are units that are specialized for port 
opening and----
    Senator Manchin. Well, here is the other problem I have. It 
is contractors. I cannot get an accurate answer on contractors. 
The cost of contracting is unbelievable, and I cannot get 
anybody to speak towards the cost effectiveness or efficiencies 
of doing more what we can do with our Service and our Service's 
personnel and our Guard and our reservists than what we are 
doing with outside contractors. Anybody want to touch that? 
General Cheek?
    General Cheek. So one challenge we have is there are force 
management levels that we have for the different theaters we 
operate in. So a lot of times, a contractor allows us to stay 
under that. Or contractors are very good if we only need the 
requirement for a short amount of time rather than grow that 
within the structure of the Guard or the Reserve. So there are 
places where I think there are great advantages of contracting, 
but over the long term, it is very expensive. It is very 
difficult for us to predict the number of personnel that are 
associated with a contract because we purchase a service, not 
necessarily the numbers of people. So that is another part that 
complicates it.
    General Ierardi. Sir, we have worked and will continue to 
work to reduce contracted support in the force. At Fort Hood 
and command of 1st Cavalry, we by and large had moved to 
soldiers maintaining our ground equipment and our helicopters, 
not in every case, but as we move forward, it is the Army's 
intent to bring soldiers back into the business of maintaining 
and sustaining our equipment and our forces to the greatest 
extent possible.
    Senator Manchin. My time is up. There may be a time for 
another round and we will go through that. Thank you very much.
    Senator Cotton. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    I would like to take a little about cyber liability and 
about the exposures that are out there and what the Army is 
doing. It seems to me an important consideration of your 
modernization efforts would be its cyber capabilities. I 
understand that the Army is undertaking a number of significant 
initiatives in this regard. This includes the creation of 11 
cyber protection brigades in the National Guard, a cyber center 
of excellence at Fort Gordon, GA, and a separate cyber branch 
for officers, the same level as the Army's other branches.
    What is the current status of that initiative or that 
series of initiatives or the current state of play, if you 
would?
    General McMaster. Sir, just a few things. I mean, first of 
all, this is a huge priority for us. As we have become more 
reliant on network capabilities and communications, that has 
become a vulnerability, and we can see harbingers of really 
future threats in what just has happened with Sony Pictures and 
so forth. But as Lieutenant General Edward C. Cardon, 
Commander, U.S. Army Cyber Command, who is testifying right now 
separately in a separate forum, can tell you, this is a 
contested battle space every single day.
    So what we are doing is making this really a key 
consideration for the design of obviously our communications 
systems but really every weapons system to ensure that we have 
weapons systems that can operate degraded, that can degrade 
gracefully under some sort of a cyber or electromagnetic 
attack, and that these are the environments that we consider, 
these degraded environments, under this kind of duress as we 
design our force.
    In the 1990s, we had based a lot of Army modernization on 
the belief that advances in communications technology and 
information technologies, automated decisionmaking tools had 
shifted war fundamentally from the realm of uncertainty to the 
realm of certainty. I remember some of the language of dominant 
battle space, knowledge, full spectrum dominance, and so forth.
    We have essentially turned that assumption on its head, and 
we are now assuming that actually the advances in technology 
are going to move more into greater uncertainty. So we have to 
design a force that can fight for information, that can develop 
situations and understanding in close contact with the enemy 
and civilian populations, that can operate widely dispersed 
while maintaining mutual support. A lot of this has to do with 
communications and our systems that can degrade, that can 
operate degraded.
    In terms of the cyber support teams that Army is 
generating, I will ask General Cheek to give you the statistics 
on those.
    But I think if you look at innovation, military innovation, 
I think a case study of this will be our Army cyber and what 
they have done. I think under General Cardon and his 
predecessor, they have done a tremendous job of providing a new 
capability to the force, designing it, training and developing 
that expertise. So what we have now is the ability to support 
forces tactically in these contested environments, to 
understand better what the threats are to the organization and 
defend against those threats, but then also to develop the 
knowledge and the intelligence of that space, as well as, if 
necessary to do so, conduct offensive operations.
    Senator Rounds. I will let General Cheek respond to this as 
well, but what I am asking is, where are we? Are we on target 
with it? Are we behind? Do you have the resources to do it?
    General Cheek. I would say, Senator, we are on track with 
where we would expect to be. We are fielding cyber protection 
teams, for example. In many cases we are getting these to an 
initial capability, as many of these as we can, and through all 
three of our components. So it is a full effort. We are also 
standing up the school. We are developing the training 
mechanisms which are very unique for cyber. We have rifle 
ranges for all of our soldiers. We have cyber ranges that we 
are developing as part of the joint force, and then we are also 
working at the highest level for U.S. Cyber Command and its 
future, which I am sure is going to grow and expand as well.
    So we are not complete by any stretch. I wish General 
Cardon were here because he could give you much more eloquent 
specifics on this. But we are well on our way, and I would say 
we probably have about 2 to 3 more years of continuing to build 
this force to flesh out these teams and maybe a little longer 
with the Reserve component.
    General McMaster. Sir, just quickly on the stats. From 
fiscal year 2013 when the Army had zero cyber teams, we now 
have 24 Army cyber mission teams that have reached, as Gary 
said, the initial operational capacity. By the end of fiscal 
year 2016, the Army will have 41 cyber mission teams at initial 
or full operational capacity. As you mentioned, we continue to 
evolve and mature that over time. When we get to 41, it will be 
approximately 1,900 personnel, sir. The quality, education of 
those personnel is probably more important than the exact 
numbers.
    Senator Rounds. Thank you.
    I yield back my time, Mr. Chairman.
    Senator Cotton. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman, and thank you all 
for your service.
    As we are talking about cybersecurity, it cuts across so 
many different--it comes up in the Judiciary Committee. It 
comes up in the Energy and Natural Resources Committee. It 
comes up in all of our committees. So as you develop these 
teams, of which you will end up with 41 by the end of 2016, how 
important is the coordination within the DOD to make sure that 
we are doing what we need to do and what we are learning from 
each other and we are basically working together across all of 
our Services?
    General Cheek. It is absolutely critical. We communicate 
with each other continuously at multiple levels. So for General 
Cardon who leads the Army Cyber Command, he has counterparts in 
the other Services that he works with directly, and they are 
also all underneath Admiral Michael S. Rogers, Commander, U.S. 
Cyber Command and Director, National Security Agency/Chief, 
Central Security Service
    Also at the highest levels on the Joint Staff within the 
Joint Chiefs of Staff and the operational deputies, of which I 
am a part of, we also review the policies, the future, the way 
ahead routinely, and we have just done that here recently.
    So there is a lot of dialogue, especially given the threats 
that emerge continuously. So it is something we take very 
seriously, and we also want to make sure that we empower those 
organizations to be able to operate effectively and not over-
control it or over-supervise it in a way that would inhibit 
their effectiveness.
    Senator Hirono. Does your coordination also include the 
National Guard?
    General Cheek. It does. In fact, the National Guard's first 
three States are standing up their teams, and over the next 
several years, many others, to include Hawaii, will stand up 
their cyber protection teams as well. Then we have to just work 
through the authorities of how they work when they are in a 
State status versus a Federal status. So there is a little more 
work to do with that, but we are pushing forward on all of 
these things. A lot of new thinking has to go into how this 
works with the existing policies and statutes to be effective.
    Senator Hirono. Would you all agree that cybersecurity is 
an ever-changing environment? It is like the new arms race. 
Every time we do something, somebody else is thinking of how to 
penetrate our systems and wreak havoc.
    General Ierardi. Ma'am, exactly right. The environment 
changes very rapidly. Our task is to exceed that change in some 
way, to become as flexible as we possibly can to adapt the 
allocation of our resources and our activities to be able to 
effectively exploit opportunities and to counter the challenges 
that are present. Your question, the premise of it, that there 
are multiple capabilities involved in this is exactly right. 
There are human capabilities, human capacity capabilities, that 
are very important, mostly important, but there is also 
software and how we operate. In a modernization hearing in the 
G-8 where I am, we talk about modernization in terms of 
hardware. This is a different concept for how we operate, and I 
think it is important for us to keep that in mind.
    Senator Hirono. Are you going to be facing some shortages 
in people with the appropriate backgrounds to work in this area 
of cybersecurity?
    General Ierardi. We are certainly oriented on attracting 
the right people for this mission set and to leverage the folks 
that are currently in these units and in these activities to 
the greatest extent possible. But it is an important task for 
us to recruit and retain individuals with the skills and 
attributes that we need for this mission.
    Senator Hirono. In this regard, you will be competing with 
the private sector because they also need people who are able 
to deal in this arena.
    General Ierardi. Yes.
    Senator Hirono. We had an Armed Services Committee hearing 
this morning talking about how important the Asia-Pacific area 
is to national security and the stability of that part of the 
world, as other parts of the world continue to be unstable.
    General McMaster, I know that soldiers from the 25th 
Infantry Division and other units participate in Pacific 
Pathways and other important military-to-military training 
opportunities with our allies in the Asia-Pacific region. This 
morning's hearing reiterated how important those kinds of 
opportunities are.
    So can you talk briefly about the importance of having a 
modernized Army in the Asia-Pacific region projecting forward 
from Hawaii, Alaska, Korea, and Japan?
    General McMaster. Yes, ma'am. Thank you for that question.
    Our Army Operating Concept is different, I think, from 
previous concepts in that it really looks at the range of 
operations and the range of missions for our Army, which is to 
prevent conflict, shape security environments, and then also to 
win an armed conflict if deterrence fails. The positioning 
forward and rotational presence of Army forces provides a very 
credible commitment to our allies. You can accomplish quite a 
bit from standoff range in terms of deterring conflict and 
responding to conflict, but really, you cannot do the positive 
things often from standoff range, which is to reassure allies 
and partners.
    In the Pacific region, five of the largest armies in the 
world are there. So our engagement with those armies is 
immensely important in that connection in terms of theater 
security, architecture, and ability to deter conflict.
    We are also emphasizing really two key concepts in our Army 
Operating Concept. One is expeditionary maneuver, which is the 
ability to deploy forces rapidly, but not just any forces, 
forces that possess the appropriate combination of mobility, 
protection, and lethality to accomplish the mission and to also 
be able to deploy forces of sufficient scale to get that 
mission done. That is really what deterrence, I think, comes 
from is really our ability to compel an outcome consistent with 
our vital interests.
    To do that, we are emphasizing some key modernization 
initiatives that I think would be very helpful to forces in the 
Pacific, and that is combat vehicle modernization. It is also 
what we want to do with Army aviation and then also, in 
particular, because of the contested domains of the maritime, 
airspace, and cyberspace domains, we are saying that Army 
forces have to deploy rapidly and transition into operations 
with the right capabilities and in the right capacity to defeat 
enemy organizations, deter conflict obviously, but if that 
fails, defeat enemy organizations, to establish control of 
territory and protect populations, to consolidate gains, but 
now we think--and this is very relevant to the Pacific--project 
our outward from land into the maritime, airspace, and 
cyberspace domains to ensure our freedom of movement in these 
increasingly contested domains, but then also to restrict an 
enemy's freedom of movement in those domains. I think our 
ability to do that could have a very significant deterrent 
effect.
    So we are working, for example, on the development of new 
capabilities with a unit that can deploy rapidly, a fires unit, 
but a fires unit that can do a lot of different things. It can 
work surface to air. It can work shore to ship, and it can help 
restrict, again, enemy movement and then ensure our freedom of 
movement.
    Senator Hirono. So there is a much more diverse capability 
on our part, but at the same time, as you say, in projecting 
our strength in that area, we need to do, I think, exercises 
with our allies, the Japanese, the Philippines. Those are 
important sort of manifestations of our presence in that part 
of the world. Would you agree?
    General McMaster. Yes, ma'am. But I will ask Gary maybe to 
comment on this as well. In the U.S. Pacific Command and U.S. 
Army Pacific, that is our largest contingent of Army forces of 
any of the combatant commands.
    Senator Hirono. I would like to keep it that way, coming 
from Hawaii as I do. [Laughter.]
    General McMaster. Pacific Pathways has been immensely 
important to the development of our future force capabilities. 
One of these 21st order questions that we ask and warfighting 
challenges is how to improve our interoperability with other 
nations. U.S. Army Pacific is going to cosponsor our Army 
warfighting assessment, which will be at Fort Bliss, TX, 
beginning in 2016 but in fiscal year 2017. Partner nations that 
are involved already this October at Fort Bliss include the 
Australians. So we are hoping to expand that--we are confident 
we will--further to other Pacific partners for 2017.
    Senator Hirono. Thank you, Mr. Chairman, for the additional 
time. Thank you.
    Senator Cotton. Senator Sullivan who, I caution the 
witnesses, remains a marine to this day. [Laughter.]
    Senator Sullivan. Thank you, Mr. Chairman, for that 
reminder.
    General McMaster, good to see you again, sir.
    General McMaster. Good to see you, sir.
    Senator Sullivan. I think you might remember I bumped into 
you in Tal Afar, and then I worked for you when you were the 
Joint Strategic Assessment Team commander. So I understand my 
chain of command here, Mr. Chairman.
    So for all you gentlemen, I wanted to talk a little bit 
about kind of the troops in Alaska and how they play into both 
what Senator Hirono was talking about in terms of the 
rebalance, but also what I think is becoming an increasingly 
important area for the United States and that is the Arctic. We 
have some great Army units up there, the 1st Stryker Brigade, 
the 425. I was at the National Training Center with the 1st 
Stryker Brigade recently and saw their fantastic training. I 
was with the 425 soldiers just last week as they were getting 
ready to go do a jump.
    But I know that you have been focused on what the Russians 
have been doing in the Arctic, and it is a pretty aggressive, 
pretty significant development of force capacity. General 
Martin E. Dempsey, Chairman of the Joint Chiefs of Staff, 
testified recently that four of the new six combat brigades in 
the Russian military are going to be Arctic-based. They have a 
new Arctic command. They have dramatically increased their 
icebreaker fleet. They undertook an exercise that I know a lot 
of us took a look at. I think it caught a lot of people by 
surprise in some ways. 45,000 troops, 41 ships, 110 aircraft, 
all in the northern fleet, their Arctic capacity.
    In your testimony, you talk about viable land forces 
capable of opposing the Russian army and its irregular proxies. 
Such adventurism is more challenging to deter.
    So I am wondering. One of the things the Army is looking at 
doing, in terms of future force structuring, is possibly 
removing one and maybe even two combat brigades from Alaska. My 
sense on this is it would be lunacy from the perspective of 
America's national security to be decreasing even one combat 
soldier, particularly the soldiers we have in Alaska in terms 
of their capability for Arctic training.
    I asked General Odierno about Spartan Pegasus recently, if 
any other airborne unit in the U.S. military could have 
undertaken that Arctic airborne exercise. He said no.
    Could you just tell us how you are thinking through the 
Arctic? Right now there is no operational plan (OPLAN) at all. 
The U.S. Northern Command (NORTHCOM) commander does not have an 
OPLAN. I think we need an OPLAN, particularly as you help us 
help you think through requirements. Can you give me a sense of 
how you are thinking about the Arctic and our laydown in terms 
of Army forces there?
    General McMaster. Well, sir, based on your summary of the 
threat, I would sum it up by saying probably not enough. I 
mean, we are not thinking enough about it. So I know that we 
have some venues that we can bring this right into, Unified 
Quest, which is our annual war game. I mean, I think it would 
be easy for us to develop a scenario that would have us 
operating in the Arctic and other cold weather environments and 
to understand better what the threats are there.
    We have been thinking in general terms about the deterrent 
quality of land forces. As I mentioned, in particular what we 
see with Russia is we see a country that is using limited war 
for limited objectives to make, in effect, a land grab as we 
have seen in Ukraine, and to do that at low or no cost almost, 
and then to portray any responses escalatory. I mean, I think 
it is plausible to think of an analogous scenario in the 
Arctic, for example.
    We know that a way to deal with a force that is using this 
sort of limited war for limited objectives is forward 
deterrence of land forces. This is where I think we get into 
the capacity issue. It was the forward positioning of 500,000 
U.S. military personnel in Europe from the 1950s to the 1980s 
and 1990s that deterred a great power conflict over 70 years, 
sir, and then, of course, the 28,500 soldiers in Korea.
    Now, if you look at an Active Force that is planned to go 
to 450,000 total in the Army and just do then Army math, in 
terms of a 90,000 generating force with 60,000 soldiers in 
training all the time, providing that ability to expand that 
within the institutional Army, if you look at global response 
forces that just have to be prepared for any contingencies--and 
those which were mentioned today--nobody planned on the 
deployment to West Africa or the ones that Gary was 
summarizing. So if you just do that basic math, you recognize 
that we are out of capacity to do what the Nation may need us 
to do.
    Senator Sullivan. Do you think it makes sense to remove any 
combat brigades from Alaska, given what the Russians are doing? 
Also in terms of our rebalancing to the Pacific, that is 
another area where the President--and I agree with him--has 
committed to look at optimizing our force structure, obviously, 
Alaska forces, our Asia-Pacific forces, as well as Arctic 
forces. Do you believe it makes sense to be removing any combat 
units, even one soldier, from Alaska given our Arctic 
challenges and given the rebalance to the Pacific, which 
Senator Hirono talked about?
    General McMaster. Well, sir, it is a question of risk and 
how you can best manage that risk with severely diminishing 
resources. So just again for just some context--and again, I 
mean, this would be a fully open effort to look at how we 
manage that risk in consultation with your committee and 
others.
    But if you think about just in recent years, in recent 
years we had to sustain a commitment overseas to Afghanistan 
and Iraq of about 170,000 in those peak years. Of those 170,000 
that we deployed, 117,000 were active duty and the remainder, 
about 53,000, were Reserve component. That placed an Army, 
which at the time was at 482,000 that is in severe strain, and 
then thanks to you and to the Senate and our Congress, we 
expanded that Army to 560,000.
    We are now in a global conflict. I mean, if you look around 
the globe, several conflicts around the globe seeing harbingers 
of potential future conflict. We are now down to about 492,000 
today I think, Gary, and going to 450,000. So I mean, just the 
basic math I think you can see that we are taking risk today 
already somewhere.
    To answer your question, I do not think--certainly it is 
not a good idea to pulling soldiers out of Alaska, but it will 
be a question of how to manage risk with severe reductions in 
Army capacity.
    General Cheek. If I could just add. So we do not want to 
take anything out of Alaska. We do not want to take any more of 
our brigades. So the unfortunate part that we face is, under 
sequestration, we are looking at having to remove two brigades 
from our structure. We have a process, as all of you are aware, 
both listening to communities and in weighing through that. So 
there are some very, very difficult choices there.
    The one thing I will add, though, in recognition that we do 
see how important this area is. So we are bringing in Apache 
aircraft as part of the aviation restructure initiative. So 
that is one positive thing that we can add there.
    The other one is our Gray Eagle unmanned aerial system 
which is unique in its ability to operate in that environment.
    So I think there are a couple things that we are doing that 
we recognize both the need and opportunity for us to operate up 
there. If you left it up to all of us, we would say we do not 
need to cut any more anywhere. So that is where we would be on 
this.
    Senator Sullivan. Thank you, Mr. Chairman.
    Senator Cotton. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    General Williamson, I know you in particular have been 
briefed on my concerns regarding what I see as hesitation by 
the Army to allow competition for tracked vehicle transmissions 
particularly among the Bradley family of vehicles. Last year's 
ATK study emphasized the transmission production is one of the 
most fragile elements of the tracked vehicle industrial base. I 
appreciate what the Army has done to mitigate risks to the 
transmission industrial base in recent years with funding 
provided by Congress.
    But there is a long-term issue here. There have been 
performance issues with Bradley transmissions. We know the Army 
wants to move toward moving a common transmission across the 
Bradley family of vehicles. That drive toward commonality is 
motivated by the desire to drive down costs and improve value.
    If affordability is such a critical factor, my difficulty 
is understanding why you would hesitate to allow competition 
for a component as critical as vehicle transmissions. 
Competition is good for improved performance. It is good for 
driving down costs, and it is good for ensuring we retain the 
strongest possible industrial base.
    So having said that, can I have your commitment that the 
Army will take every appropriate action to ensure that testing 
and other necessary analyses are completed on the alternate 
Bradley transmission in a timely manner?
    General Williamson. Sir, thank you for your question and 
your concern about the industrial base.
    As you stated, this Congress has been a huge supporter of 
the industrial base and the transmission portion of that 
industrial base. So this notion of competition is one that we 
fully support, and as we have engaged with the primes, we have 
asked them to look at where are there opportunities to bring 
competition in to drive down the cost and the efficiency 
associated with the procurement of those powertrains and with 
transmissions.
    Sir, I think the challenge that we have, though, is that as 
we look at this particular portion of the industrial base--and 
it was mentioned in the very beginning of this hearing--we also 
have to look at efficiencies. So as we look at the 
manufacturers and we look at the kit as it is going to be put 
into these different vehicles, where are the opportunities for 
us to, one, support the industrial base but, two, ensure that 
they are driving in efficiencies so that we get transmissions 
at the best cost so that we can reduce the overall cost of the 
platform. So, sir, we are committed to driving towards that 
level of competition and that level of efficiency.
    Senator Donnelly. Well, if other transmissions demonstrate 
a better value to the Army, will we move forward with the value 
engineering change proposal on the Bradley?
    General Williamson. Yes, sir. Sir, absolutely. I think the 
only thing that I would be disingenuous if I did not say to you 
is that as you look at a value engineering change proposal, it 
is the timing associated when you put that into the production. 
So in many cases, sir, it is not a buy an engine and just drop 
it in. In some cases, you have to see how you integrate that if 
that transmission has changed, if the connections have changed, 
if the seating of that transmission. So as we look and work 
with the prime, we have to ensure what is the best opportunity 
to insert this into their production runs.
    Senator Donnelly. So it is value plus the logistics of 
using the particular transmission.
    General Williamson. Yes, sir. I would assure you it is not 
just in transmissions. It is in all aspects of a platform. We 
look for opportunities where competition would allow us to 
drive down the price.
    Senator Donnelly. Could you provide me with a monthly 
update on testing and analysis in the transmission area as we 
move forward?
    General Williamson. Sir, we can do that. As that testing 
starts, we will be able to do that. Sir, I would also add that 
in many cases the original equipment manufacturer, as they are 
doing their testing and that data becomes available, we can 
ensure that that is provided to you.
    Senator Donnelly. Because my concern is, obviously--and it 
is what I say about a lot of things in the industrial area, 
which is, look, if we do not have the best at the most 
reasonable cost that provides the greatest safety, that seems 
to be the combination that we would be looking for more than 
anything.
    General Williamson. Sir, your instincts are absolutely----
    Senator Donnelly. Then whoever wins wins.
    General Williamson. Yes, sir, and that is what I was going 
to say. Your instincts are absolutely on target. I think as we 
look at probably the three main providers of transmissions, 
their ability to go to the platform owners and say, look, here 
is a better mousetrap is something that we encourage both to 
the prime and also to the providers of those transmissions.
    Senator Donnelly. Thank you very much, and thank you to all 
of you for your hard work, for your hard work in maximizing 
value and, maybe more importantly, for your hard work in 
protecting our men and women and protecting our Nation. Thank 
you.
    Senator Manchin. Thank you, Senator.
    What we will do is start a second round now, if you all are 
okay with that. I will start it off.
    I say the Army is trying to create a mobile ad hoc tactical 
network for over 10 years. Results from operational tests, 
however, are still mixed for all technologies both hardware and 
software.
    So, General McMaster, late last year you expressed your 
views on the Army's progress on developing and delivering a 
truly mobile ad hoc technical network. What is your assessment 
of the tactical network's operating concept and tactical 
performance to date? To both General McMaster and General 
Cheek, what are the leaders and soldiers in the field saying 
about the tactical network? So, General McMaster?
    General McMaster. Sir, as you mentioned, the way the 
network developed, it developed in a way that kludge together 
battle command systems and systems from across our--which we 
say somewhat derisively--cylinders of excellence across our 
Army. So the network was fielded in a way that it has never 
been completed. It was incomplete. As you mentioned, we are 
trying to kluge it together over time.
    We have made some significant progress in doing that in 
recent years and see a way ahead through what is called the 
common operating environment, which will allow us to integrate 
what we have and address really the three fundamental problems 
with the network, which is its incompleteness is the first. The 
second is its complexity, and the third that is related to that 
and it is also related to Senator Rounds? question about the 
network also--its vulnerability based on operational security 
concerns and cyber attack and electronic warfare (EW) 
capabilities.
    So what we have done is we have developed a network vision 
and way ahead and a strategy that will aim to address these 
three fundamental issues. The first is to complete it. So we 
are in a situation now where we are halfway down the path, and 
until we can begin to field this network, we cannot fix a lot 
of the issues that we have identified and now see solutions. 
For example, the common operating environment part of this 
which will simplify the network and integrate the multiple 
systems.
    In terms of the complexity of the network, we are working 
very hard on user interface capabilities and the reduction of 
what is needed to maintain these systems, to simplify them as 
part of these programs.
    On the vulnerability side of this as well, we are looking 
at tactics that we can use to use it differently, and then 
placing it in contested environments so that we can develop 
solutions to the vulnerability for the network. That is, 
obviously, the network integration environment. We will be able 
to get even more at some of these outside of testing certain 
equipment during the Army warfighting assessment.
    But the bottom line is, I mean, your characterization of 
the network is correct. I mean, it is incomplete. It is too 
complicated, and it is vulnerable. We believe that General 
Williamson's team has worked extremely well in developing 
solutions to these problems. From a requirements perspective, 
what we have done for the first time is we have looked across 
all of the network and said, okay, what are the common 
requirements across all the network and how do we build to 
those. So that is near- or mid-term.
    Long-term, we need to go to a system that will address all 
three of these fundamental issues, and that is really going 
from thick client to thin client-based networks to be able to 
simplify the network by divesting a lot of the hardware 
associated with the current systems. I mean, that is sort of 
the longer-term approach.
    I will ask General Williamson to comment on this as well.
    General Williamson. Sir, the only thing I would add--and I 
think General McMaster's characterization is on target. Because 
we took fairly complex systems, new technologies, and 
introduced these new software defined radios with very 
sophisticated software and we introduced it piecemeal without 
also addressing the tactics, the techniques, and the training 
associated with those new systems, I think there was a media 
perception, some of it very real, that these radios did not 
provide the same level of capability that they had in older 
systems.
    I think the work that has been done over the last 2 years 
where we have brought these systems together, conducted the 
testing and the training so that we understand the performance 
parameters, and then went back to address those shortfalls--and 
you will see that in a series of engagements over these next 2 
years where we have pushed radios down to the dismounted 
soldier all the way back up to the brigade command post, so you 
have a very resilient network that provides connectivity with 
these new capabilities.
    But I do not want to tell you that it is perfect. It will 
continue to take improvements as you look at, again, the 
sophisticated waveforms and the changes in hardware. So what I 
would offer to you, sir, is that what you have are very high 
speed computers running software now for communications 
systems. So getting those two to work very well together, the 
hardware and the software, has been part of the challenge, and 
then add the new complexity associated with those two things. 
So as we move forward, we have now put these systems into our 
network integration exercises so that we see the pluses and 
minuses with our engineers, with the warfighters there so that 
we can now take and leverage the learning that occurs to update 
those systems.
    Senator Manchin. Thank you both.
    Mr. Chairman?
    Senator Cotton. Thank you, Senator Manchin, for filling in 
for me while I was absent.
    I want to talk now about DCGS. Over the past 5 years, the 
current version of DCGS has struggled to provide its promised 
capabilities. It has failed its own tests, the head assessor of 
the Army's Test and Evaluation Command calling it not 
operational, not suitable, and not survivable in 2012. Maybe 
most important, though, it seems to have continued to fail 
wartime commanders who have continued to file operational needs 
statements to this day for a commercial alternative that is 
successfully in use today by the Marine Corps and Special 
Operations Forces. Even with more than 20 units calling for the 
alternative, because of flaws in the current program of record, 
taxpayers are continuing to spend hundreds of millions of 
dollars on the DCGS program, and it does not seem to be getting 
much better.
    General Williamson, is there a point at which the Army is 
going to cut its losses and look at alternatives?
    General Williamson. Sir, I do not know if this forum will 
give me the opportunity to give you a really detailed response 
to the performance of DCGS, but I would like to address some of 
your immediate concerns.
    So what I would offer initially is that we have fielded 
over 11,000 DCGS systems into the Army, and the Army has been 
fighting with DCGS in very tough environments and providing 
commanders with geospatial information and intel which has 
allowed them to conduct their operations.
    I will absolutely acknowledge that for some formations the 
DCGS system, as large as it is and the requirements for very 
well trained personnel to use, has not been optimal. So those 
requests that you see for a lighter weight, very specific 
capability that we have provided to those units is being 
addressed in the subsequent increments of the DCGS program.
    One of those things, sir, I would tell you to start, is an 
ease of use. We have acknowledged that the complexity 
associated with the buttonology bringing that information 
together has been difficult. So we have tried to invest a lot 
of time, and we have also engaged with over 150 vendors through 
a series of industry days to find out how we can improve the 
existing system.
    But there are some pieces here that I think we often 
disregard. So the completeness of the DCGS program is what 
makes it so valuable. It is the range of capabilities that it 
provides, not a very specific piece in terms of situational 
awareness, that makes the DCGS tool so powerful.
    I think as we go into the May timeframe where we go through 
our next set of evaluations, I think you will see a completely 
different perception of how that tool is provided.
    Senator Cotton. But it is being used by the Marine Corps 
and Special Operations Forces. What capabilities does this 
commercially available alternative lack that the Marine Corps 
does not need that the Army needs?
    General Williamson. So, sir, what I have seen is that they 
use a very specific piece for situational awareness enhanced by 
contractors who do the detailed work behind, not soldiers or 
marines, in terms of taking information. I might add that comes 
from the DCGS system. They take that information and present it 
in a faster, less complex way for them to make decisions.
    Senator Cotton. I mean, the information just comes from any 
intelligence sensor. Whether it is a Joe out on the beach or 
whether it is a satellite in the sky, I mean, it is ultimately 
a database and then you have ways to manipulate and understand 
and present the database.
    General Williamson. If you have access to that information, 
sir. So in some cases as you look at national assets that come 
in, these systems do not have access to that level of 
information.
    Senator Cotton. Okay. Well, I mean, the National Assessment 
Group says that Palantir, the commercial system we are talking 
about, meets all requirements for advanced analytics. It also 
says that our own Testing and Evaluation Command found that 96 
percent of soldiers said Palantir was effective in supporting 
their mission. The Government Accountability Office reported 
that it meets all the needs of the Marine Corps and the Special 
Operations Forces.
    I would just say that in the Cold War, when we were 
fighting a heavy mechanized war against the Soviet Union, we 
produced unique capabilities that were not available in the 
commercial space like tanks. In the post-Cold War era, as the 
information technology revolution has taken over, we have to 
rethink the wisdom of trying to create these systems in the 
Federal Government rather than using commercially available, 
off-the-shelf systems.
    General McMaster, when you were in Afghanistan most 
recently on the Anti-Fraud Task Force, did you submit an 
operational needs statement?
    General McMaster. Yes, sir, I did.
    Senator Cotton. Could you explain why you did that?
    General McMaster. Well, sir, we were looking for a system 
that could provide the capabilities you just described, and we 
did not have DCGS at the time either. So we had neither the 
other alternative to DCGS or DCGS available to us. Essentially 
what we needed was a tool to access multiple databases and then 
to be able to help us understand using big data analytical 
tools, really connections between, for example, nodes through 
networks and the ability to see flows, for example, of people, 
money, weapons, narcotics through those networks that were 
influencing our mission. So, as General Williamson mentioned, 
this was a test of a certain capability, and what we were 
limited by was the ability to access all the various databases. 
I mean, that is really, I think, the key issue here.
    I am not familiar with DCGS personally because again, as I 
mentioned, it was just getting fielded as I was departing our 
task force in Afghanistan.
    There will be a limited user test in May, next month, that 
we will conduct, and I think the conditions are set for that. 
There is funding as well too, if we do identify any 
deficiencies in terms of ease of use, which has been I think 
the principal criticism of the system up to this point, that we 
have the funds available to address those deficiencies.
    Senator Cotton. I apologize. I do not know if this is 
better directed towards General Williamson or the G-3s. Can we 
get an update on where these operational needs statements 
responses stand? It is my understanding there are about 20 of 
them, maybe a little more. For the record. I do not expect you 
to do it right now.
    General Cheek. Well, I am not tracking that many, but I can 
tell you for any unit that requests a Palantir or whatever the 
operational need is, we look at all those very thoroughly. For 
Palantir we are pretty much at about 100 percent approval for 
those.
    There are some that between the unit and the headquarters 
Department of the Army, their intermediate headquarters may 
determine that they do not require that. I will just give an 
example. A unit could request one that is not deploying, and 
for some other reason they believe they need it. That 
intermediate headquarters may say no.
    What we do with them, though, we will be aware of that 
request, and we will work it in parallel so we do not wait 
sequentially for this thing to come to us. But for any 
commander in war that needs something that submits an 
operational needs statement, we pretty much do everything we 
can to get that to them. So it is not something that we say no 
to unless there is probably a recommendation that comes with 
that that this is not needed.
    Senator Cotton. Thank you. Just for the record, if we can 
get an update on that for my staff and the committee staff.
    General Cheek. Yes, sir.
    Senator Cotton. I appreciate it.
    [The information referred to follows:]

    As of April 2015, 19 deploying units have submitted 28 requests for 
commercial, advanced analytic capabilities, to include Palantir. 
Requesting units used the Operational Needs Statement (ONS) process ten 
times and the Rapid Equipping Force (REF) 10-Liner process on eighteen 
occasions. Of the ten ONS requests, seven were endorsed by intermediary 
Commanders and passed to the Department of the Army for decision. In 
those cases, the requirements were validated and the requests approved. 
The remaining three ONS are still being reviewed by subordinate, 
intermediary headquarters. Of the eighteen requests submitted through 
the 10-Liner process, six were approved. Of those approved, REF 
equipped four units with the Palantir capability, supported one unit 
with Field Support Representatives and reachback capability, and one 
unit declined the Palantir equipment once it was available for 
delivery. REF did not support six 10-Liner requests and redirected four 
others into the ONS process. The final two 10-Liners were passed to PM 
DCGS-A for action.

    Senator Cotton. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, I just wanted to follow up quickly again on the 
issue of the Arctic OPLAN. I did not get a direct answer. Do 
you think there is a need for that?
    Let me give you just one kind of specific resource example. 
The U.S. Army in Alaska has just over 50 small unit support 
vehicles (SUSVs). As a matter of fact, in the Spartan Pegasus 
operation, they actually jumped some of these SUSVs. I am sure 
you have traveled in them. They are outstanding vehicles. But 
to my understanding, right now that program--these are 30/40-
year-old vehicles. The program is no longer under development 
in any way. Again, I worry about this being a bit of a symptom 
of us not being Arctic-minded.
    General McMaster, back to you. Knowing the ability to 
actually resource what the Army needs can be generated by 
OPLANs. That is what we do around the world. Do you think there 
is a need for an Arctic OPLAN to help you think through some of 
these issues like SUSV replacement?
    General McMaster. Well, sir, what we will do is work with 
the Army staff and the G-3 in particular and engage NORTHCOM 
and ask them what their assessment is, and working together 
with them, we can offer our campaign of learning under Force 
2025 maneuvers, the experimentation that we do, the wargaming 
we do as a venue to start thinking about future threats along 
with NORTHCOM. Then in terms of the requirements, falling out 
of the OPLAN and the integrated priority lists of the combatant 
commanders, we can make an assessment of how well prepared Army 
forces are for Arctic and related contingencies and then work 
with the Army staff on prioritization and resourcing strategies 
for those.
    Senator Sullivan. Thank you.
    General McMaster. But I will definitely take this on as 
part of our campaign of learning and work with the Army staff 
and NORTHCOM.
    Senator Sullivan. I appreciate it.
    General Cheek, your comments about limited resources, tough 
choices, strategic choices--we appreciate that. We know that 
all of you are working hard, all the Armed Forces, we are on 
the committee. I think part of what we also need to be doing in 
terms of oversight in terms of the different Services is 
looking at the possibility not only of strategic choices but 
redundancies.
    I was just in Asia as part of our oversight 
responsibilities in terms of the rebalance, redeployment of 
forces throughout the Asia-Pacific mostly relating to the 
Marine Corps, Air Force in Guam and Okinawa, Australia, Hawaii.
    General McMaster, you talked about issues such as 
expeditionary forces from the sea on ships. I know there has 
been some discussion on Pacific Pathways. Do you think that 
that, in terms of redundancies, starts to bump up against the 
mission of the U.S. Marine Corps in the Pacific? How does the 
Pacific Pathways initiative differ from the Marine Corps' 
mission in the Pacific? Is that redundancy that we need to look 
at, particularly given that we are looking at possibly cutting 
forces elsewhere, or is there room for both? You mentioned how 
important the Pacific is. I agree with that. But can you speak 
to that issue? I know that that is something that we heard a 
little bit when I was out in the Pacific.
    General Cheek. Yes, sir. We have been working with Marine 
Corps leaders every step of the way in the development of our 
concept work and especially working on Pacific scenarios and so 
forth. We recently had a visit by the Commandant of the Marine 
Corps, General Joseph F. Dunford, Jr., and Lieutenant General 
Kenneth J. Glueck, Jr., Commander, Marine Corps Combat 
Development Command. He and I work together on all these 
issues.
    We believe that based on the lack of capacity in ready land 
forces, the diminishing capacity in ready land forces, both 
Marine Corps and Army, that there is no redundancy at all. In 
fact, there is a lot more work to do across prevent, shape, and 
win than there are forces maybe to do it.
    So the question is how do we work together to ensure that 
we are complementary, and we think we can do that in a number 
of ways. First of all, to complement the Marine Corps 
expeditionary capabilities, we have to make sure that we know 
how to use Navy sea-basing capabilities and Marine Corps sea-
basing capabilities in the context of expeditionary maneuver 
with Army watercraft and joint logistics over the shore. That 
is work that we are doing with Marine Corps Combat Development 
Command right now. We should have some tentative answers on a 
new concept, implications for doctrine, organization, training 
that will be done by the end of the summer.
    The other key thing, sir, that we are looking at is a new 
evolution of Army expeditionary maneuver which, because of 
anti-access/area denial capabilities, that we need to go into 
an offset objective. If we go into an offset objective to 
bypass the enemy area denial capabilities, how do we ensure 
that force has the mobility, protection, and lethality then to 
transition into an offensive operation? We think that the 
Army's ability to operate deep in land with that kind of early 
entry force is complementary because the forces could then be 
critical in defeating enemy anti-access/area denial (A2/AD) 
capabilities or disrupting them such that an amphibious assault 
could occur more effectively. So we are, I think, 
complementary.
    Then if you look at really the need to engage with the land 
forces of Asian armies and marine corps, I mean, certainly 
there is much more demand there than there is capacity.
    So I know that sometimes the Marine Corps--when you say the 
word ``expeditionary,'' they are like, hey, you are in my 
territory. But it is us and the Marine Corps working together 
to ensure this kind of capability, the ability to deploy 
rapidly in crises, transition quickly to operations, and to 
operate in sufficient scale and for ample duration to 
accomplish the mission.
    Senator Sullivan. Okay. Thank you. I just want to make sure 
we are not creating redundancies when, General Cheek, as you 
mentioned, we are also looking at tough choices about removing 
forces from critically strategic locations like Alaska. Thank 
you.
    Thank you, Mr. Chairman.
    Senator Cotton. Thank you, Senator Sullivan.
    I have a question about history, and I have a Ph.D. in 
history in front of me, General McMaster. Can you talk to us a 
little bit about the so-called Abrams Doctrine that developed 
in the late stages right after Vietnam, that the civilian 
leadership of this country should not be able to go to war 
without mobilizing the Reserves? (A) have I accurately stated 
it? (B) what do you think of the doctrine as a matter of 
history and policy?
    General McMaster. Sir, as my advisor told me when I 
graduated, he said, congratulations. You now know more history 
than you will ever know.
    But, sir, I think that this is important because it was an 
important legacy of the Vietnam war in that the belief was that 
our armed forces must be connected with the people in whose 
name we fight, and the best way to do that would be to ensure 
mobilization when U.S. forces are committed. The way that 
General Abrams approached this was to put critical capabilities 
that were needed early in a crisis into the Reserve component.
    Sir, I think what we have to look at today is how do we 
ensure that the capabilities within each of the components are 
complementary to each other and that together, that we provide 
the kind of responsiveness we need and the operational 
strategic depth that we need.
    So this is a constant effort to assess our forces under 
total Army analysis and to understand better how we can build 
or grow or reduce capabilities in each of those components 
relative to one another to be as responsive as possible. So 
this is an ongoing effort. We do it in the context of our 
experimentation and our war games to inform policy decisions.
    Again, the key element I think for us is to continue to 
reassess it and we do, to some extent, still see the legacy of 
that approach, but of course, there have been a lot of years 
between that and organization, structure. Each of the 
components has changed significantly since that time.
    Senator Cotton. Thank you, General McMaster.
    I ask because the Abrams Doctrine is something about which 
I and I assure you all of my colleagues on this committee hear 
about from their TACs in the context of the ARI, which would, 
as I understand it, move all Apaches into the active duty, 
replace them with utility helicopters, and save about $12 
billion, which even in Washington and even in the Army is still 
a lot of money. The TACs that we hear from express reservations 
that this would violate the Abrams Doctrine. They think it is 
not sound for our national defense.
    General Ierardi, would you like to comment on the ARI kind 
of in general and also address that specific term, what is its 
goals, objectives, how are we going to see the impact played 
out on the total Army--Active Duty and Reserve?
    General Ierardi. Sir, the aviation restructure initiative 
really is borne from a high demand for a critical capability 
that our Army provides and that is Army aviation. In the 
context of reduced budgets and the reduced size of the Army and 
pressure on modernizing the aviation force----
    Senator Cotton. When you say ``Army aviation,'' are you 
talking about all----
    General Ierardi. I am talking total Army aviation.
    So this plan is really intended to enhance the readiness in 
the future and the ability of the Army to respond to needs of 
the combatant commanders in the future. It focuses on ensuring 
that we are able to meet these needs by having the capabilities 
required. One of these is the armed reconnaissance mission that 
is important for us to have. There are emerging abilities of 
the Army to accomplish this through the use of manned/unmanned 
teaming, which is a tactic, a capability that would be employed 
in lieu of a Kiowa Warrior aircraft in order for us to be able 
to manned/unmanned team Apache aircrafts with Gray Eagles, for 
example.
    The move of Apache aircraft from the National Guard to the 
Active Army was decided as we are proceeding, intend to gain 
the movement of those Apache aircraft in order to have the 
Apaches necessary while we bring down the number of Active 
component combat aviation brigades to effect that mission set 
in the Active component.
    Conversely as part of this plan, the Army intends to move a 
number of aircraft to the National Guard, and this would 
include UH-60 aircraft which would enhance the warfighting 
capabilities, if you will, the combat capabilities, of the 
National Guard to perform a number of tasks in support of our 
Army in difficult places. My own personal experience with the 
National Guard while deployed in Afghanistan was nothing but 
favorable. There is no question that the missions that they are 
assigned and will be assigned will be done to the highest 
standard.
    So taking those two considerations, the need for the Army 
to conduct armed reconnaissance using manned/unmanned teaming, 
creating an opportunity for us to do that with Apaches, also 
created a concurrent opportunity for us to have in the National 
Guard enhancement in the capabilities there using UH-60s.
    So this also allowed us to divest of three aviation 
platforms, the Kiowa Warrior, the OH-58 Alpha Charlie, and the 
TH-67 training aircraft that we use to train our initial entry 
aviators. As part of this plan, Lakota aircraft, which are 
aircraft that are dual-engine aircraft, replicate the kind of 
aircraft that future aviators will operate with, moved into the 
training base and remain in large part in the National Guard to 
conduct the kinds of missions that are required there.
    So on balance, the aviation restructure initiative intends, 
will enhance readiness. It will allow us to modernize and 
create opportunities from not having Kiowa Warriors, a legacy 
aircraft that was reaching its shelf life, for us to then take 
those dollars which are harvested from the divestment of the 
Kiowa Warrior and invest in other important aviation programs 
such as the improved Turbine Engine Program, continued 
improvements in our Apache fleet, and other aviation 
enhancements, future vertical lift, and joint technology work 
that would allow us to see a future aviation. It created 
opportunities for the Army.
    To your first question that you asked General McMaster and 
you asked me to comment on, I understand the idea that there is 
an idea for interchangeability in capabilities between our 
components. I will tell you that we really need to seek to be 
interdependent and that we bring all of the components of the 
total force--bring a professionalism and a character to a 
number of different mission sets that match the needs of the 
Nation. So interdependence is a very important part of this, 
not interchangeability.
    Senator Cotton. Thank you, General.
    One more question for you, General McMaster. Your 
immediately preceding assignment was at the Maneuver School 
down at Fort Benning. This is obviously focused on the land 
aspect of the Airland Subcommittee's jurisdiction, but an 
ongoing topic with our friends in the air is the A-10. I have 
serious reservations, as does Senator McCain and many other 
Senators, about the plans to stop using the A-10 especially 
before the F-35 has been demonstrated as an adequate close air 
support platform for our troops on the ground in contact.
    Do you care to give your perspective on the A-10?
    General McMaster. Well, sir, even independent of what kind 
of platform, we do believe that close air support is going to 
be more important in the future than ever. The reason is that 
our enemies are really doing four fundamental things as they 
interact with our forces.
    The first is they are evading our standoff capabilities. I 
mean, they are using traditional countermeasures of dispersion, 
concealment, intermingling with civilian populations, and 
deception.
    The second thing that we see them doing in terms of our 
advanced capabilities is they are disrupting them. We see the 
threat of cyber attacks and electromagnetic pulse, maybe even 
attacks on--other EW sort of attacks on our network 
capabilities.
    The third is increasingly we see them emulating our 
capabilities where we may have contested domains that were not 
contested in the past and then they are expanding onto other 
battlegrounds.
    So to cope with this, we are going to have to develop the 
situation we think in close contact with the enemy and civilian 
populations, and that will put a premium on our ability to 
fight in three dimensions and to conduct close air support in 
particular. We think that in the future, Army forces are going 
to have to operate as joint and combined arms teams in smaller 
levels. We may operate while they disperse, but we need the 
mobility to be able to rapidly concentrate, and for us to have 
mutual support between these dispersed formations, we are going 
to have to see and fight across wider areas.
    So we know that close air support will be more important 
than ever in the future, and what we are doing is working with 
the Air Force in what will be a sustained effort over the next 
several years. General Herbert J. ``Hawk'' Carlisle, Commander, 
Air Combat Command, is leading the effort on the Air Force side 
to ensure that we maintain this critical differential advantage 
for our armed forces, which is the ability to conduct close air 
support, to pose that enemy with multiple dilemmas, force the 
enemy to respond to multiple forms of contact simultaneously, 
and to win in this game of rock, paper, scissors, where if the 
enemy's countermeasure to our standoff capability is 
dispersion, the answer is concentrated operations on the 
ground. Then the enemy, to protect something of value to them, 
as we encounter them with land forces, is going to have to 
concentrate, which then makes them vulnerable to those standoff 
capabilities.
    So we know that we have to integrate our efforts more 
closely than ever, and this close air support assessment and 
sustained work with the Air Force is going to be immensely 
important in that connection.
    Senator Cotton. Does the A-10 provide that kind of 
advantage and capability at present in your opinion?
    General McMaster. The A-10 provides some very important 
capabilities, the ability to sustain presence over our forces 
and the ability to use multiple weapons systems. I mean, 
turning radius has something to do with it, and obviously 
mindset of pilots, the training. I mean, there are so many 
aspects to this, and this is what we want to--what we are 
working with with our Air Force teammates who are committed to 
maintaining that close air support capability.
    Senator Cotton. Do any of the other three witnesses have 
any comments about the A-10, not just in your current positions 
but in previous lives in the Army?
    General McMaster. So just to echo, we are working pretty 
closely with the Air Force. The Chief of Staff of the Air Force 
General Mark A. Welsh III invited the Army in and other 
Services to talk close air support.
    I will add one thing. The A-10 also, by operating at lower 
altitudes, I think can discriminate friend/foe much easier than 
another platform. It is a good platform. I think the Air Force 
has concerns about its survivability depending on the 
environment that it is in.
    So we will continue to work with the Air Force. We are not 
going to let them off the hook, not to provide us close air 
support, and we will work closely with them. So I think the 
concerns are well placed, but we are confident the Air Force 
will come up with the right platform and capabilities to 
support us.
    Senator Cotton. Okay. Gentlemen, thank you again for your 
time. Most importantly, thank you for your service to your 
country and everything you do to serve those soldiers 
underneath your command. Thank you for your families for the 
sacrifices they have made.
    As you have heard today, I would say all of the members of 
this subcommittee, as the full committee, are intent on 
increasing our defense budgets. That is the most immediate 
thing that we can do to help. Even if we can accomplish that, 
some of the important reforms, initiatives that we have 
discussed today still need to move forward in an efficient 
manner because we all want to be good stewards of taxpayer 
dollars.
    So thank you all very much. I appreciate your time and your 
service.
    The hearing is adjourned.
    [Whereupon, at 4:11 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                            ground vehicles
    1. Senator Inhofe. General Cheek, what is the Army doing to keep 
the Joint Light Tactical Vehicle (JLTV) and Armored Multi-Purpose 
Vehicle (AMPV) programs on schedule and within costs?
    General Cheek. The Army engaged industry frequently before the 
release of JLTV and AMPV Request for Proposals and has carefully 
considered the performance requirements for both programs. In cases 
where industry identified cost driving requirements or requirements 
that presented additional technical risk, the Army reduced the 
requirements to keep the programs within schedule and cost baselines. 
The Army will continue to review these programs through Configuration 
Steering Boards and adjust programs as necessary to keep them within 
their Acquisition Program Baselines. In addition, AMPV and JLTV are 
managed within affordability limits established by the Army and 
enforced by the Defense Acquisition Executive.

    2. Senator Inhofe. General Cheek, what initiatives has the Army 
taken to reduce acquisition costs and have they been effective?
    General Cheek. The Army has carefully considered its requirements 
to keep technical risks low and will continue to closely monitor 
contractor costs, review programs through Configuration Steering 
Boards, and adjust programs as necessary to keep them within their 
Acquisition Program Baselines. AMPV and JLTV have thus far demonstrated 
effective control of costs while meeting the most important 
requirements of their respective programs.

    3. Senator Inhofe. General Cheek, do you need anything from the 
Senate Armed Services Committee to assist you with further cost 
reductions and acquisition efficiencies?
    General Cheek. While it is understood and expected that there will 
be constraints imposed on the Services to execute their acquisition 
objectives, I believe Congress could provide more flexibility by 
accepting recent legislative proposals aimed at reducing bureaucracy. 
These proposals will (1) reduce redundant documentation; (2) place 
greater emphasis on sound acquisition planning early in the process; 
(3) clarify roles and responsibilities; (4) broaden the processes 
congress established for risk reductions in programs.
    These efforts will ultimately streamline processes and reduce or 
eradicate the red tape associated with the acquisition process. 
Increasing opportunities for acquisition professionals, consolidating 
documentation related to acquisition strategies, simplifying decision 
making, and reducing the regulatory burden, are just a few of the 
things that will undoubtedly enable Program Managers to meet the 
demands of the Warfighter. It is my hope that through these efforts, we 
will foster more transparency and reduce the burdens placed on our 
acquisition workforce.

    4. Senator Inhofe. General Cheek, how is the Army balancing the 
need to modernize its weapons systems with need to sustain and upgrade 
its legacy systems?
    General Cheek. The Army is balancing the need to modernize its 
weapons systems with the need to sustain and upgrade its legacy 
systems. This will be accomplished by protecting Science and Technology 
investments in key technologies that will enable next-generation 
capabilities when resources become available, selectively investing in 
new capabilities for priority areas, incrementally upgrading existing 
platforms, resetting equipment returning from current contingency 
operations, and divesting select platforms to reduce operations and 
sustainment costs. These principles allow the Army to Enable Mission 
Command, Remain Prepared for Joint Combined Arms Maneuver and most 
importantly, Enhance the Soldier for Broad Mission Support. The Army is 
addressing current and emerging threats to ensure every Soldier 
deployed is equipped to achieve decisive overmatch regardless of the 
situation.

                        impact of sequestration
    5. Senator Inhofe. General Cheek, how would a fiscal year 2016 
budget capped at Budget Control Act of 2011 (BCA) levels impact 
programs such as Paladin Integrated Management (PIM), upgrades to 
wheeled troop carriers, purchase of drones, Patriot Guided Missile 
improvements, and the Army's aviation modernization portfolio?
    General Cheek. The President's Budget request for 2016 (PB16) is 
the absolute minimum needed to meet the defense strategy at significant 
risk. We cannot sustain any reduction in funding less than what was 
requested without severely degrading our end strength, readiness, or 
modernization programs.
    The Paladin Integrated Management (PIM) and Patriot Guided Missile 
improvements are two of the Army's critical programs, but reductions to 
the PB16 request will prevent the Army from executing these programs 
efficiently and prevent us from meeting the requirements of the 
National Defense Strategy.
    The Army currently has no programs to upgrade wheeled troop 
transports; we only have modernization programs. These are the Joint 
Light Tactical Vehicle to replace the aging High Mobility Multipurpose 
Wheeled Vehicle s and armor capable Medium Tactical Vehicles to replace 
trucks that cannot take armor. In terms of production, both programs 
would be impacted; and fielding of modernized vehicles will be delayed. 
Procurement quantities and delivery timelines would have to be 
reassessed following any changes to PB16.
    Finally, the modernization of Army Aviation is imbedded in the 
Aviation Restructure Initiative (ARI). The PB16 request is aligned to 
ensure our ability to meet operational requirements, restructure of 
forces, and critical modernization efforts for the UH-60 Blackhawk, CH-
47 Chinook, and AH-64 Apache helicopter fleets. Delaying or stopping 
ARI reduces readiness, slows aviation modernization in all components, 
and requires funding cuts elsewhere.

    6. Senator Inhofe. General Cheek, how has the industrial base been 
impacted by 6 years of budget cuts and what would be the impact of a 
fiscal year 2016 budget capped at BCA levels?
    General Cheek. As a result of an overall decrease of Defense 
spending, Army's Total Obligation Authority has been declining in 
recent years, as well as our Research, Development and Acquisition 
(RDA) budget. The sharp decrease in our RDA budget has created 
significant challenges for small companies that must diversify quickly. 
Today's industrial base includes a large population of highly skilled 
technical and knowledge workers mostly employed by specialized third- 
and fourth-tier subcontractors. Keeping these skilled employees within 
the industrial base has the added benefit of enhancing support for the 
Army's small business partners.
    The impact of six years of budget cuts and of a fiscal year 2016 
budget capped at BCA levels directly relate to the ability of the 
industrial base to support the engineering, manufacturing, development, 
and production of weapon systems. The impacts of sequestration and 
reduced investment will be significant as:
    <bullet>  Companies may view non-defense sectors as more attractive 
and direct their own modernization, research, and production capacity 
away from the defense sector.
    <bullet>  Longer term reductions in funding will threaten the 
Army's future modernization efforts and place major acquisition 
programs at risk.
    <bullet>  Perceived uncertainty in future modernization will 
discourage potential vendors. Early actions needed to compete for major 
programs may be seen as too costly to offset long-term benefits.
    <bullet>  Companies may be less likely to invest in business 
initiatives in the defense sector.
    <bullet>  Companies may experience challenges in retaining skilled 
engineers experienced in designing complex weapon systems.

    7. Senator Inhofe. General Cheek, how does a shrinking industrial 
base impact the Army's ability to acquire new weapon systems?
    General Cheek. Significant reductions in the defense budget and the 
corresponding decrease in Research and Development (R&D) investment and 
procurement affect the industrial base across all portfolios. Major 
defense firms are responding by reducing excess capacity, streamlining 
processes, and revamping supplier relationships, while some smaller 
suppliers are exiting or dramatically reducing their investment in the 
defense industry. The Army carefully assessed risks across all 
portfolios and developed a modernization strategy that balances 
development of new capabilities, incremental upgrades to existing 
platforms, and protection of ongoing production and manufacturing to 
sustain the industrial base.
    The Army remains concerned about the availability of needed skills 
and capabilities in the defense manufacturing and supplier base. 
Mitigation of adverse impacts is being addressed through extended 
production in certain programs, investment in key suppliers on a case-
by-case basis, and advocacy for Foreign Military Sales (FMS).
    Should budgetary reductions continue, fragile lower-tier supplier 
companies could be at great risk and may be unable to remain in the 
defense industry resulting in severe impacts to the Army's acquisition 
efforts.
    To better understand the risk, the Army has initiated studies to 
take an independent look at specific portfolios within the industrial 
base to assess their health, identify critical capabilities, assess 
potential supplier risk, and recommend strategies to mitigate the risks 
to acquire new weapon systems.

    8. Senator Inhofe. General Cheek, the Assistant Secretary of the 
Army for Acquisition, Logistics, and Technology, Heidi Shyu, said the 
Army's research and development budget has declined twice the rate as 
the overall cuts to the Army budget. How does this impact the Army's 
ability to modernize and procure new capabilities needed to address 
future combat requirements?
    General Cheek. Decreases to the Army's overall budget over the last 
several years have had a significant impact on modernization and 
threaten our ability to retain overmatch through the next decade. Since 
2011, the Army has ended 20 programs, delayed 125, and restructured 
124. The velocity of instability around the world has forced the Army 
to take risk in modernization to ensure the readiness and capacity of 
our current force. From fiscal year 2012 to fiscal year 2016, Research, 
Development and Acquisition investments declined roughly 28 percent.
    The Budget Control Act continues to cause significant instability 
to our programs across all portfolios. Major impacts include delays in 
equipping to support expeditionary forces, delays in combat vehicle and 
aviation modernization, increases in sustainment costs to fix older 
equipment, and increases in capability gaps. This would mean that 
Soldiers are at risk to engage in fights in which they lack 
significant, qualitative advantages.
                                 ______
                                 
              Questions Submitted by Senator Dan Sullivan
                              arctic plan
    9. Senator Sullivan. General Williamson, General McMaster, General 
Ierardi, and General Cheek, what is the Army's plan for the Arctic, and 
if we do not have one, what should the Army's plan be?
    General Williamson, General McMaster, General Ierardi, and General 
Cheek. Within its Title 10 responsibilities, the Army works to sustain 
capabilities and readiness to support Combatant Commanders, to include 
the Commander of United States NORTHCOM Command. Currently the Army has 
two Brigade Combat Teams (BCT) stationed in Alaska and a Global 
Response force (GRF) prepared to deploy in support of the NORTHCOM 
Commander if required.

                           arctic resourcing
    10. Senator Sullivan. General Williamson, General McMaster, General 
Ierardi, and General Cheek, given the military activity from a 
resurgent Russia, what strategic guidance do you use that informs your 
decision to reduce Arctic forces in Alaska and what strategic guidance 
do you use to inform your resourcing decisions for arctic capabilities 
and equipment?
    General Williamson, General McMaster, General Ierardi, and General 
Cheek. The Army considers a broad array of criteria when assessing 
which forces and which installations will be impacted by in-
activations. Criteria are based on strategic considerations, 
operational effectiveness, geographic distribution, cost and the 
ability to meet statutory requirements.
    <bullet>  Strategic Considerations: Aligns Army Force Structure to 
the Defense Strategy and Defense Planning Guidance.
    <bullet>  Operational Considerations: Seeks to maximize training 
facilities, deployment infrastructure and facilities to support the 
well-being of Soldiers and their Families. Aligns appropriate 
oversight/leadership by senior Army headquarters for better command and 
control.
    <bullet>  Geographic Distribution: Seeks to distribute units in the 
United States to preserve a broad base of support and linkage to the 
American people.
    <bullet>  Cost: Considers the impacts of military personnel, 
equipment, military construction, and transportation costs.
    <bullet>  Statutory Requirements: Complies with the provisions of 
the National Environmental Policy Act (NEPA) as appropriate, including 
an environmental and socio-economic analysis.
    The Army recently completed Listening Sessions at the Army posts 
that may be affected by the drawdown. The Army is evaluating comments 
and will use them to make a decision on where to reduce in the future. 
An announcement is not expected before the end of June 2015.
    Regarding resourcing decisions for Arctic capabilities and 
equipment, the Army continuously reviews its force structure and design 
as conditions change. To meet fiscal constraints today, the Army has 
had to sacrifice end-strength and modernization, which has placed 
limitations on our ability to address existing and potential demands in 
the Arctic to the extent that we would prefer. Our goal remains to 
ensure that the Army is optimized for a broader range of missions in 
support of the Joint Force.

                       small unit support vehicle
    11. Senator Sullivan. General Williamson, General McMaster, General 
Ierardi, and General Cheek, how does the Army plan to enable Arctic 
mobility in the future, and does that plan include a replacement for 
the Small Unit Support Vehicle (SUSV)?
    General Williamson, General McMaster, General Ierardi, and General 
Cheek. The Infantry Brigade Combat Team (IBCT) is the Army's most 
numerous, and rapidly deployable, combat formation. IBCTs can conduct 
entry operations or deploy by ground, air-land, airborne, and air 
assault. The Army recognizes the mobility limitation of our BCTs once 
deployed, to all environments, including the Arctic. We are looking at 
possible solutions to increase the ability for these units to seize key 
terrain or facilities swiftly to establish a lodgment for follow-on 
forces, however, at this time, there is no plan to replace the Small 
Unit Support Vehicle.

    12. Senator Sullivan. General Williamson, General McMaster, General 
Ierardi, and General Cheek, does not having an Arctic Operation Plan 
(OPLAN) make it difficult--or impossible--to resource important arctic 
capabilities like the SUSV?
    General Williamson, General McMaster, General Ierardi, and General 
Cheek. No, not having an Arctic Operation Plan does not make it 
difficult or impossible to resource arctic capabilities like the Small 
Unit Support Vehicle (SUSV). All Army requirements compete for funding 
among other validated requirements, however at this time there is no 
plan to replace the SUSV.

                           arctic camouflage
    13. Senator Sullivan. General Williamson, General McMaster, General 
Ierardi, and General Cheek, what is the status of our Arctic 
camouflage, and has it kept pace with advancements in thermal imagining 
and radar detection? does not having an Arctic OPLAN make it 
difficult--or impossible--to resource important arctic capabilities 
like camouflage?
    General Williamson, General McMaster, General Ierardi, and General 
Cheek. The existing Arctic camouflage system has not been upgraded 
since its inception in the mid-1970s. The Army's current camouflage 
system, the Ultra-Lightweight Camouflage Net System (ULCANS) was 
developed in the late 1990s and only included Woodland and Desert 
patterns. Due to improvements in technology, these variants are now 
ineffective against current and emerging advanced sensor threats and 
are in need of updates.
    The next-generation ULCANS capabilities add three new variants 
(Arctic, Urban, and Aviation) and upgrade the existing systems 
(Woodland and Desert). The next-generation ULCANS will provide 
concealment from visual, near infrared, short-wave infrared through 
long-wave infrared, ultraviolet, radar, and multi-spectral/hyper-
spectral detection. Ultimately, these systems will provide U.S. forces 
detection avoidance and sensor defeat capabilities as a low-cost force 
multiplier.
    The next-generation ULCANS Capability Development Document is 
awaiting approval from the Joint Staff to begin the acquisition 
process. This requirement will compete for funding in Program Objective 
Memorandum for fiscal years 2017-2021.

    14. Senator Sullivan. General Williamson, General McMaster, General 
Ierardi, and General Cheek, does not having an Arctic OPLAN make it 
difficult--or impossible--to resource important arctic capabilities 
like camouflage?
    General Williamson, General McMaster, General Ierardi, and General 
Cheek. No, the lack of an Arctic Operational Plan (OPLAN) does not 
prevent arctic capabilities like camouflage from consideration for 
resourcing. The Army is currently validating a modernized camouflage 
system requirements document, the Ultra-Lightweight Camouflage Net 
System, which includes Arctic camouflage. If approved, this requirement 
will compete for funding among other validated requirements.

 exercise spartan pegasus and the 4th brigade combat team (airborne), 
                         25th infantry division
    15. Senator Sullivan. General Williamson, General McMaster, General 
Ierardi, and General Cheek, where would this Army's Arctic training, 
equipment, and force projection come from, if not from the two brigade 
combat teams (BCT) in Alaska? could Spartan Pegasus have been done with 
any other Army Airborne unit in the Pacific or in the contiguous United 
States?
    General Williamson, General McMaster, General Ierardi, and General 
Cheek. Under the Army's force generation model, at any given time, 
there are between one to three airborne-capable IBCT units ready and 
available for retasking. Given sufficient funding and time to prepare 
any Army unit can be ready, trained, and equipped to perform Arctic 
missions such as Exercise Spartan Pegasus.

    16. Senator Sullivan. General Williamson, General McMaster, General 
Ierardi, and General Cheek, could Exercise Spartan Pegasus have been 
done with any other Army airborne unit in the Pacific or in the 
contiguous United States?
    General Williamson, General McMaster, General Ierardi, and General 
Cheek. Given sufficient funding and time to prepare, any Army unit 
could conduct operations in the Arctic or Pacific regions.

    17. Senator Sullivan. General Williamson, General McMaster, General 
Ierardi, and General Cheek, Chief of Staff of the Army General Raymond 
T. Odierno in January 2012 said in a trip to Joint Base Elmendorf 
Richardson, ``It is critical to sustain Army capabilities in Alaska. If 
anything ever happens in the world that demands operations in this type 
of environment, this is where we will come for the expertise.'' Just 
over a month ago, U.S. Army Alaska's 4th Brigade Combat Team 
(Airborne), 25th Infantry Division, the only airborne brigade in the 
Pacific, conducted the largest airborne mission north of the Arctic 
Circle in more than a decade. This Joint and Total Force exercise 
called Spartan Pegasus, involved U.S. Army Alaska, the U.S. Air Force 
in Alaska, and Alaskan National Guardsmen. What do you think President 
of Russia Vladamir Putin or Supreme Leader of North Korea Kim Jong-Un 
would think if we got rid of one of Alaska's unique Arctic-combat 
brigades, like the one that did this mission?
    General Williamson, General McMaster, General Ierardi, and General 
Cheek. In order to answer the above question the Army would have to 
speculate on the thoughts of President Putin and Kim Jong-Un. Currently 
the Army uses strategic guidance such as the National Security Strategy 
and the Chairman's Risk Assessment to guide force shaping decisions.
    Our analysis, currently ongoing, aims to produce the best, most 
capable Army we can within the constraints of the budget and authorized 
end strength. In the face of considerable end strength reductions and 
budget limitations, the Army must determine which capabilities are most 
important for meeting the Nation's defense requirements and for 
providing a credible deterrence. This means the Army will accept risks 
in some areas in order to preserve other, more critical capabilities.
    We expect to announce the next round of force structure reductions 
later this summer.
                                 ______
                                 
             Questions Submitted by Senator Joe Manchin III
                     armored multi-purpose vehicle
    18. Senator Manchin. General McMaster, the Army budget request 
provides funds to continue development of the AMPV to replace the M113 
family of armored personnel carriers and support vehicles in the 
armored brigades. What is the importance of the AMPV to armored brigade 
modernization?
    General McMaster, The M113 Family of Vehicles (FOV) is obsolete. 
The M113 has been in service for over forty years and all variants lack 
the mobility, speed, force protection, and survivability to operate on 
the modern battlefield. The M113 also lacks the Space, Weight, Power, 
and Cooling (SWaP-C) capabilities necessary to accept the Army's 
mission command network.
    The Armored Multi-Purpose Vehicle (AMPV) will replace the M113 
Family of Vehicles, which accounts for 30 percent (137 vehicles) of the 
ABCT's armored vehicle fleet. The AMPV will perform the five mission 
roles currently performed by the M113 in the ABCT: Mortar Carrier, 
Medical Evacuation, Mission Command, and General Purpose, and Medical 
Treatment variants.
    The ABCT requires the AMPV to successfully perform its combat 
mission. Not fielding AMPV as part of ABCT modernization would cause 
the ABCT to either use significantly less capable vehicles or place 
Soldiers at extremely high risk or divert combat vehicles to perform 
AMPV mission roles and place mission accomplishment at risk.

    19. Senator Manchin. General McMaster, what is the importance of 
the mobility requirements of the M113 replacement vehicle in the 
armored brigade?
    General McMaster, The Maneuver Center of Excellence developed the 
Armored Multi-Purpose Vehicle (AMPV) requirements after a holistic 
review of the Armored Brigade Combat Teams (ABCT) combat requirements 
in order to fill critical mobility, protection, and Space, Weight, 
Power, and Cooling (SWaP-C) capability gaps.
    The AMPV must directly support, and maneuver across the same 
terrain as, the M1 Abrams tank, and M2/M3 Bradley fighting vehicles in 
the ABCT. The AMPV will perform the missions of resupplying the 
formation, evacuating casualties from the main battle area, providing 
indirect fires, and providing mission command functions on the move.
    These capabilities require the AMPV to maintain position within the 
formation as the ABCT executes mounted operations. Therefore, The AMPV 
requires the same mobility capabilities as the combat vehicles 
formation it supports.

    20. Senator Manchin. General McMaster, what are your views on using 
wheeled armored ambulances in armored brigades?
    General McMaster, Wheeled medical vehicles are unsuitable for 
Armored Brigade Combat Teams (ABCTs) due to the inability to maneuver 
with highly mobile combat vehicles and provide protection against the 
challenging threats that the ABCTs are designed to fight. The M113 
Congressional Inquiry final report (Jan 15) showed that wheeled 
ambulances could not maintain nor provide the mobility needed to 
maintain the pace in an ABCT.
    The assessment found the Stryker Double V Hull (DVH) although 
better than the current M113A3, fails to meet 50 percent of the Key 
Performance Parameters (KPP) of the Armored Multi-Purpose Vehicle 
(AMPV) Capabilities Development Document (CDD) and fails to deliver 
sufficient mobility to maneuver within the ABCT combat vehicles 
formation or provide the force protection/survivability against the 
range of ABCT threats. No existing medical vehicles are suitable 
candidates as a medical evacuation or medical treatment vehicle within 
the ABCT formation based on performance results compared against the 
threshold AMPV capability requirements.

    21. Senator Manchin. General Williamson, how are you using the 
latest acquisition management policies to ensure that AMPV is a stable, 
achievable, and affordable program?
    General Williamson. The Army has been closely monitoring the AMPV 
program since its contract award in December of 2014. Over the coming 
months the Army will conduct a series of Knowledge Point Reviews to 
assess the Preliminary Design Review outcomes in preparation of a 
Configuration Steering Board (CSB) in early Fall. During this CSB the 
Army will consider adjusting requirements as necessary to keep the AMPV 
affordable and on track to deliver this important capability to our 
Soldiers.
                                 ______
                                 
              Questions Submitted by Senator Joe Donnelly
               bradley second phase engineering proposal
    22. Senator Donnelly. General Williamson, General Ierardi, General 
Cheek, looking at the Bradley program, what is the justification behind 
the second phase engineering proposal (ECP2)?
    General Williamson, General Ierardi, General Cheek. As the Bradley 
has been armored to increase protection, it has lost mobility and 
agility. The ECP2 will upgrade key components of the power train to 
reclaim these lost capabilities and accommodates the growth in 
electrical requirements from upgrading its network to improve 
situational awareness and command and control.

    23. Senator Donnelly. General Williamson, General Ierardi, General 
Cheek, why do we need upgrades to the Bradley power train?
    General Williamson, General Ierardi, General Cheek. The Bradley's 
power train requires upgrades for two reasons. First, as we have added 
protection to Bradley, it has become slower and less maneuverable. 
Secondly, we have increased the power demands on the vehicle by adding 
networked capabilities and other equipment that draws electricity and 
has increased power generation requirements. Upgrading the power train 
will increase the Bradley's ability to power the new equipment and 
reclaim some of the maneuverability lost from the added weight of 
greater protection.

    24. Senator Donnelly. General Williamson, when did ECP2 begin and 
when will it end?
    General Williamson. The Bradley ECP2 developmental contract was 
awarded in September 2012. The critical design review was completed in 
August 2014, and a production decision is planned for second quarter 
fiscal year 2017 (2QFY17) with a production contract award in the same 
quarter. Installation of the Bradley ECP2 modifications is due to begin 
2QFY17 and complete in 4QFY33 at a production rate of 180 vehicles per 
year until all 2,574 A3 Bradley's have been modified and fielded.

    25. Senator Donnelly. General Williamson, how much will ECP2 cost 
from start to finish?
    General Williamson. The Acquisition Program Baseline (APB) 
development cost for the Engineering Change Proposal 2 is $542 million 
in base year 2012 dollars (BY2012$). The procurement cost to update all 
2,574 A3 Bradley vehicles to ECP2 configuration is $5,251 million in 
BY2012$. Using base year dollars creates a commonality that accurately 
compares costs across the entire time period.

         bradley second phase engineering proposal transmission
    26. Senator Donnelly. General Williamson, looking at the fiscal 
year 2016 budget request, upgrading the Bradley power train will entail 
the development of a new transmission. What is the status of that 
development effort?
    General Williamson. The ECP2 power train upgrade includes the 
upgrade of the legacy transmission rather than the development of a new 
transmission. This approach has been used successfully with the X1100 
series of transmissions in the Abrams program in the past and is 
similar to the effort ongoing for the current Abrams ECP1 upgrade. The 
transmission component design qualification test is complete (2QFY14), 
with qualification of improved brakes in process to be complete 4QFY15. 
Also, the ECP2 program will begin system level qualification testing in 
2QFY16.

    27. Senator Donnelly. General Williamson, when was it begun and 
what are your key milestones going forward?
    General Williamson. Hydromechanical Power Train (HMPT) 800 system 
integration for Bradley began in fiscal year 2011 as an upgrade to the 
legacy Bradley transmission (HMPT 500-3ECB). HMPT 800 was already 
fielded in foreign vehicles and began production for Bradley and M109A7 
FOV applications in fiscal year 2014. Key milestones going forward are 
completion of component qualification for the brake improvements 
(4QFY15); production decision for brake improvement (3QFY17) in 
conjunction with Bradley ECP2 production decision.

    28. Senator Donnelly. General Williamson, how much do you expect 
the development of a new Bradley transmission to cost and what costs 
does that estimate include?
    General Williamson. The upgrade development of the legacy 
transmission, not the development of a new transmission, is expected to 
cost $40.8 million. This estimate includes the direct cost to the 
supplier for development engineering, component qualification, quantity 
of 12 transmissions for contractor testing, and 15 transmissions to 
support system level government testing for ECP2.

                    bradley transmission performance
    29. Senator Donnelly. General Williamson, have there been 
performance issues with the Bradley transmission in the past?
    General Williamson. In the case of the Hydromechanical Power Train 
(HMPT), there were demonstrated reliability issues during Operation 
Iraqi Freedom in fiscal year 2004. The issues were attributed to 
component quality and inconsistent manufacturing process between 
organic and contractor manufacturing sites. By fiscal year 2008, these 
issues were resolved and reliability exceeded requirements resulting in 
pure fleet release of the HMPT 500-3ECB.

    30. Senator Donnelly. General Williamson, under the current plans 
for ECP2, are you working with the supplier of the legacy transmission?
    General Williamson. Yes, in March 2012, the Army conducted a 
sources sought notice for an 800 hp cross-drive transmission for ECP2 
that could be dropped into the Bradley hull without major modifications 
to the baseline platform. The supplier of the legacy transmission (L-3 
Combat Propulsion Systems) was the only company that responded to the 
government's inquiry.

    31. Senator Donnelly. General Williamson, when was the last time 
there was an Army or independent assessment of the performance of the 
legacy transmission?
    General Williamson. The Extended Follow-on Production Test (EFPT), 
which is a full reliability, availability, and maintainability (RAM) 
assessment was done June 2009 - July 2010. Additionally, HMPT 500-3ECB 
qualification tests were also completed in 2010.

                 update of legacy bradley transmission
    32. Senator Donnelly. General Williamson, has the new transmission 
planned for ECP2 been fielded in any other vehicles in the United 
States or abroad?
    General Williamson. HMPT 800 is fielded in foreign vehicles and 
began production for Bradley and M109A7/M992A3 Paladin Family of 
Vehicles applications in fiscal year 2014.

    33. Senator Donnelly. General McMaster, how different is the new 
transmission developed for ECP2 from the legacy?
    General McMaster, The legacy transmission is the HMPT 500-3ECB 
(ECB). The HMPT 800 is an upgrade of the legacy transmission and is 77 
percent common with it. The net power input has been increased to 800 
horsepower from 600 horsepower with an associated increase in output 
and steering torque. Heat rejection and brake capacity are also 
increased resulting in a slight increase in overall weight. However, 
the overall transmission volume has been retained allowing the improved 
transmission to drop directly into the platform without additional 
modifications as was required in the original solicitation.

    34. Senator Donnelly. General Williamson, where are you with 
testing the planned ECP2 transmission, and what are your schedule and 
significant milestones?
    General Williamson. The transmission component design qualification 
test is complete (2QFY14), with qualification of improved brakes in 
process to be complete 4QFY15. Also, the ECP2 program will begin system 
level qualification testing in 2QFY16.

                    alternative bradley transmission
    35. Senator Donnelly. General Williamson, I understand an 
alternative was offered to the transmission currently planned for ECP2. 
When did the supplier of this alternative transmission first approach 
the Army seeking the opportunity to compete for the future of the 
Bradley program?
    General Williamson. The Bradley office conducted an Industry Day in 
February 2012 where alternative transmission suppliers presented what 
they had currently available. Then in March 2012, the Army queried 
industry sources for an 800 hp cross-drive transmission. L-3 
Communications Combat Propulsion System was the only company that 
responded. Allison Transmission Incorporated (ATI) signed a Cooperative 
Research and Development Agreement (CRADA) with the Tank Automotive 
Research, Development and Engineering Center (TARDEC) in April 2012, 
then this CRADA was updated to modify Bradley vehicles to integrate the 
ATI transmission in October 2013 following a presentation by ATI in 
August at HQDA.

    36. Senator Donnelly. General Williamson, how did the Army consider 
this alternative transmission in planning ECP2?
    General Williamson. The Product Manager Bradley conducted an 
Industry Day in February 2012 where alternative transmission suppliers 
presented what they currently had available. Only the legacy 
transmission upgrade was determined to meet performance (form, fit, and 
function), cost, and schedule requirements for ECP2. In March 2012, the 
Army conducted a sources sought notice for an 800 hp cross-drive 
transmission. The legacy supplier, L-3 Communications Combat Propulsion 
System, was the only company that responded. Follow-on Market Research 
was conducted in January 2013, for a similarly configured cross drive 
transmission. The research evaluated transmissions previously submitted 
by Allison Transmissions Incorporated and other manufacturers; however, 
none were found to be capable of meeting the Bradley Fighting Vehicles' 
maneuver and power requirements.

    37. Senator Donnelly. General Williamson, was there a competitive 
bidding process, and did the Army conduct some type of business case 
analysis?
    General Williamson. In Fiscal Year 2005, Product Manager Bradley 
conducted a Business Case Analysis to determine an economical solution 
to the reliability issues discussed previously. The result of this 
study determined that improvements to the legacy transmission were more 
economical than total replacement of the legacy transmission. In March 
2012, the Army conducted a sources sought notice for an 800 hp cross-
drive transmission. The legacy supplier, L-3 Communications Combat 
Propulsion System, was the only company that responded. Follow-on 
Market Research was conducted in January 2013, for a similarly 
configured cross drive transmission. The research evaluated 
transmissions previously submitted by Allison Transmission 
Incorporation and other manufacturers; however, but none were found to 
be capable of meeting the Bradley Fighting Vehicle's maneuver and power 
requirements.

      development and testing of alternative bradley transmission
    38. Senator Donnelly. General Williamson, it is my understanding 
that the supplier of the alternative transmission has tailored their 
system to the Bradley at their own expense. Is that accurate?
    General Williamson. The supplier is modifying an existing 
transmission (X300) that is in production by Caterpillar Defense in the 
UK and manufactured under license from Allison Transmission 
Incorporated. The transmission is used in the British Army's Warrior 
Infantry Fighting Vehicle (IFV), the Kuwait Army's Desert Warrior IFV, 
and in the Swedish V90 IFV. Both the UK based transmission and the 
Bradley power train compartment must be modified to incorporate the 
transmission into the vehicle. The supplier did perform all vehicle 
modifications and optimizations at their own expense using two Bradley 
vehicles on loan from the Army. Government personnel have attended 
various meetings and design reviews. Some of the major modifications 
done to the Army supplied Bradley A3 vehicles by the supplier include: 
development of a new Power Take-Off (PTO) unit for the cooling fan and 
alternator, recalibration of unit of the engine to match their 
transmission speeds, development of a new final drives, removal of an 
existing transmission mount to fit the transmission into the vehicle, 
modification of the braking and steering, and replacement of the shift 
selector. The Allison Transmissions Incorporation vehicle prototype 
modifications are likely to introduce new proprietary data restrictions 
and consequences for aspects of the vehicle Technical Data Package 
(TDP) that are currently wholly owned by the government.

    39. Senator Donnelly. General Williamson, it is also my 
understanding that the supplier has completed that integration into two 
prototype vehicles and will begin contractor testing in the coming 
weeks at their own expense, with the Army monitoring. Is that correct?
    General Williamson. The supplier has completed the integration into 
one prototype vehicle to date. All vehicle road course testing is 
funded by the supplier. Calibration and optimization testing is 
currently underway at the Northern Indiana Proving Ground, New 
Carlisle, Indiana test facility. In July 2015, performance and 
efficiency testing will begin at the Army's Aberdeen Proving Grounds, 
Aberdeen, Maryland. The Army will be present to view the testing and 
all data is expected to be delivered to the Tank Automotive Research, 
Development, and Engineering Center (TARDEC). Based on the test 
results, the supplier will then integrate a second prototype vehicle 
which will then be delivered to TARDEC in January 2016 for vehicle 
testing in a test laboratory. The Army will fund the testing of the 
vehicle in TARDEC's Power and Energy Vehicle Environmental Laboratory 
(PEVEL).

    40. Senator Donnelly. General Williamson, the Carl Levin and Howard 
P. ``Buck'' McKeon National Defense Authorization Act for Fiscal Year 
2015 required the Army to report to Congress on your Armored Vehicle 
Transmission Industrial Base strategy. That report states that the Army 
is supporting the effort to install and test an alternative 
transmission in Bradley test vehicles. How is the Army involved in 
supporting that installation and contractor testing process?
    General Williamson. A Cooperative Research and Development 
Agreement (CRADA) was developed between the Tank Automotive Research, 
Development, and Engineering Center (TARDEC) and Allison Transmissions 
Incorporation (ATI) for transmission and vehicle integration. PM 
Bradley loaned two vehicles to ATI for transmission integration and 
vehicle level testing, and TARDEC has completed transmission testing in 
their test facility.

    41. Senator Donnelly. General Williamson, the Army's February 2015 
report notes that if the results of contractor testing are positive, 
the Army will conduct follow up testing. What are you looking for in 
the contractor testing, and what is a positive result?
    General Williamson. The Army expects that the contractor testing 
will provide sufficient data to validate that there is no degradation 
of automotive performance with the substitute transmission and that 
critical sustainment data such as reliability and fuel economy support 
an assessment of expected Operations and Support (O&S) costs. The O&S 
cost assessment in conjunction with the contractors' estimated 
acquisition costs are required to judge the validity of the 
contractor's previously submitted cost savings claims to the Army. A 
positive result of contractor testing would be indicated if a business 
case analysis of these acquisition and sustainment costs corroborates 
that a Value Engineering Change Proposal is justified. The Army will 
conduct follow-on testing to verify the business case for the change.

    42. Senator Donnelly. General Williamson, what is involved in the 
Army's follow-up testing, and how long should that take?
    General Williamson. The Army will be performing vehicle testing in 
the Tank and Automotive Research, Development, and Engineering Center's 
Power & Energy Vehicle Environmental Laboratory. The supplier is 
scheduled to deliver the vehicle in January fiscal year 2016. Testing 
will take about three months.

    43. Senator Donnelly. General Williamson, if the Army testing goes 
well, what other analysis must the Army perform in order to determine 
whether you will use this alternative transmission going forward?
    General Williamson. With the data obtained from the testing, as 
well as manufacturing cost estimates, the Value Engineering Change 
Proposal analysis will assess if the functionality (performance, 
reliability, quality, safety, etc.) of the vehicle is maintained or 
enhanced and that there are sufficient life-cycle savings available to 
justify making such a change.

    44. Senator Donnelly. General Williamson, are there elements of the 
cost and schedule analyses that the Army could be doing now, while 
contractor testing is underway?
    General Williamson. The Army is conducting an informal cost benefit 
analysis on the value of competing the Bradley transmission.
                                 ______
                                 
             Questions Submitted by Senator Mazie K. Hirono
                   jungle operations training center
    45. Senator Hirono. General McMaster, Jungle Warfare training is an 
important capability which the United States has not had since the 
closure of the Jungle Training School in Panama. The U.S. Army Pacific 
(USARPAC) runs a Jungle Operations Training Center at Schofield 
Barracks, training soldiers and marines in skills important within the 
jungle environments of the Indo-Asia-Pacific region. Are there plans to 
formally budget and program for this school and to bring it into the 
Army's training structure with the U.S. Army Training and Doctrine 
Command (TRADOC)?
    General McMaster. There are no plans to formally budget or program 
the USARPAC Jungle Operations Training Center at Schofield Barracks and 
to bring it into the Army's training structure with the U.S. Army 
Training and Doctrine Command (TRADOC). TRADOC has provided USARPAC 
assistance with the development of training products to support USARPAC 
with the establishment of their Jungle Operations Training Center. 
TRADOC, through the US. Army Infantry School as the course proponent 
for Jungle Operations, will continue to support the Jungle Operations 
Training Center at Schofield Barracks with training products. TRADOC 
will work with USARPAC to determine the feasibility of a multinational 
training center in the region. The 25th ID is not requesting JOTC 
become an approved and accredited TRADOC course.

                    aviation restructure initiative
    46. Senator Hirono. General Cheek, as the Army moves forward with 
its Aviation Restructure Initiative (ARI), is it considering bringing 
Apaches to Hawaii?
    General Cheek. If the fiscal year 2015 NDAA is executed and the 
transfer of AH-64 Apaches from the Army National Guard (ARNG) to the 
Active Component (AC) is not delayed or hindered in any way, AH-64 
Apaches will arrive in Hawaii in May 2016.
    If the current law is changed and transfers are delayed, Fort 
Riley, Kansas, Schofield Barracks, Hawaii, and Fort Drum, New York will 
lose 24 AH-64 Apaches and approximately 1500 Soldiers and family 
members for an indefinite period of time.
    A delay in fiscal year 2016 will cause the 1st Infantry Division at 
Fort Riley, KS, the 25th Infantry Division at Schofield Barracks, HI, 
and the 10th Mountain Division at Fort Drum, NY, to be short 50 percent 
of their AH-64 Apache helicopters (the loss of one of two Attack 
Helicopter Battalions). Failure to transfer AH-64s from the National 
Guard to Hawaii will result in zero AH-64 Apaches being available to 
train with the 25th Infantry Division's Brigade Combat Teams in Hawaii. 
Delays will cause readiness issues in 3 of 10 Regular Army Divisions 
and leave the assigned Attack Reconnaissance Squadrons unready for 
operational employment in fiscal year 2017.
    Prohibiting future transfers beyond the initial 48 aircraft will 
require $5.52 billion in additional procurement and $350M annually in 
operations & sustainment funding; disrupt or delay nearly all aviation 
modernization programs to include UH-60A Blackhawk upgrades in the 
Guard; create up to a five-year readiness hole and insufficient ready 
forces to meet demands; and/or cause additional Regular Army aviation 
reductions.

                     renewable biofuels power plant
    47. Senator Hirono. General Williamson, energy is vital to our 
national security and an expensive commodity particularly for an island 
state. I applaud the Army's intent to partner with Hawaiian Electric on 
Oahu for the development of a 50-megawatt power plant using renewable 
biofuels that would provide energy security to Army installations and 
stability for the wider electrical grid. Can you provide an update on 
where the Army stands in the process of completing the necessary 
environmental and historic studies to move forward with this project?
    General Williamson. The Army is continuing to move forward with the 
necessary environmental and cultural resource studies as required under 
Federal regulations. On 24 April 2015, the Army published the Notice of 
Availability of the Draft Environmental Impact Statement (DEIS) for the 
proposed lease of land and granting of easements on Schofield Barracks 
and Wheeler Army Airfield to Hawaiian Electric Company (Hawaiian 
Electric) for a 50-megawatt (MW) capacity, biofuel-capable power 
generation plant. The publication in the Federal Register marks the 
beginning of a 45-day public and agency comment period. In addition to 
taking written comments from the public during this period, the Army 
and Hawaiian Electric will host public meeting forums on Oahu on 20 and 
21 May 2015 in order to solicit remarks on the Draft EIS. The public 
comment period will end 8 June 2015. Following the public comment 
period, the DEIS will be revised to address any remarks received. The 
Army expects to reach a Record of Decision for the EIS in December 
2015.
    In addition to the DEIS, the Army is conducting the Section 106 
consultations required by the National Historic Preservation Act and 
has sought consultation with the Hawaii State Historic Preservation 
Officer (SHPO), numerous Native Hawaiian Organizations and the Advisory 
Council on Historic Preservation, among others as part of that process. 
Army has reached a tentative agreement with SHPO, Hawaiian Electric, 
and Historic Hawaii Foundation for a determination of `no adverse 
affect, with conditions'. The project proponent has agreed to use 
vegetation screening of the power poles to avoid the adverse visual 
impact to historic districts located on the installation and Army 
anticipates written concurrence from SHPO within two weeks.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
